Department of Defense
   Inspector General
  400 Army Navy Drive
Arlington, VA 22202-4704
	
	   Message from the Inspector General
        I am pleased to provide the Department of Defense Inspector General Semiannual Report
        to Congress for the reporting period October 1, 2008 to March 31, 2009. We have been
        productively working on the behalf of the warfighters and taxpayers to identify fraud, waste,
        and abuse in the operations and programs of the Department.
           In 2009, the Department prepared for anticipated shifts in strategies and addressed a need
        to re-shape and re-balance its direction. The Department remains focused on taking care of
        its people, prevailing in the current conflicts, and shaping the force.
            Managing a Department with over 3 million employees and a budget of over $500 billion
        is a remarkable challenge. The Department is making significant progress in addressing its
        management challenges, although there are weaknesses that still need to be addressed.
            For example, the Department has committed to improving its management of taxpayer’s
        money by eliminating programs that are over budget and implementing new acquisition
        guidelines. The DoD IG provides oversight of the Department’s spending, and has issued 11
        audits during this reporting period related to acquisition processes and contract management.
             The Department has been responsive and has benefited from the collection of work
        provided by the DoD IG. We have produced special assessments in the area of foreign
        military sales, logistics sustainability, and the accountability of night vision devices. Our
        Intelligence component supported both Operation Enduring Freedom and Operation Iraqi
        Freedom by conducting a review of intelligence resources at the Joint Intelligence Task Force
        Combating Terrorism and the Special Operations Command.
            During this reporting period, the Defense Criminal Investigative Service, working closely
        with counterpart law enforcement agencies, was responsible for returning $1.1 billion in
        fines, restitutions, and recoveries to the U.S. government. Investigations resulted in 183
        indictments and 108 convictions. Our auditors issued 66 reports and identified $115.5
        million of funds put to better use. Additionally, we achieved $161.7 million in identified
        funds put to better use from reports issued in previous years. Our Defense Hotline handled
        over 6,000 contacts resulting in the recovery of an additional $1.5 million.
            Our field offices in Afghanistan, Iraq, Qatar, and Kuwait are well established and are
        conducting a series of key reviews that will have a real impact on the Department’s operations
        in Afghanistan and Iraq.
            This semiannual report focuses on major challenge (risk) areas faced by the Department
        during the reporting period: Acquisition Processes and Contract Management; Weapons
        and Equipment Accountability; and Technology Protection and Cyber Security. The report
        also focuses on protecting the warfighter by ensuring that they have reliable equipment and
        quality health care.
            The insert accompanying this report highlights our strategic alignment with the
        Combatant Commands. We emphasize utilizing joint or collaborative reviews as a tool to
        provide effective oversight in future dynamic environments.
             In closing, I want to express my appreciation for the accomplishments of all DoD IG
        employees and commend them on their professionalism, dedication, and devotion to service.
        I am honored to note that the DoD has 147 employees eligible for the Secretary of Defense
        Medal for the Global War on Terrorism as of March 31, 2009. I also want to express my
        appreciation to Congress and the Department for their continued support in improving DoD
        operations and programs.


                                            Gordon S. Heddell
                                          Acting Inspector General
Department of Defense
Inspector General
Semiannual Report to the Congress
October 1, 2008 to March 31, 2009




                  Inspector General Act of 1978,
                             as amended
                   Title 5, U.S. Code, Appendix

   2. Purpose and establishment of Offices of Inspector General;
                departments and agencies involved

        In order to create independent and objective units--

      (1) to conduct and supervise audits and investigations
           relating to the programs and operations of the
               establishments listed in section 11(2);

    (2) to provide leadership and coordination and recommend
policies for activities designed (A) to promote economy, efficiency,
 and effectiveness in the administration of, and (B) to prevent and
   detect fraud and abuse in, such programs and operations; and

 (3) to provide a means for keeping the head of the establishment
  and the Congress fully and currently informed about problems
       and deficiencies relating to the administration of such
         programs and operations and the necessity for and
                   progress of corrective action;
Table of Contents
I. DOD IG MISSION AND EXECUTIVE SUMMARY................................1

	         A. BACKGROUND............................................................................2

	         B. SUMMARY OF ACCOMPLISHMENTS......................................4

II. ACCOMPLISHMENTS OF THE DOD IG...........................................11
.
	      A. OVERSIGHT OF DOD OPERATIONS......................................13
                	
		           1. OPERATION ENDURING FREEDOM.........................17

		                   2. OPERATION IRAQI FREEDOM...................................23

	         B. OVERSIGHT OF DOD PROGRAMS.........................................31

		                   1. AUDITS...........................................................................31

		                   2. INVESTIGATIONS.........................................................38
	
		                   3. INSPECTIONS................................................................47

		                   4. DEFENSE HOTLINE......................................................48

III. OTHER DOD OVERSIGHT..............................................................49

	         A. ARMY...........................................................................................50

	         B. NAVY............................................................................................59

	         C. AIR FORCE..................................................................................66

IV. CONGRESSIONAL BRIEFINGS AND TESTIMONY.........................75

V. COMPONENT OVERVIEW..................................................................79

	         A. AUDIT..........................................................................................80

	         B. INVESTIGATIONS......................................................................81

	         C. INTELLIGENCE..........................................................................82

	         D. POLICY AND OVERSIGHT.......................................................83

	         E. SPECIAL PLANS AND OPERATIONS......................................84

VI. APPENDICES......................................................................................85
                                     DoD IG Reporting Requirements

                                  The Inspector General Act of 1978, as amended, states that each inspector general shall no later than
                                  April 30 and October 31 of each year prepare semiannual reports summarizing the activities of the
                                  office during the immediately preceding six-month periods ending March 31 and September 30.

                                  The IG Act specifies reporting requirements for semiannual reports. The requirements are listed
                                  below and indexed to the applicable pages.



 IG Act
                                                     Reporting Requirements                                                  Page
References
Section 4(a)(2)   “review existing and proposed legislation and regulations...make recommendations...”                        N/A

Section 5(a)(1)   “description of significant problems, abuses, and deficiencies...”                                          11-48

Section 5(a)(2)   “description of recommendations for corrective action...with respect to significant problems, abuses,       11-48
                  and deficiencies...”
Section 5(a)(3)   “identification of each significant recommendation described in previous semiannual reports on which       138-139
                  corrective action has not been completed...”
Section 5(a)(4)   “a summary of matters referred to prosecutive authorities and the prosecution and convictions which         11-48
                  have resulted.”
Section 5(a)(5)   “a summary of each report made to the [Secretary of Defense] under section 6(b)(2)...” instances            N/A
                  where information requested was refused or not provided”
Section 5(a)(6)   “a listing, subdivided according to subject matter, of each audit report issued.” showing dollar value      86-94
                  of questioned costs and recommendations that funds be put to better use.
Section 5(a)(7)   “a summary of each particularly significant report...”                                                      11-48

Section 5(a)(8)  “statistical tables showing the total number of audit reports and the total dollar value of questioned        96
                 costs...”
Section 5(a)(9) “statistical tables showing the total number of audit reports and the dollar value of recommendations          96
                 that funds be put to better use by management...”
Section 5(a)(10) “a summary of each audit report issued before the commencement of the reporting period for which              96
                 no management decision has been made by the end of reporting period...”
Section 5(a)(11) “a description and explanation of the reasons for any significant revised management decision...”            N/A

Section 5(a)(12) “information concerning any significant management decision with which the Inspector General is in           N/A
                 disagreement...”
Section 5(a)(13) “information described under Section 804 [sic] of the Federal Financial Management Improvement               N/A
                 Act of 1996...” (instances and reasons when an agency has not met target dates established in a reme-
                 diation plan)
Section 5(b)(2) “statistical tables showing the total number of audit reports and the dollar value of disallowed costs...”     97

Section 5(b)(3)   “statistical tables showing the total number of audit reports and the dollar value of recommendations        97
                  that funds be put to better use by management agreed to in a management decision...”
Section 5(b)(4)   “a statement with respect to audit reports on which management decisions have been made but final          100-137
                  action has not been taken, other than audit reports on which a management decision was made within
                  the preceding year...”
Section 8(f)(1)   “information concerning the number and types of contract audits...”                                          98
DoD IG Mission &
Executive Summary
Serving the Congress and the Department
     Department of Defense Inspector General
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department of
Defense that was created by the Inspector General Act of 1978, as amended. We are dedicated to serving the warfighter
and the taxpayer by conducting audits, investigations, and inspections that result in improvements to the Department.
We provide guidance and recommendations to the Department of Defense and the Congress.

                                                  MISSION
             Promote integrity, accountability, and improvement of Department of Defense personnel,
            programs and operations to support the Department’s mission and serve the public interest.

                                                    VISION
                            One professional team strengthening the integrity, efficiency,
                                 and effectiveness of the Department of Defense.

                                              CORE VALUES

                               Accountability • Integrity • Efficiency

           SERVING THE WARFIGHTER                                         SERVING THE TAXPAYER




              Goal 1                                  Goal 2                                    Goal 3
Improve the economy, efficiency, Eliminate fraud, waste, and abuse in Ensure the efficiency and effectiveness
and effectiveness of Department of the programs and operations of the of DoD IG products, processes, and
Defense personnel, programs, and Department.                          operations.
operations.



2
                                                                                        Semiannual Report to the Congress
   Organization and Missions of the
Department of Defense Inspector General
                                                         Secretary of
                                                           Defense




                                                       Inspector General
                                                     Department of Defense




                                                       Principal Deputy
                                                       Inspector General




     Deputy for                 Deputy for             Special Deputy for            Deputy for                 Deputy for
      Auditing             Policy and Oversight         Special Plans and           Investigations              Intelligence
                                                           Operations


                                                        AUDITING
The Office of the Deputy Inspector General for Auditing conducts audits on all facets of DoD operations. The work results in
recommendations for reducing costs, eliminating fraud, waste, and abuse of authority, improving performance, strengthening
internal controls, and achieving compliance with laws, regulations, and policy.

                                              Policy and Oversight
The Office of Deputy Inspector General for Policy and Oversight provides oversight and policy for audit, investigative, and
hotline activities within the DoD; conducts inspections and evaluations of DoD programs; provides technical advice and support
to IG projects; and monitors corrective actions taken in response to IG and GAO reports.

                                        Special Plans and Operations
Special Plans and Operations facilitates decision-making by senior leaders of the Department of Defense, U.S. Congress, and
other government organizations by providing timely, high-value assessment reports on strategic challenges and issues, with
special emphasis on the Global War on Terror and Southwest Asia.

                                                    Investigations
The Office of the Deputy Inspector General for Investigations comprises the criminal and the administrative investigative
components of the DoD IG. The Defense Criminal Investigative Service is the criminal investigative component of the DoD IG.
The non-criminal investigative units include the Directorate for Investigations of Senior Officials, the Directorate for Military
Reprisal Investigations, and the Directorate for Civilian Reprisal Investigations.

                                                      Intelligence
The Office of the Deputy Inspector General for Intelligence provides oversight (audits, evaluations and inspections) across the
full spectrum of programs, policies, procedures and functions of the Intelligence Community, Special Access Programs, Nuclear
Enterprise and related security issues within the Department of Defense.
                                                                                                                               3
October 1, 2008 to March 31, 2009
    Department of Defense
    Where We Are Today

                                                 ADDRESSING DOD CHALLENGES




     The United States has been engaged in combating terrorism now for
     over seven years. Over 170,000 troops have been deployed around
     the globe in support of a prolonged, worldwide campaign. The
     Department is undergoing shifts in strategy, as well as dealing with an
     increasingly challenging security environment.

     The DoD IG is performing audits, investigations, and inspections to
     support the Department’s mission. The Department is pursuing the
     following objectives:

     •	 Prioritizing support to warfighters and their families, particularly
        ensuring the best care for those wounded in combat;
     •	 Prevailing in the current conflicts, with an emphasis on providing
        troops in the field what they need to be successful; and
     •	 Shaping the Department’s strategy, resources, capabilities and
        processes to effectively balance the requirements of current threats
        and future challenges and contingencies.
      The Department of Defense Inspector General identifies the
      most serious management and performance challenges facing the
      Department and assesses the progress in addressing those challenges
      in the DoD Performance and Accountability Report. The PAR can be
      viewed at www.defenselink.mil/comptroller/par



4
                                                                               Semiannual Report to the Congress
                                                             DoD IG: Providing Oversight
                                                             & Focusing on Critical Areas
                                                            Acquisition Processes &
                                                            Contract Management
                                                           •	 Over $350 billion in annual procurements
                                                           •	 Adequately staffing the government acquisition
                                                              team
                                                           •	 Contract procurement fraud


   Looking Forward                                          Protecting the Total Force

   The DoD IG is focusing its resources and                •	 DoD military health system
   manpower in critical areas for the Department to        •	 Reliable equipment and vehicles
   improve its programs and operations. Independent        •	 Taking care of people
   oversight of the Department is essential to ensure
   the public’s confidence and protect the warfighters.
   The Department continues to make progress
   in addressing management challenges that will
                                                            Weapons & Equipment Accountability
   position it for success in meeting the goals of
   supporting the troops and their families; reshaping     •	 Accountability of munitions
   the forces; and modernizing capabilities.               •	 Control of sensitive items
                                                           •	 Iraq and Afghanistan security forces


                                                            Technology Protection &
                                                            Cyber Security
                                                           •	 Illegal purchasing of military technology
                                                           •	 Conspiracy to export illegal goods
                                                           •	 Protecting DoD information




                                                          To learn more about the Department of Defense
                                                          Inspector General, please visit us on the Web at
                                                          www.dodig.mil




                                                                                                               5
October 1, 2008 to March 31, 2009
     DoD contracting procurement                        Acquisition Processes &
     fraud comprises over 60 percent                    Contract Management
     of the DCIS case inventory.                        The Department has faced tremendous challenges providing
     These crimes have a significant                    oversight over large amounts of spending for many years and
                                                        was heightened in recent years because of large spending
     impact on the Department and                       increases associated with the war effort. We continue to
     the warfighter. For example,                       identify issues with the acquisition process and contract
                                                        management. Attempts by the Marine Corps to quickly
     shortly after this reporting period                field an expeditionary vehicle led to program management
     began, an investigation involving                  and contracting problems.
                                                              We continue to find problems with the oversight of
     DCIS and other members of                          large contracts for information systems and information
     the National Procurement Task                      technology services. Contracts for these services have been
                                                        awarded for billions of dollars and are often decentralized
     Force and the International                        and not closely managed. We identified significant issues
     Contract Corruption Task Force                     on an Air Force information systems contract. In addition,
                                                        DoD did not effectively manage a public affairs program in
     resulted in a former Defense                       support of the war effort.
     contractor pleading guilty in a                         The Deputy Assistant Secretary of Defense for Internal
                                                        Communications and Public Liaison (Deputy Assistant
     scheme to steal approximately                      Secretary) conducted the America Supports You program
     $39.6 million worth of fuel from                   (created in 2004) in a questionable and unregulated manner.
                                                        Also, the American Forces Information Service, working
     the U.S. Army in Iraq.                             under the authority of the Deputy Assistant Secretary,
                                                        inappropriately transferred $9.2 million of appropriated
                                                        funds to Stars and Stripes through uniform funding and
    Acquisition Workforce                               management procedures to finance ASY program expenses
                                                        through its nonappropriated fund.
    The extensive reliance on the contractor
                                                             The Department continues to face challenges with
    support workforce has led to instances
                                                        providing effective oversight of the Department’s acquisition
    where contractors are performing inherently
                                                        and contract management processes. In the last six months,
    governmental functions.           The Federal
                                                        we identified issues with contract pricing, decentralization
    Acquisition Regulation defines inherently
                                                        and management of information systems and information
    governmental as a function that is so
                                                        technology services, management and funding and
    intimately related to the public interest as
                                                        inappropriate practices related with a public affairs program.
    to mandate performance by government
                                                        We also identified issues with the extensive reliance on
    employees. These functions include activities
                                                        the contractor support workforce has led to instances
    that require either the exercise of discretion in
                                                        where contractors are performing inherently governmental
    applying government authority, or the use of
                                                        functions.
    value judgments in making decisions for the
    government. Additionally, these functions
    involve interpretation and execution of the
    laws of the United States so as to bind it to
    take or not to take some actions by contract,
    policy, regulation, authorization, order, or
    otherwise. Examples include determining
    what services to order, administering contracts,
    and performing investigations.



6
                                                                                      Semiannual Report to the Congress
  Military Health System                                                           Protecting
  The Department of Defense faces an enormous hurdle in improving
  the health care of its employees, soldiers, sailors, airmen and                  the Total Force
  marines.
      The DoD military health system has been moving forward on
  improving health care while attempting to control costs. DCIS,
  assisted by the DoD IG Office of Auditing and other federal
  agencies, were recognized for their role in the investigation of the
  largest fraud in TRICARE history and received the award for the
  Investigation of the Year by the National Health Care Anti-Fraud
  Association for 2008.
       This 5-year investigation into the largest overseas TRICARE
  fraud in the history of the program resulted in a 75-count
  indictment against the defendants for defrauding TRICARE of over
  $100,000,000 and, ultimately, their guilty pleas. The investigation
  began when DCIS and U.S. Attorney’s Office investigators, while
  in the Philippines investigating other fraud matters, received
  complaints of apparent excessive billings. Wisconsin Physicians
  Service Program Integrity Staff, a TRICARE contractor, identified
  increased claims from the Republic of the Philippines through
  a Philippine company that functioned as a health care provider,
  third-party biller and supplemental insurer. A review of thousands
  of documents involving claims submitted to TRICARE showed a
  pattern indicating that the defendants consistently increased the
  dollar amount on claims by over 200 percent before submitting
  them for payment.




  Protecting the Warfighter
  One of the most important issues that the Department has to face is the challenge of providing our warfighters with the
  proper equipment to ensure their safety. This includes providing them with the proper body armor, and mine resistant
  vehicles, in order for their protection against insurgent and terrorist attacks. The DoD IG conducted two audits to assist
  the Department in this critical area.
      A DoD IG audit found that first article testing of body armor procured under an Army contract was not consistently
  conducted or scored in accordance with contract terms, conditions, and specifications. We recommended that the Army
  immediately identify and facilitate the return of about 16,400 sets of certain ballistic inserts purchased under the contract,
  and remove those certain ballistic inserts from inventory. Although the Secretary of the Army disagreed with the finding,
  he agreed to order the identification and collection of the ballistics inserts designs.
      An audit on the “Marine Corps Implementation of the Urgent Universal Needs Process for Mine Resistant Ambush
  Protected Vehicles” found that DoD was aware of the threat posed by mines and improvised explosive devices in low-
  intensity conflicts and of the availability of mine-resistant vehicles years before insurgent actions began in Iraq in 2003.
  Yet DoD did not develop requirements for, properly fund, or acquire MRAP-type vehicles for low-intensity conflicts that
  involved mines and IEDs. As a result, the Department entered into operations in Iraq without having taken available steps
  to acquire technology to mitigate the known mine and IED risk to soldiers and Marines.




                                                                                                                                   7
October 1, 2008 to March 31, 2009
     Afghanistan & Iraq                                               Weapons Accountability
     Security Forces
     The DoD IG performed assessments in Afghanistan
     and Iraq in May 2008 on the management of
     weapons accountability and control in Afghanistan
     and Iraq, among other issue areas.
     •	 The primary issues in Afghanistan were the
        lack of written policies and procedures for
        munitions accountability at the U.S. Central
        Command and DoD organizations located
        in Afghanistan. In addition, we determined                    The DoD IG has completed a series of four assessments
        chains-of-custody were not maintained,                        and has one ongoing assessment that include issues
        weapons were not properly inventoried, serial                 regarding accountability and control of munitions
                                                                      and sensitive items transferred or being transferred to
        numbers were not recorded and reported, and
                                                                      the security forces of Afghanistan and Iraq. The four
        captured weapons were not addressed.                          completed reports contained 69 observations and 206
     •	 In Iraq, we determined that 29 of the 45                      recommendations and included accountability issues as
        recommendations made during our first                         a primary topic in those reports.
        assessment directed to DoD management and                          The DoD IG deployed a team to Iraq in October
        field commanders had been completed and                       2007. We first made visits of approximately one week
        closed, while 16 were open with corrective                    each to Afghanistan and Kuwait to gain a theater-wide
        actions ongoing. In addition, we determined                   perspective of the arms and ammunition accountability
        that serial numbers were not accurately                       and control situation in Southwest Asia. The primary
        recorded at Iraqi warehouses and that the                     issues in Iraq were the lack of written policies and
        Ministry of Defense captured weapons policy                   procedures for weapons and ammunition accountability.
                                                                      In addition, we determined chains-of-custody were not
        had not been fully implemented.
                                                                      maintained, weapons were not properly inventoried,
                                                                      serial numbers were not recorded and reported, turnover
                                                                      procedures to ISF were not established, and captured
                                                                      weapons were not addressed.

    Controls Over Sensitive Items
    The DoD IG deployed a team to Iraq in October-November 2008 to evaluate the management of Night Vision Devices
    and determined that continuing and significant weaknesses in the management of NVDs existed.
    •	 The Multi-National Security Transition Command-Iraq had procured 50,740 NVDs for ISF since 2004. In its log
        book, the Multi-National Security Transition Command-Iraq could account for 46,876 NVDs by quantities issued
        to major ISF organizations (e.g., the Ministries of Defense and Interior), due-ins, and items in storage but could not
        account for 3,864 NVDs. Of the 46,440 NVDs delivered to ISF organizations, the Multi-National Security Transition
        Command-Iraq could not provide issue documentation for more than 21,000, could not provide serial numbers for
        more than for 26,000, and could seldom identify specific ISF units receiving the devices.
    •	 In addition, U.S. forces’ policies and standard operating procedures were not always issued, complete, or implemented
        and in some cases were contradictory. Furthermore, ISF had not issued policies and standard operating procedures
        for the management, accountability, and control of NVDs. Additionally, the Multi-National Security Transition
        Command-Iraq had not developed procedures for the execution of the Department of State Blue Lantern Program
        (an end-use monitoring program), or provided monitoring guidance for equipment procured through pseudo-Foreign
        Military Sales cases.
    The DoD IG team once again deployed to Afghanistan in March 2009 to follow-up on the management of weapons
    accountability and control in Afghanistan, among other issue areas.

8
                                                                                                Semiannual Report to the Congress
 Technology Protection                                                          Defense Criminal
  Military conflict presents unique and consequential challenges
  to the Department of Defense. Among the most significant                      Investigative Service
  is the enhanced need to guard the American warfighter’s
  supremacy on the battlefield by protecting our technology
  and weapons advantage. While the locations and foes we face
  may change, the nature of this threat does not.
        Regardless of where the conflict is being waged, our
  technological advantages are constantly targeted by our
  adversaries who seek to neutralize them or to divert them to
  their use, and thereby place our men and women in uniform
  at greater risk. These attempts come in many forms including
  illegal purchases of major aircraft parts, theft of night vision
  technology, to compromise of networks and exploitation of
  protected software.
      Here are just a few of the results of investigations conducted
  by DCIS, along with counterpart law enforcement agencies
  during this reporting:
  •	 An Iranian man and his company were charged in March
       2009 for attempting to supply Iran with helicopter
       engines and aerial cameras for fighter bombers.
  •	 In February 2009, a Chinese national admitted to
       conspiring to export military-grade night vision
       technology from the U.S. to the Republic of China.
  •	 That same month, two brothers pleaded guilty to steal
       optics from the Marine Corps and export them to
       purchasers in Hong Kong, Japan and Taiwan.
  •	 In January 2009, the vice president of a company
       in Los Angeles, CA, was charged with exporting
       restricted integrated circuits to China. The circuits,
       considered to be “dual use” technology, had a variety
       of potential applications including use in sophisticated
       communications and military radar systems.


 Cyber Security
 The Department is continually challenged to maintain a cyber security barrier, not only for the defense of DoD's Global
 Information Grid but also the protection of sensitive data on Defense contractor networks. Currently, there are no
 requirements compelling DoD contractors to report the loss of sensitive but unclassified Defense information. While the
 Department has begun to form ad hoc agreements with contractors asking that they voluntarily report intrusion and data
 loss in exchange for classified cyber threat data from the Department to be used to better protect contractor networks, this
 is occurring on a case-by-case basis.
      This reporting usually ends up in intelligence channels, where access to it is restricted. As a result, the Department
 frequently does not have the opportunity to pursue the hackers and data thieves using the traditional criminal investigative
 means. Nor does the Department have the opportunity to provide for the oversight of contracts with Information Assurance
 provisions that may not have been implemented by the victim contractors – a situation that could result in contract fraud
 and further susceptibility to data loss.



                                                                                                                                9
October 1, 2008 to March 31, 2009
 Summary of Performance                                              DoD IG Profile
 During this reporting period, the DoD IG continued
 directing its resources towards those areas of greatest risk
 within the Department. We addressed a variety of issues             Staffing and Budget
 by conducting audits of programs, investigating criminal            As of March 31, 2009, our workforce totaled
 activity, and assessing key operations. Audits focused on           1,530 employees. The fiscal year 2009 budget is
 management challenges related to the following programs:            $271.8 million.
 •	 Financial Management
 •	 Acquisition Processes and Contract Management                    Office Locations
 •	 Joint Warfighting and Readiness
                                                                     The DoD IG is headquartered in Arlington, VA.
 •	 Information Assurance, Security, and Privacy
 •	 Health Care                                                      Field audit and investigation offices are located
 Investigations focused resources on the following areas of          across the United States including California,
 criminal activity:                                                  Missouri, Texas, Ohio, Pennsylvania, and Florida.
 •	 Corruption and Fraud, especially in Southwest Asia               In addition, the DoD IG has offices across the
 •	 Technology Protection                                            world including Germany, Korea, Afghanistan,
 •	 Cyber Security                                                   Iraq, Qatar, and Kuwait.
 •	 Terrorism
 In addition, the DoD IG focused attention on a broad                About Our People
 array of challenging issues affecting the safety, health, and       The DoD IG is a knowledge driven organization,
 well-being of U.S. troops, such as body armor testing               and its employees are experts in fields such as
 requirements and TRICARE controls. The DoD IG has
                                                                     auditing, criminal investigations, computer
 conducted assessments and inspections to address issues of
                                                                     security, intelligence, hotline complaints, military
 national and international significance, such as the review of
 electrocution deaths in Iraq and munitions accountability           reprisals and many others. As of March 31st, 147
 in Afghanistan. The DoD IG has responded to requests                employees or 10 percent of our total workforce
 from Congress to review challenges to the Department and            are eligible for the Secretary of Defense Medal for
 conducted work pursuant to several significant statutory            the Global War on Terrorism.
 mandates.

 Results Attained
     AUDIT
     Reports Issued					                              66
     Potential funds put to better use			             $115.5 million
     Achieved monetary benefits			                    $161.7 million

     	
     INVESTIGATIONS				
     Indictments					                                 183
     Convictions					                                 108
     Suspensions					                                 33
     Debarments					                                  28
     TOTAL RECOVERIES				                             $1.1 billion


10
                                                                                               Semiannual Report to the Congress
Accomplishments
of the DoD IG
                                                                                      Accomplishments of the DoD IG


About the DoD IG Semiannual Report
The Inspector General Act of 1978, as amended, states that the IG will conduct and supervise audits and investigations
relating to the operations and programs of the establishment. Accordingly, the significant accomplishments of the
Department of Defense Inspector General are listed in this semiannual report under “Oversight of DoD Operations”
and “Oversight of DoD Programs.” The oversight of DoD operations are reported according to the current overseas
conflicts in Afghanistan and Iraq. The oversight of DoD programs are reported by management challenge areas.
Reports Issued During the Reporting Period
The following reports relating to the conflicts in Afghanistan and Iraq were completed during the reporting period. A
complete list of reports are available in Appendix A and on the Web at www.dodig.mil.

 Audit Reports Issued                                                                   Intelligence Reports Issued
 1. D-2009-063 Funds Appropriated for Afghanistan and Iraq Processed Through the        19. 09-INTEL-03 Review of Intelligence Resources at the Joint Intelligence
 Foreign Military Sales Trust Fund, March 24, 2009                                      Task Force Combating Terrorism and Special Operations Command in
                                                                                        Support of Operation Enduring Freedom and Operation Iraqi Freedom
 2. D-2009-061 Controls Over Reporting Transportation Costs in Support of the
 GWOT, March 12, 2009                                                                   20. 09-INTEL-04 Review of Intelligence Systems Support Office Programs

 3. D-2009-058 DoD Cost of War Reporting of Supplemental Funds Provided for             21. 09-INTEL-05 Audit of the Management of Signals Intelligence
 Procurement and Research, Development, Test, and Evaluation, February 27, 2009         Counterterrorism Enterprise Analysts

 4. D-2009-054 Identification of Classified Information in Unclassified DoD Systems
 During the Audit of Internal Controls and Data Reliability in the Deployable
 Disbursing System, February 17, 2009
                                                                                        SPO Assessment Reports Issued
                                                                                        22. SPO-2009-001 Assessment of Arms, Ammunition, and Explosives
 5. D-2009-052 Controls Over Excess Defense Articles Provided to Foreign                Control and Accountability; Security Assistance; and Sustainment for the
 Governments, February 13, 2009                                                         Afghan National Security Forces
 6. D-2009-050 Distribution of Funds and the Validity of Obligations for the            23. SPO-2009-002 Assessment of Arms, Ammunition, and Explosives
 Management of the Afghanistan Security Forces Fund Phase II, February 5, 2009          Accountability and Control; Security Assistance; and Logistics Sustainment
                                                                                        for the Iraq Security Forces
 7 D-2009-047 DoD Testing Requirements for Body Armor, January 29, 2009
                                                                                        24. SPO-2009-003 Assessment of the Accountability of Night Vision Devices
 8. D-2009-046 Procurement and Delivery of Joint Service Armor Protected Vehicles,      Provided to the Security Forces of Iraq
 January 29, 2009

 9. D-2009-042 Hiring Practices Used To Staff the Iraqi Provisional Authorities,
 January 16, 2009

 10. D-2009-041 Expeditionary Fire Support System and Internally Transportable
 Vehicle Programs, January 14, 2009

 11. D-2009-033 Controls Over Billing Customers and Collecting Revenue for Work
 Performed at Corpus Christi Army Depot, December 16, 2008

 12. D-2009-031 Afghanistan Security Forces Fund Phase III-Air Force Real Property
 Accountability, December 29, 2008

 13. D-2009-030 Marine Corps Implementation of the Urgent Universal Needs Process
 for Mine Resistant Ambush Protected Vehicles, December 8, 2008

 14. D-2009-027 Combat Search and Rescue Helicopter, December 8, 2008

 15. D-2009-007 Procurement and Use of Nontactical Vehicles at Bagram Air Field,
 Afghanistan, October 31, 2008

 16. D-2009-006 Small Arms Ammunition Fund Management in Support of the
 Global War on Terror, October 20, 2008
                                                                                         Acting Inspector General Gordon S. Heddell touring a
 17. D-2009-005 Controls Over the Contractor Common Access Card Life Cycle,
                                                                                         facility in Afghanistan.
 October 10, 2008

 18. D-2009-003 Internal Controls Over Army General Fund, Cash and Other
 Monetary Assets Held Outside of the Continental United States, October 9, 2008

12
                                                                                                                          Semiannual Report to the Congress
Oversight of DoD Operations


                        Oversight of DoD Operations
                        The Department of Defense is currently involved in two of the longest-running military
                        engagements in U.S. history, Operation Enduring Freedom and Operation Iraqi Freedom.
                        The DoD IG has positioned its resources and personnel to provide effective oversight of these
                        operations in Southwest Asia.

                         As of March 31, 2009, the DoD IG had 372 audit personnel, 90 special agents, 14 inspectors,
                        and 10 intelligence analysts assigned to OEF and OIF projects. There were 18 completed and
                        63 ongoing audits related to the conflicts in Afghanistan and Iraq. There were 190 ongoing
                        and 20 closed investigations related to OEF and OIF. Intelligence issued three reports and has
                        three ongoing projects involving OEF and OIF. In addition, the Special Plans and Operations
                        teams issued three reports and currently have four ongoing assessments.

                        The DoD IG strategically positioned field offices in-theater to address critical needs. Field
                        offices supporting OEF and OIF are located in Afghanistan, Iraq, Qatar, and Kuwait.

                                                       DoD IG audits addressed challenges in the compilation and
                                                       reporting of financial transactions for overseas contingency
                                                       operations, acquisition processes for assets required to support
                                                       the deployed warfighters, contract administration, contractor
                                                       oversight, accountability and control of sensitive items.

                                                       The Defense Criminal Investigative Service is actively
                                                       investigating fraud, theft, and corruption in Afghanistan, Iraq,
                                                       and Kuwait. DCIS recoveries related to OEF and OIF are
                                                       identified through contract fraud, corrupt business practices,
                                                       and theft of critical military equipment destined for Afghanistan
                                                       and Iraqi security forces.

                        DoD IG intelligence examined intelligence missions and resources at the Joint Intelligence Task
                        Force Combating Terrorism and the Special Operations Command; evaluated the management
                        of signals intelligence counterterrorism analysts; and reviewed the policies and procedures for
                        conducting oversight of sensitive programs.

                        The DoD IG has deployed assessment teams to numerous locations including Afghanistan,
                        Iraq, and Pakistan. These reports address challenges in the accountability and control of
                        weapons, ammunition, and other sensitive equipment; security assistance processes that
                        provide equipment to the security forces of Afghanistan, Iraq, and Pakistan; train and equip
                        missions for the Afghan National and Iraqi security forces; and building logistics and medical
                        sustainment capabilities for ISF and ANSF.

                        The following DoD IG projects are listed by the categories “Protecting the Warfighter” and
                        “Protecting the Taxpayer,” and relate to both OEF and OIF.




                                                                                                                     13
October 1, 2008 to March 31, 2009
                                                             Accomplishments of the DoD IG


Protecting the Warfighter
The DoD IG is committed to supporting the warfighter to ensure that the Department
provides them with the type of high quality, reliable equipment that will not only enable
them to complete their mission, but also survive in hostile environments around the
world.

Body Armor Testing Requirements
A DoD IG audit issued on January 29, 2009, found that first article testing of body
armor procured under an Army contract was not consistently conducted or scored in
accordance with contract terms, conditions, and specifications. Consequently, we believe
three of the eight ballistic insert designs that passed first article testing actually failed.
We had concerns about another first article test, but insufficient test data precluded
us from determining the impact of the inconsistent testing and scoring processes. We
recommended that the Army immediately identify and facilitate the return of about
16,400 sets of certain ballistic inserts purchased under the contract, and remove those
certain ballistic inserts from inventory. Although the Secretary of the Army disagreed
with the finding, he agreed to order the identification and collection of the ballistics
inserts designs.
     Additionally, the contracting officer technical representative made an unauthorized
change to the contract by instructing the testing facility officials to deviate from the An auditor observes testing of
Contract Purchase Description without approval from the contracting officer. We also body armor.
identified that Army and U.S. Special Operations Command officials developed separate
ballistic testing criteria for body armor. The criteria differed significantly, even when
testing against the same threats. Differences included the number of plates tested (sample size), the shot pattern, the
environmental conditions, the type of tests, and the pass/fail guidelines.

Excess Defense Articles
A DoD IG audit issued on February 13, 2009, found that the Defense Reutilization and Marketing Service and the
DoD transportation offices reviewed did not fully account for over 7,000 line items of excess defense articles requiring
demilitarization that were provided to 19 foreign governments. A line item is a single-line entry on a reporting form
or sales document that indicates a quantity of property having the same description, physical condition, and cost per
item.
     On the basis of our statistical sample, we estimated that as many as 7,259 of 7,373 line items of excess defense
articles, including M-16 rifles, M-60 machine guns, and armored personnel carriers, were not properly tracked,
safeguarded, accounted for, or reconciled. In addition, as many as 291 of 7,373 line items of excess defense articles,
including M-16 rifle parts, were shipped to foreign governments not authorized to have those items. Also, as many as
960 of 7,373 line items of excess defense articles shipped were turned in with incorrect information on how the articles
should be demilitarized to prevent potential misuse.

Felony Charges on Water Contracts for U.S. Troops
The Defense Criminal Investigative Service partnered with Army CID and the U.S. Attorney’s Office Northern District
of Georgia in a case relating to water contracts for U.S. military personnel serving overseas and in desert areas. On
February 19, 2009, two men were convicted on multiple felony charges. One of the defendants was convicted on
38 counts of bribery, 15 counts of wire fraud, and one count of money laundering, while the other defendant was
convicted on 18 counts of bribery, 6 counts of wire fraud, and 1 count of money laundering.


14
                                                                                         Semiannual Report to the Congress
Oversight of DoD Operations


Mine Resistant Ambush Protected Vehicles

Urgent Universal Needs Process                                 Corruption and Fraud Investigation
An audit on the “Marine Corps Implementation of                Congressional and media attention generated by reports
the Urgent Universal Needs Process for Mine Resistant          of problems with the vehicles in Iraq resulted in increased
Ambush Protected Vehicles” issued on December 8,               attention by investigative agencies. On December 23,
2008, found that DoD was aware of the threat posed by          2008, the Department of Justice announced that a
mines and improvised explosive devices in low-intensity        Michigan company specializing in the manufacturing
conflicts and of the availability of mine-resistant vehicles   of emergency and military vehicles agreed to pay a $1.7
years before insurgent actions began in Iraq in 2003. Yet      million settlement resulting from kickback charges
DoD did not develop requirements for, properly fund,           involving chassis for U.S. Army and Marine Corps mine
or acquire MRAP-type vehicles for low-intensity conflicts      resistant ambush protected vehicles.
that involved mines and IEDs. As a result, the Department             This case was prosecuted as part of the National
entered into operations in Iraq without having taken           Procurement Fraud Initiative, which was established by
available steps to acquire technology to mitigate the          the Department of Justice in October 2006 to promote
known mine and IED risk to soldiers and Marines.               the early detection, identification, prevention and
                                                               prosecution of procurement fraud associated with the
MRAP Procurement                                               increase in government contracting activity for national
A DoD IG audit issued on January 29, 2009, found that          security and other government programs. The operating
MRAP officials took effective actions to accelerate delivery   body of the initiative, the Procurement Fraud Task
of MRAP vehicles and addressed material shortfalls. In         Force, is chaired by the Assistant Attorney General for
addition, Army and Marine Corps officials developed            the Criminal Division and includes the Civil Division,
MRAP requirements and up-armored HMMWV                         the U.S. Attorneys’ Offices, the FBI, the U.S. inspector
requirements based on theater commander assessments.           general community, and a number of other federal law
However, Marine Corps Systems Command officials                enforcement agencies.
did not properly determine that contract prices were
fair and reasonable when they awarded nine firm-fixed-
price indefinite delivery, indefinite-quantity contracts in
January 2007 for MRAP vehicles. Also, subsequent to the
award of the nine contracts, MCSC contracting officials
did not attempt to obtain cumulative quantity pricing
discounts from one of the contractors. Contracting
officials’ acceptance of offered prices without attempting
to obtain appropriate volume discounts may have resulted
in potential lost savings of $45.6 million.




                                                                                                                       15
October 1, 2008 to March 31, 2009
                                                            Accomplishments of the DoD IG


Protecting the Taxpayer
The DoD IG is committed to ensuring that the American taxpayer gets the most for their hard-earned dollars. The
DoD IG’s oversight of the Department’s operations and activities makes sure that there is accountability of government
dollars and performance.

Funds for Afghanistan and Iraq                              million, potentially violating the Antideficiency Act.
A DoD IG audit issued on March 24, 2009, found              Furthermore, the Army’s Cost of War report understated
problems with the administration of the Foreign Military    obligations incurred for transportation services by
Sales Trust Fund. The fund is a single Treasury account     about $147.5 million and included about $1.1 billion
designed to manage funds received from the Foreign          of transportation costs in the wrong cost breakdown
Military Sales Program and was not designed to manage       structure subcategory.
expiring funds. The Defense Security Cooperation
Agency’s transfer of $6.5 billion of appropriated funds     Cost of War Reporting
for the support of Afghanistan and Iraq military and        A DoD IG audit issued on February 27, 2009, found
security forces into the FMS Trust Fund did not meet        that DoD had challenges in the accuracy, integrity, and
the requirements of the Economy Act. The transfer of        support for its Cost of War report. The Office of the
the funds was not in the best interest of the government,   Under Secretary of Defense (Comptroller)/DoD Chief
was not the most economical use of the funds, and was       Financial Officer needs to improve its controls over the
not in accordance with the requirements in the DoD          DoD Components’ cost of war reporting process to
Financial Management Regulation. Additionally, DSCA         provide reasonable assurance regarding the reliability
improperly collected administrative fees on Iraq and        of obligation information reported in the “Department
Afghanistan cases funding contingency operations.           of Defense Supplemental and Cost of War Execution
     From FY 2005 through FY 2007, DSCA collected           Report” for procurement and research, development, test,
more than $155 million in administrative fees to manage     and evaluation funds. Specifically, the USD(C)/CFO did
non-FMS cases for the Iraq Security Forces Fund             not ensure that the DoD components and subordinate
and the Afghanistan Security Forces Fund processed          reporting entities developed and issued standard
in the FMS Trust Fund. DSCA did not agree with              operating procedures and other supplemental guidance
our recommendations that it discontinue charging            on contingency cost reporting; verified reported cost data;
administrative fees on non-FMS cases funded by the          and submitted affirmation statements. DoD management
Iraqi Security Forces Fund and Afghanistan Security         was proactive in improving the controls over the cost of
Forces Fund even though it is DSCA policy not to collect    war reporting and undertook many related initiatives,
administrative expenses on funds placed in the FMS          including establishing a GWOT Cost of War Program
Trust Fund for contingency operations. DSCA further         Management Office. The initiatives are further captured
did not agree to directly cite the DoD appropriated funds   in the DoD IG summary report on challenges impacting
for future purchases of support for Iraq and Afghanistan,   Operations Iraqi Freedom and Enduring Freedom.
which would avoid co-mingling U.S. appropriated funds
with foreign government funds in the FMS trust fund.        Contractor Billing Fraud
                                                            A joint investigation by DCIS and Army CID found
OEF and OIF Transportation Costs                            that a DoD contractor knowingly overcharged and
A DoD IG audit issued on March 12, 2009, found that         double-billed the DoD’s Military Surface Deployment
Army organizations did not accurately record and report     and Distribution Command for transporting containers
FY 2007 transportation costs incurred in support of         from ports to inland delivery destinations in Iraq and
Operations Enduring and Iraqi Freedom. Specifically,        Afghanistan. The company and its principal agreed to
Operating Agency 22 exceeded its FY 2007 Operation          pay the United States and the qui tam relators a total of
and Maintenance, Army appropriation funding by $100.7       over $26 million in restitution to settle all actions.


16
                                                                                        Semiannual Report to the Congress
Operation Enduring Freedom


                                Operation Enduring Freedom
                                The ability of the Afghanistan government to assume more control over its country’s
                                security, combined with increased activity by al-Qaeda and other insurgent groups in
                                Afghanistan and the northwestern area of Pakistan has resulted in a shift in emphasis and
                                resources to Operation Enduring Freedom. In response to these changes, the DoD IG
                                has aligned its resources and efforts accordingly to meet the needs of the Department of
                                Defense. The DoD IG has three field offices located in Afghanistan to provide oversight
                                of OEF.




                                                                                                   A DoD IG assessment
                                                                                                   team in Afghanistan.


                                Audits in Support of OEF
                                Procurement of Vehicles at Bagram Air Field
                                A DoD IG audit issued on October 31, 2008, found problems with the oversight and
                                leasing of nontactical vehicles. From March 2006 until January 2008, the number
                                of leased nontactical vehicles at Bagram Air Field Afghanistan increased from 102 to
                                1,548. Combined Joint Task Force-82 did not comply with provisions of the DoD
                                Regulation 4500.36-R, “Management, Acquisition, and Use of Motor Vehicles,” dated
                                March 16, 2007. The documentation for the justification of the leases of nontactical
                                vehicles ranged from providing specific purposes to citing the words “vehicle lease,” or
                                a justification was not provided.
                                    Additionally, documentation for lease justifications did not consider the local DoD
                                bus service. The DoD IG estimated the additional annual cost of the growth of leased
                                nontactical vehicles from March 2006 until January 2008 was approximately $16
                                million. The Combined/Joint Task Force -101 (CJTF-101 took command from CJTF-
                                82 on April 10, 2008) has taken action to improve oversight of nontactical vehicles in
                                use on Bagram Air Field.
                                                                                                                      17
October 1, 2008 to March 31, 2009
                                                             Accomplishments of the DoD IG


Controls Over Cash and Other Monetary Assets
A DoD IG audit issued on October 9, 2009, determined that, overall, security plans and physical controls over
Army General Fund Cash and Other Monetary Assets were adequate. Semiannual security reviews were performed,
Statement of Accountability documents were determined to generally be accurate, and observed cash counts agreed
with cash balances reported on the Statement of Accountability. However, deputy disbursing officers in Afghanistan
did not record disbursements and collections on a timely basis and the June 30, 2007 balance sheet COMA line was
overstated by approximately $114 million. The DoD IG is performing additional reviews on the controls over cash
and other monetary assets in Southwest Asia.

Afghanistan Security Forces Property Accountability
A DoD IG audit issued on December 29, 2008, found that while the Air Force Center for Engineering and the
Environment and Combined Security Transition Command-Afghanistan maintained sufficient documentation and
records to track accountability of real property constructed to support the Afghanistan National Army, it lacked a
formal process to transfer possession of buildings (valued at about $253.4 million) built using Afghanistan Security
Forces funds from CSTC-A to the ANA. Instead, CSTC-A relied on the DD Form 1354 for property transfer of real
property, a form normally used for the transfer of real property between services, commands, and installations.
   There appears to be no mandated formal process or procedures for transferring real property to Afghanistan. Transfer
procedures that were in use at the time of the audit only addressed the transfer of real property from the construction
contractor to CSTC-A. Therefore, no specific dates exist or are planned for the ANA to take the responsibility for the
operations and maintenance of the buildings being built for their use. The ANA may use completed facilities with
CSTC-A funding the operations and maintenance of the buildings for years to come. U.S. Central Command, on
behalf of CSTC-A agreed to develop and implement standard operating procedures for the transfer of real property
and real property management to the ANA.


  Afghanistan
  A DoD IG senior executive addresses the Combined
  Security Transition Command - Afghanistan.




Management of the Afghanistan Security Forces Fund
A DoD IG audit issued on February 5, 2009, determined whether DoD obligated $1.3 billion from the Afghanistan
Security Forces Fund in accordance with legal provisions for assisting the Afghan Security Forces and with appropriations
law.
     We validated that DoD obligated $1.3 billion in accordance with legal provisions to assist the Afghan Security
Forces included in Public Laws 109-13, 109-234, and 109-289. These three public laws make funds available to the
Secretary of Defense or the Secretary’s designee (currently, the Combined Security Transition Command-Afghanistan)
to provide equipment, services, construction, and other assistance to the Afghan National Army and the Afghan
National Police, the two forces that form the Afghan Security Forces. Six DoD commands obligated the $1.3 billion
primarily using contracts with commercial vendors or military interdepartmental purchase requests that complied
with appropriations law.
18
                                                                                          Semiannual Report to the Congress
Operation Enduring Freedom


Assessment in Support of OEF

Assessment of Arms, Ammunition, and Explosives Control and Accountability;
Security Assistance; and Sustainment for Afghan National Security Forces

A DoD IG assessment issued on October 24, 2008, reviewed issues involving the accountability and control of arms,
ammunitions, and explosives; foreign military sales; logistics sustainability; and medical sustainability.


  Afghanistan
  A DoD IG team inspects weapons provided to the
  Afghan National Security Forces.




Arms, Ammunition, and Explosives
An assessment by the DoD IG found that implementing instructions or procedures governing the accountability,
control, and physical security of arms, ammunition and explosives provided to Afghan National Security Forces had
not been issued. The mission of the DoD AA&E logistics supply chain is to provide an effective end-to-end system
that delivers materiel to the war-fighter, while maintaining the security and safety of the materiel and the public.
Inherent in that mission is the requirement to implement procedures and mechanisms throughout the supply chain
that ensure accountability and control of AA&E while enabling mission execution.
   CSTC-A had not clearly defined the missions, roles, and responsibilities of U.S. training teams and senior mentors
engaged in advising ANSF and the Afghan Ministries of Defense and Interior on the accountability, control, and
physical security of U.S.-supplied AA&E.
   Although CSTC-A had continued to make progress on weapons accountability, it needed to issue command policy
guidance and implementing instructions or procedures for the accountability, control, and physical security of AA&E.
Further, it was critical that CSTC-A develop a formal mentoring strategy with detailed implementing guidance
for mentoring Ministry of Defense, Ministry of the Interior, and ANSF and on the accountability, control, and
physical security of U.S.-supplied AA&E. In addition, CSTC-A needed to ensure that serial numbers and associated
information in its data systems used to track the weapons were accurate, and they also need to report the serial number
information to the DoD Small Arms Serialization Program.

Foreign Military Sales
The FMS program has historically functioned primarily as a peacetime security assistance program. However, a SPO
assessment found that the U.S. was using the FMS program as the principal means to equip, expand, and modernize
ANSF during wartime conditions. To be successful in executing this strategic decision, the $7.4 billion (at the time of
the assessment) FMS program in Afghanistan needed to be fully supportive of the wartime equipping requirements of
CSTC-A and ANSF. Responsive support beyond the norm is essential for rapid ANSF force generation, replacement
of combat losses, and force modernization.

                                                                                                                    19
October 1, 2008 to March 31, 2009
                                                                Accomplishments of the DoD IG


   Commanders noted that progress had been made improving FMS program responsiveness. However, FMS case
processing time standards were developed in peacetime and were still inadequate for meeting the wartime train and
equip requirements of CSTC-A and ANSF. Further, the CSTC-A security assistance office was not adequately staffed
with sufficient numbers of personnel and those personnel that were assigned did not possess the requisite rank, security
assistance skills, and experience required to successfully execute the mission. As a result, the ability of the FMS
program and the CSTC-A security assistance office to responsively and effectively accomplish the train and equip
mission for ANSF may have been impaired.
     A wartime standard for FMS case processing times needed to be established to support U.S. strategic objectives
in Afghanistan. In addition, the number of personnel in the CSTC-A security assistance office and the rank level
of its leadership needed to be increased commensurate with the mission, size, and scope of the FMS program in
Afghanistan.

Logistics Sustainability
The ultimate ability of the ANSF to operate independently relies on developing adequate logistical support for fielded
military and police units. This support includes standardized logistics policies and processes; a logistics organization
that is able to procure, receive, store, distribute, maintain, and re-supply its forces; maintenance of a sufficient logistical
infrastructure; and support of professional logistics training and mentoring activities. CSTC-A had the responsibility
to help ANSF build these capabilities and develop logistics sustainability.



  Afghanistan
  Members of a DoD IG assessment team
  inspect storage containers.




However, a SPO assessment indicated that the various U.S. plans for development of ANSF logistics sustainment
were not clearly linked in a single integrated plan; did not provide a time-phased, conditions-based approach for
accomplishing end-state objectives; and generally did not identify a specific person or office responsible for the
execution of specific tasks. Moreover, it was not clear the extent to which the Ministries of Defense and Interior and
ANSF were directly engaged in the process of planning the establishment of their own logistics sustainment base.
    There were insufficient numbers of logistics mentors assigned to ANSF and CSTC-A had not prepared or issued
a strategy to its mentors advising MOD, Afghan National Army General Staff, and MOI logistics organizations on
achieving a sustainable logistics capability.
     A single, integrated logistics sustainment plan needed to be developed in coordination with MOD, MOI, and
ANSF that links tasks, milestones, and metrics, and identifies specific accountable offices of primary responsibility
for each action. Further, it is critical that a formal mentoring strategy with detailed implementing guidance for
achieving ANSF logistics sustainability capability also be developed. In addition, logistics mentors needed to receive
the requisite training to successfully execute their mentoring mission.




20
                                                                                              Semiannual Report to the Congress
Operation Enduring Freedom


Medical Sustainability
Independent, effective ANSF operations depend on an ANSF health care delivery system that provides acceptable
field-level combat casualty care, evacuation of casualties, restorative surgery and rehabilitation, and long-term care
for disabled ANSF personnel. A sustainable ANSF health care system also depends on an integrated Afghan civil-
military-police health care system in which civilian clinical services, medical education, and medical logistics support
ANSF needs. The complexity of medical stabilization and reconstruction challenges in Afghanistan calls for robust
U.S. interagency and international efforts to assist deployed medical personnel in developing and implementing a
detailed, multi-year, strategy and reconstruction plan.



  Afghanistan
  Members of the DoD IG assessment team
  reviewing medical sustainability.




However, a SPO assessment identified a lack of coordinated long-term planning and engagement by the U.S. Central
Command, CSTC-A, the North Atlantic Treaty Organization-International Security Assistance Force, and the U.S.
Mission-Kabul limited the development of key Afghan civilian health care system capabilities needed to support
ANSF. Further, there was confusion among the ANSF medical leadership as to MOD, MOI, and CSTC-A goals and
policy strategy with respect to integration of the Afghan military and police medical functions into a common ANSF
medical corps, or even whether this was a desirable goal.
     Many U.S. and NATO-ISAF medical mentoring teams were not sufficiently staffed, particularly those assigned
to work with the Afghan police, and the development of ANSF medical personnel was seriously hampered by the
mentors’ inadequate training. Further, restrictive personnel practices for U.S. Navy and U.S. Air Force medical
personnel assigned to CSTC-A reduced its ability to relocate those personnel to meet changing work requirements in
Afghanistan. Moreover, specific, prioritized medical objectives that had been synchronized with the appropriate levels
of ANSF medical leadership had not been developed for providing mentoring support to ANSF.
    An integrated Afghan civil-military-police health care system is required which progressively develops a sustainable
ANSF health care system. Until and unless an effective ANSF health care system is developed, U.S., Coalition and
other NATO-ISAF countries would have to provide prolonged combat casualty care assistance due to the ANSF’s
inability to operate independently.
    The U.S. Central Command, in coordination with U.S. Mission-Kabul, Afghan medical leadership, NATO-ISAF,
and multiple interagency and international partners, needed to develop a comprehensive, integrated, multi-year plan
to build a sustainable ANSF health care system. DoD and NATO-ISAF medical mentoring teams needed to be fully
resourced with adequately trained personnel and supported by an interagency reach back capability that coordinates
all U.S. government health sector reconstruction activities in Afghanistan. Comprehensive pre-deployment training
and in-country orientation programs were needed to significantly boost the effectiveness of medical mentoring
personnel.


                                                                                                                     21
October 1, 2008 to March 31, 2009
                                                           Accomplishments of the DoD IG


Investigation in Support of OEF

 Afghanistan
 Aerial view of Bagram Air Field. DCIS has two
 offices in Afghanistan, at Bagram Air Field and
 Camp Eggers.




DCIS in conjunction with USACIDC initiated an investigation at Bagram Air Force Base, Afghanistan, after a report
that several U.S. military personnel may have committed the offenses of bribery, conspiracy, and fraud by conspiring
with five corporate entities to illegally obtain U.S. government contracts. The investigation revealed that an Army
major may have inflated the quantities of items delivered to U.S. government contractors and services performed; wrote
excessive damage reports for U.S government leased vehicles pocketing the difference in value; accepted inappropriate
gifts from contractors; and arranged for favored contractors to be paid in U.S. currency. The major mailed funds
received from contractors to members of his family and a fellow co-worker while stationed in Afghanistan. On August
21, 2008, the major, an Air Force sergeant, and several individuals associated with the above companies were arrested
and were awaiting trial.



Support to
Afghanistan
Inspectors General

Senior members of the inspectors general
community from Afghanistan visited with
Acting DoD Inspector General Gordon
S. Heddell, who provided them with an
organizational briefing and a tour of the
DoD Hotline facilities.
     The group was led by the Afghanistan
Ministry of Defense Inspector General,
and the Deputy Inspector General for the
Afghanistan National Army General Staff,              Acting Department of Defense Inspector General
Office of Inspector General. The visit                Gordon S. Heddell is presented with a plaque
allowed the members of the group to see               bearing the seal of the Afghanistan Ministry of
where their respective organizations are in           Defense Inspector General.
comparison with the U.S. organizations
and programs upon which their agencies are
modeled.

22
                                                                                       Semiannual Report to the Congress
Operation Iraqi Freedom


                                Operation Iraqi Freedom
                                Although there has been a shift in emphasis to Afghanistan, the United States still
                                has approximately 135,000 service men and women still on duty in Iraq. Current
                                projects related to OIF focus on contracting, munitions accountability, and the safety
                                and welfare of U.S. warfighters.




                                                                                               DoD IG inspectors in Iraq.



                                Audit in Support of OIF
                                Staffing the Iraqi Provisional Authorities
                                A DoD IG audit issued on January 14, 2009 titled “Hiring Practices Used to Staff the
                                Iraqi Provisional Authorities” found inconsistencies in the process used by DoD to hire
                                civilians early in the war. Rapidly staffing a temporary interagency organization in the
                                war zone in Iraq was a unique and urgent task.
                                      DoD used the appropriate employment and compensation authority established
                                in 5 U.S.C. 3394 and 5 U.S.C. 3161 for staffing the Office of Reconstruction and
                                Humanitarian Assistance and its successor, the Coalition Provisional Authority.
                                    However, the Department did not fully account for these civilians. DoD can better
                                prepare for future contingencies by establishing a framework to document hiring actions
                                to ensure civilians are promptly assigned, deployed, and accounted for.
                                    DoD staffed ORHA and CPA with approximately 2,300 members of the military,
                                detailed civilians, contractors, and newly hired civilians. Using an inconsistent process,
                                DoD relied largely on senior DoD officials and on the CPA Administrator and senior
                                advisory staff to recruit and select civilians.



                                                                                                                        23
October 1, 2008 to March 31, 2009
                                                             Accomplishments of the DoD IG


Investigations in Support of OIF
Money Laundering
In March 2009, the sister of U.S. Army Major John Cockerham pled guilty to conspiracy and money laundering.
Cockerham and his wife pled guilty in 2008 to charges stemming from an investigation in which it was revealed that
while he was serving as a contracting officer in Camp Arifjan, Kuwait, he accepted $9.6 million in bribes through a
bid rigging scheme. Cockerham pled guilty to bribery, conspiracy, and money laundering, and his wife pled guilty
to money laundering.
   As a contracting officer, Cockerham was responsible for soliciting and reviewing bids for DoD contracts in support
of Operation Iraqi Freedom. Through the extensive investigation, it was revealed Cockerham’s scheme was a complex
web of corruption that extended to a number of DoD members and his family.

Bribes Involving Contracts in Iraq
A joint investigation by DCIS and the FBI revealed that a U.S. Air Force master sergeant was accepting money in
exchange for steering contracts to certain companies while he was on active duty in Iraq.
     In November 2008, case agents documented that the master sergeant received a $10,000 bribe from two Iraqi
nationals in London, England.
   The master sergeant subsequently pled guilty to accepting bribes and is awaiting sentencing. The two Iraqi nationals
pled guilty to paying the bribes. Each was sentenced to serve 80 days in prison; one was ordered to pay a $500,000
fine and the other a $50,000 fine.



  Iraq
  DCIS special agents in Alexandria, VA, review
  documentation relating to a case in Iraq.




Bribery Scheme at Camp Arifjan, Kuwait
A recently retired U.S. Army major pled guilty in January 2009 to participating in a bribery scheme at Camp Arifjan,
Kuwait, where he accepted approximately $225,000 in bribes from DoD contractors while in his position as a
contracting specialist in the small purchases branch.
   Upon his return to the United States in the fall of 2006, the major accepted an additional $20,000 in bribes from a
DoD contractor in exchange for the award of a construction contract. In the course of the investigation, agents were
able to determine that the major lied to federal investigators, and he subsequently pled guilty to four counts of bribery
and one count of making false statements. He faces up to 50 years in prison when sentenced. Extensive efforts by
DCIS have resulted in numerous other investigative leads being followed as a result of this investigation.




24
                                                                                          Semiannual Report to the Congress
Operation Iraqi Freedom


Assessments in Support of OIF

A DoD IG assessment issued on December 12, 2008, reviewed issues involving the accountability and control of arms,
ammunitions, and explosives; foreign military sales; logistics sustainability; and medical sustainability.

Assessment of Arms, Ammunition, and Explosives Accountability and Control;
Security Assistance; and Logistics Sustainment for the Iraq Security Forces


  Iraq
  A Special Plans and Operations assessment team
  inspects arms provided to the Iraq Security Forces.




Arms, Ammunition, and Explosives
In a follow-up to an earlier assessment on arms, ammunition and explosives accountability, the DoD IG commended
DoD management and the field commanders for taking aggressive actions to implement the 45 recommendations
contained in that report. DoD management and field commanders completed actions and closed 29 recommendations
while 16 remained open with corrective actions ongoing.
      The DoD IG noted that Multi-National Force-Iraq, Multi-National Corps-Iraq, and Multi-National Security
Transition Command-Iraq had made significant progress in improving the U.S. military’s system for controlling and
accounting for weapons and ammunition being supplied to ISF. However, we formulated seven new recommendations
in the areas of weapons accountability and control and captured enemy weapons.
     The DoD IG counted a total of 915 weapons at three Iraqi warehouse storage locations and identified 16 serial
numbers inaccurately recorded. There was no warehouse management system at Baghdad Police College and Taji
National Army Depot to readily link the location of a particular lot or serial number sequence of weapons to a
specific bin or location within a particular warehouse. MNSTC-I needed to advise and assist the Iraqi Ministries of
Defense and Interior in the development and direct implementation of, or contracting for, an Arabic-based warehouse
management system to manage their stored materiel. MNSTC-I also needed to help MOD and MOI implement
management quality controls at their warehouses to ensure the accurate recording of weapons serial numbers, as well
as a schedule of sample inventories, to verify weapons quantities on-hand and the serial numbers of those weapons.
    The handling of captured enemy weapons remained a concern. The MOD captured weapons policy had not been
fully implemented at Iraqi Army national depots and regional location commands. Thousands of captured weapons
were in containers stored at Taji National Army Depot and the Kirkush Military Training Base Location Command.
These weapons had not had their serial numbers recorded and had not been inspected for serviceability and placement
into the Iraqi military weapons inventory. Further, MOD and MOI did not have procedures in place to demilitarize
any captured, confiscated, abandoned, recovered, and turned-in weapons found to be unserviceable or otherwise
inappropriate for military use, or to repair those that were deemed reparable.



                                                                                                                25
October 1, 2008 to March 31, 2009
                                                                Accomplishments of the DoD IG


   MNSTC-I needed to assist MOD in implementing its policy on captured enemy weapons, as well as completing the
inspection and serial number recording of the captured enemy weapons stored at the Taji National Army Depot and
the Iraqi Army Location Commands. Further, MNSTC-I needed to ensure that the serial numbers for all captured
enemy weapons were recorded and forwarded to the DoD Small Arms and Light Weapons Serialization Program.
Moreover, MNSTC-I needed to assist MOI to complete and issue its formal policy for captured enemy weapons.

Foreign Military Sales
A DoD IG assessment found that the FMS case processing time standards developed in peacetime were still inadequate
for meeting the wartime train and equip requirements of MNSTC-I and ISF.
   We determined that MNF-I and MNSTC-I had not developed and implemented a compliance plan in coordination
with the government of Iraq to implement the requirement for FMS End-Use Monitoring of sensitive equipment items
supplied to ISF, such as night vision devices, and had not developed standard operating procedures for site-specific
security assistance operations. Although substantial progress had been made in 2008 in upgrading the MNSTC-I
security assistance office, the security assistance office still was not adequately staffed with personnel who possessed the
requisite security assistance skills and experience required to successfully execute the mission.
    A wartime standard for FMS case processing times needed to be established to support U.S. strategic objectives in
Iraq. Further, an End-Use Monitoring Compliance Plan needed to be developed and implemented for all sensitive
equipment items that the U.S. government intended to supply to ISF, as well as standard operating procedures for
site-specific security assistance operations. In addition, personnel assigned to security assistance positions needed to
receive adequate security assistance training and have the requisite experience before deployment. At a minimum,
tour lengths needed to be established at a minimum of one year for personnel assigned to the security assistance office
in Iraq.

Logistics Sustainability
The ability of ISF to operate independently relies on developing adequate logistical support for fielded military and
police units. This support includes standardized logistics policies and processes; a logistics organization that is able to
procure, receive, store, distribute, maintain, and re-supply its forces; maintenance of a sufficient logistical infrastructure;
and support of professional logistics training and mentoring activities. MNF-I and its subordinate commands, MNC-I
and MNSTC-I, have responsibility for assisting ISF through mentoring and other actions to build these capabilities
and develop logistics sustainability.


  Iraq
  A DoD IG assessment team examines a munitions
  storage facility.




   The DoD IG found that notable progress had been made in developing Iraq logistics sustainability in the past year.
Although joint Iraqi-U.S. efforts to plan and organize ISF logistics systems were in an early stage of development,
they began to receive focused attention. Logistics sustainment experts from MNF-I, MNC-I, and MNSTC-I were

26
                                                                                              Semiannual Report to the Congress
Operation Iraqi Freedom


achieving unity of coalition and Iraqi efforts through the Iraqi Logistics Development Committee. Significant facility
improvements were evident at the Taji Army National Depot. Despite problems in resources and distribution, ISF
had demonstrated the capability to generate “Iraqi” solutions to meet their logistics needs, as was evident from recent
security operations in Basra and Mosul, and in Iraqi Army transition to life support self-reliance.
   MNSTC-I needed to advise and assist MOD and Iraqi Army to develop and publish logistics policies, processes, and
procedures for establishing self-sustaining logistics functions. Inefficient logistics distribution practices were evident
among MOI, Iraqi Police Service, National Police, Border Police, and Facilities Protection Service. The significant lack
of third- line maintenance capability and a ground transportation capacity in support of MOD and MOI were among
the issues that also needed to be addressed. Iraqi Army Location Commands suffered from shortages in resources,
personnel, and equipment and ill-defined responsibilities and authorities. Furthermore, critically needed equipment,
such as computers, monitors, laser printers, and medical supplies had been stored in the Abu Ghraib warehouse for up
to two years without apparent requirements providing for their further disposition.
    As U.S. forces are projected to draw down in the near future, it is essential that planners and policy makers retain a
sufficient cadre of logistics trainers and advisors in Iraq to ensure achievement of ISF logistics sustainment capability.

Medical Sustainability
Independent, effective ISF operations depend on an ISF health care delivery system that provides acceptable field-level
combat casualty care, evacuation of casualties, restorative surgery and rehabilitation, and long-term care for disabled
ISF personnel. The Iraqi Police obtained their medical care from civilian sources, so the medical section of this report
focuses on the Iraqi Army. A sustainable Iraqi Army health care system depends on an integrated Iraqi civil-military
health care system, where civilian clinical services, medical education, and medical logistics adequately support Iraqi
Army needs. The complexity of medical stabilization and reconstruction challenges in Iraq call for robust interagency
and international effort driven by a detailed, multi-year strategy and reconstruction plan.
   A DoD IG assessment found that the MNF-I surgeon had reinvigorated an interagency, civil-military coordination
forum with the U.S. Mission-Iraq to synchronize U.S. health sector reconstruction activities. Intensive mentoring of
Iraqi Air Force aero-medical personnel by a coalition Air Force Training Team paid dividends in successful ISF casualty
evacuation during the Basra operations in the spring of 2008. In addition, a strong relationship among MNSTC-I,
the Iraqi Army Surgeon General, and the Iraqi Army Support and Services Institute had set the conditions for effective,
comprehensive training of Iraqi Army medical staff.
     However, there were still significant challenges ahead in assisting and mentoring the development of the Iraqi
Army’s medical capability to achieve the end-state of a self-reliant, self-sustaining medical care system. The Iraqi Army
Health Care System was unable to support its combat operations but rather was dependent on the U.S. and coalition
for casualty care.
    In order to achieve the goal of health care self-reliance and sustainability, with U.S. and Coalition support, the
Iraqi Army needed to develop a comprehensive, multi-year strategy, with supporting doctrine and defined end-states,
as well as build stronger partnerships with coalition forces to develop Iraqi Army medical care through mentoring and
other assistance.
   U.S. and other coalition military forces needed to develop a comprehensive, phased, integrated multi-year medical
mentoring plan to assist the Iraqi Army achieve an operationally sustainable health care delivery system. To implement
such a plan, coalition medical mentoring needed significant reinforcement.
   In addition, U.S. interagency medical mentoring of Iraqi Army suffered from a lack of synchronized planning based
on specific, prioritized medical objectives. Moreover, the U.S. interagency effort needed to include in its planning
building strategic partnerships among U.S. government agencies, non-government organizations, academic partners,
and with key Iraqi ministries to develop a sustainable Iraqi Army health care system. Lastly, strategic planning,
coordinated with the government of Iraq, needed to include developing components of the civilian health care system
that already complement the Iraqi Army health care system.


                                                                                                                       27
October 1, 2008 to March 31, 2009
                                                             Accomplishments of the DoD IG

Assessment of the Accountability of Night Vision Devices
Provided to the Security Forces of Iraq

A DoD IG assessment issued on March 17, 2009, reviewed the accountability for NVDs during this reporting period.
NVDs use image intensification technology to capture ambient light and amplify it thousands of times by electronic
means. The U.S. military uses NVDs to see the battlefield at night, enabling personnel to maneuver and fight on a 24-
hour basis. NVDs are small, lightweight and look like binoculars, monoculars, or rifle scopes. Military applications
include night-time infantry, flight, surveillance, and sniper operations.
    The Defense Security Cooperation Agency lists NVDs as one of 16 critical defense articles that require Enhanced
End-Use Monitoring and increased physical security and accountability procedures. This monitoring is essential to
ensure that ISF are complying with the requirements imposed by the U.S. government as a condition for the use,
transfer, and security of NVDs.
   One of the pillars of U.S. government strategy in Iraq has been to build an ISF that can plan, conduct, and sustain
independent operations. This will enable not only a secure and stable Iraq, but also a more rapid draw down of U.S.
forces. In support of this train and equip mission, MNSTC-I had transferred NVDs to ISF since 2004.
MNF-I and MNSTC-I were advised by the SPO team of potentially significant weaknesses in the management of
NVDs during its assessment visit in April-May 2008. Considerable progress had been made by those commands since
that visit in establishing oversight of NVDs. However, we determined during the SPO assessment visit in October-
November 2008 that there were still additional improvements needed.
    We identified continuing and significant weaknesses in the management of NVDs by the U.S. military in Iraq
during its October-November 2008 assessment fieldwork.
•	 MNSTC-I had procured 50,740 NVDs for ISF since 2004. In its log book, MNSTC-I could account for 46,876
    NVDs by quantities issued to major ISF organizations (e.g., MOD), due-ins, and items in storage but could
    not account for 3,864. Of the 46,440 NVDs delivered to ISF organizations, MNSTC-I could not provide issue
    documentation for more than 21,000, could not provide serial numbers for more than 26,000, and could seldom
    identify specific ISF units receiving the devices.
•	 U.S. forces’ policies and standard operating procedures were not always issued, complete, or implemented and
    in some cases were contradictory. Further, for the most part, ISF had not issued policies and standard operating
    procedures for the management, accountability, and control of NVDs. In addition, MNSTC-I had not developed
    procedures for the execution of the Department of State Blue Lantern Program (an end-use monitoring program), or
                                                               provided monitoring guidance for equipment procured
                                                               through pseudo-FMS cases.
                                                                   The lack of any accountability for 3,864 NVDs and
                                                               the lack of serial number accountability for more than
                                                               30,000 NVDs more could lead to misappropriation and
                                                               theft, ultimately putting U.S. service members at risk by
                                                               providing our enemies a capability they might not have
                                                               otherwise had. Lack of serial number accountability can
                                                               also hinder criminal prosecutions and administrative
                                                               actions against those involved in misappropriation and
                                                               theft.


                                                                       Iraq
                                                                       A DoD IG assessment team conducts
                                                                       an inventory of equipment in Iraq.




28
                                                                                         Semiannual Report to the Congress
Operation Iraqi Freedom



      Support to
      Iraq
      Inspectors General

      In October 2008, the Iraqi Army Joint
      Headquarters Inspector General met with
      Department of Defense Acting Inspector
      General Gordon S. Heddell while in the
      United States to meet with senior DoD
      officials to discuss issues such as Iraqi
      force structure, adequacy of facilities,
      transportation and logistics support.
          The DoD IG is engaged with the Multi-
      National Security Transition Command-
                                                           Acting Department of Defense Inspector General
      Iraq through the placement of a Senior DoD
                                                           Gordon S. Heddell met with the Iraqi Army Joint
      IG advisor detailed to the Multi-National
                                                           Headquarters Inspector General.
      Security Transition Command-Iraq to
      assist in advising and mentoring the Iraqi
      Ministries of Interior and Defense.
          The advisor’s current efforts are directed,
      in part, to supporting an internal Ministry       of accountability and controls for munitions issued to the
      of Interior Inspector General initiative to       Iraqi police throughout Iraq. The effort involves mentoring
      develop inspection and audit capabilities         the development of specific plans and criteria to be used in
      for Ministry assessment of the adequacy           accomplishing those inspection and audit reviews.




Highlight: Controls Over Common Access Cards

A DoD IG audit of the life cycle of the contractor Common Access Card found that weaknesses
pose a potential national security risk that may result in unauthorized access to DoD resources,
installations, and sensitive information worldwide.
   For example, DoD IG auditors found that better Army oversight is required for a KBR Real-
time Automated Personnel Identification System site that issued 25,428 CACs to contractors
deploying to Southwest Asia. According to the audit, a KBR subcontractor did background
checks with no Army oversight; a contractor facilitated a CAC approval process that bypassed
Contractor Verification System; and nearly half of revoked CACs were not recovered.
     Furthermore, contractors were misclassified as government employees on their CACs.
Specifically, 40,055 contractor CACs indicated the holders had General Schedule pay grades, and 211,851
had e-mail addresses that improperly identified the holders as U.S. government employees. Also, contractors could
become CVS sponsors, and sponsors who left government service may have been approving CACs.



                                                                                                                    29
October 1, 2008 to March 31, 2009
                                                              Accomplishments of the DoD IG


Inspection in Support of OIF
On January 2, 2008, a U.S. Army staff sergeant was electrocuted while showering in his Iraqi-built quarters in the
Radwaniyah Palace Complex, Camp Victory, Baghdad, Iraq. The Deputy Under Secretary of Defense for Acquisition
and Technology requested the DoD IG to review the relevant management, contracting, and maintenance actions
prior and subsequent to the incident. Following a July 30, 2008, House Committee on Oversight and Government
Reform hearing, the team expanded the project to include reviewing the criminal investigations in eight additional
electrocution cases involving possible equipment faults or malfunctions that caused or contributed to the electrocutions.
(Nine additional electrocutions that involved accidentally touching live electrical wires or cables presented no basis for
further investigation.)
      Our review included examination of documents and interviews of officials connected to the January 2, 2008,
electrocution. We also reviewed non-criminal investigations in the matters, including command-directed investigations,
safety mishap investigations, and autopsies. These reviews were to identify inconsistencies in the investigations that
might impact the criminal investigation, and to aid accountability determinations. They identified possible factual
or other inconsistencies in some investigations, and responsibility for equipment involved in some, but not all the
electrocutions.
    In response to congressional concerns, early in our review, we asked the Armed Forces Medical Examiner to reassess
its November 8, 2004, cause of death determination for a Navy Petty Officer First Class who died in a wooden outdoor
shower at Camp Iskandariyah, Iraq on September 11, 2004. Also in August 2008, the Armed Forces Medical Examiner
determined the Navy Petty Officer’s death could have resulted from either (or both) heart disease or electrocution. As
a result, in September 2008, the Navy reopened its criminal investigation in that case.
      In August 2008, the Army reopened its criminal investigation into the January 2, 2008, electrocution. Later,
following review, we returned three cases to the Army for additional investigation to determine whether negligence
contributed to the deaths. These actions will delay any accountability determination in the electrocutions. In the
remaining four cases, we determined that the deaths resulted from tragic accidents.
     In October 2008, we visited and conducted interviews at the sites in Iraq that still existed in conditions similar to
when the other electrocutions occurred. Our site visit included a briefing to the Commander, Multi-National Forces-
Iraq regarding the DoD IG review, and was followed by a memorandum from the DoD IG advising the Commander,
Multi-National Force-Iraq about specific observations concerning ongoing efforts to rectify electrical hazards during
our visit to the sites.




                                                                        Iraq
                                                                        A DoD IG inspection team at the Radwaniyah
                                                                        Palace Complex, Camp Victory, Baghdad, Iraq.




30
                                                                                          Semiannual Report to the Congress
Oversight of DoD Programs


                                    Oversight of DoD Programs
                                Audits
                                Acquisition Processes and
                                Contract Management
                                Transparency and Accountability
                                Transparency, accountability and urgency are key watch words as the new administration
                                transitions to power. On February 17, 2009, President Obama signed the American
                                Recovery and Reinvestment Act into law. This law allocates nearly $800 billion to fund
                                government run programs that promise to put Americans to work and stimulate the
                                economy. While the influx of such a large amount of money will provide a significant
                                            challenge to many of the smaller federal agencies, the DoD continues to
                                              face challenges in improving and mitigating risks in financial and contract
                                              management of its annual appropriations, which was about $735 billion
                                              for FY 2008.

                                             The Department has faced tremendous challenges providing accountability
                                             for large amounts of spending for many years which has been heightened
                                             in recent years because of large spending increases associated with the war
                                             effort. Spending for goods and services in FY 2008 exceeded $380 billion.
                                             This level of spending is almost two and a half times the level of spending
                                             in FY 2001. Adding to the oversight difficulties has been the weakening
                                             of the acquisition corps after years of staffing reductions.

                                The DoD IG, from FY 2004-2008, issued 47 reports that directly addressed the
                                Department’s surveillance and oversight of contracts. During that same period, the DoD
                                IG issued 128 reports were issued that identified a variety of other contracting issues
                                that needed improvements. Through these reports, we made 866 recommendations and
                                identified $1.8 billion in potential monetary benefits. This same level of scrutiny and
                                oversight continued within the past six months. During this period, the DoD IG also
                                issued a series of reports that identified a wide range of contracting issues including:
                                •	 Procurement of Mine Resistant Ambush Protected vehicles, (see the Oversight of
                                    DoD Operations section for specific discussion);
                                •	 Acquisition process;
                                •	 Interagency acquisitions;
                                •	 Contract oversight; and
                                •	 Inherently governmental functions.

                                Acquisition Process
                                Attempts by the Marine Corps to quickly field an expeditionary vehicle led to program
                                management and contracting problems. The Marine Corps Milestone Decision
                                Authority approved the entrance of the Expeditionary Fire Support System and
                                Internally Transportable Vehicle programs into the Production and Deployment Phase
                                before the systems had demonstrated acceptable performance in developmental test and

                                                                                                                      31
October 1, 2008 to March 31, 2009
                                                             Accomplishments of the DoD IG


evaluation. As a result, the schedule for initial operational capability slipped 22 months for the EFSS and 17 months
for the ITV, while the average unit cost rose by 86 percent for the EFSS and by 120 percent for the ITV. However, the
Marine Corps corrected most EFSS and ITV technical problems as reflected in 2008 operational test and evaluation
effectiveness determinations.
   The Marine Corps Systems Command did not award the EFSS and ITV contract in accordance with the Federal
Acquisition Regulation. In November 2004, the Marine Corps awarded a contract on an indefinite-delivery, indefinite-
quantity basis to procure 66 EFSSs and up to 650 ITVs at an average unit cost of over $578,000 and $94,000,
respectively.
   Additionally, command source selection personnel did not adequately document and disclose all technical evaluation
criteria in the solicitation and did not prepare a price negotiation memorandum. As a result, the Command’s
source selection decision did not meet Federal Acquisition Regulation tests of fairness, impartiality, and equitable
treatment.



 Acquisition Process
 Expeditionary Fire Support System and Internally
 Transportable Vehicles are shown in the field.




Interagency Acquisitions
The DoD IG issued two audit reports required by the
National Defense Authorization Act for FY 2007 that
reviewed DoD procedures for making purchases through
Department of Veterans Affairs and the National
Institutes of Health. The VA contracting officials and
DoD management officials showed some improvement, but still did not consistently comply with procurement
regulations when making assisted acquisitions through VA. Specifically, the review disclosed problems with acquisition
planning, sole-source justifications, price reasonableness determinations, contract administration, and the bona fide
needs rule. As a result, DoD organizations making purchases through VA had no assurance that the purchases were
based on best value or that VA used effective and efficient acquisition procedures, and DoD continued to incur
potential Antideficiency Act violations. Additionally, the VA Office of Acquisition and Logistics decided to terminate
its assisted acquisition support to the Air Force. This effectively ended DoD use of VA for assisted acquisitions as the
VA Office of Acquisition and Logistics worked on 94 percent of purchases made by DoD organizations. We believe
that DoD should continue to use VA to purchase goods and services, when in DoD’s best interest.
    DoD and NIH officials have also improved some interagency practices. NIH discontinued advance funding. DoD
and NIH signed a memorandum of agreement outlining the responsibilities of each party. We believe that these steps
will improve the NIH acquisition process and that DoD should continue using NIH to purchase goods and services.
However, DoD contracting officers continued to provide insufficient competition and inadequate documentation
for direct acquisitions of goods. Also, DoD contracting officers and contracting officer’s representatives provided
inadequate contract surveillance. For assisted acquisitions, DoD program and NIH contracting officials:
•	 favored the incumbent contractor;
•	 did not verify price reasonableness;
•	 awarded a task order for a requirement too large to be managed as a single task order; and
•	 did not accept a contractor’s proposal to reduce the price of a task order.


32
                                                                                         Semiannual Report to the Congress
Audits

Contract Oversight
The DoD IG also continues to find problems with the oversight of large contracts for information systems and
information technology services. Contracts for these services have been awarded for billions of dollars and are often
decentralized and not closely managed. We identified significant issues on an Air Force information systems contract.
Air Force Program Management Office officials for the Second Generation Wireless program did not appropriately
manage the program as a major automated information system or adequately plan the program’s acquisition. The
PMO had not identified the final cost of the Second Generation Wireless program’s implementation.
      Additionally, the Program’s contracting officer did not implement internal controls over the Second Generation
wireless program. The contracting officer potentially limited competition, accepted supplies and services valued at
$38.1 million that were not inspected for quality or quantity by a government representative, approved nearly $800,000
in potential overcharges on contractor travel costs, and did not ensure the task order was fully funded at award. The
PMO incorrectly funded $4.3 million of the task order with procurement funds rather than research, development,
test, and evaluation funds and funded over $143 million in modifications with incorrect FY funds.

Inherently Governmental Functions
The extensive reliance on the contractor support workforce has led to instances where contractors are performing
inherently governmental functions. The Federal Acquisition Regulation defines inherently governmental as a function
that is so intimately related to the public interest as to mandate performance by government employees. These
functions include activities that require either the exercise of discretion in applying government authority, or the use
of value judgments in making decisions for the government. Additionally, these functions involve interpretation
and execution of the laws of the United States so as to bind it to take or not to take some actions by contract, policy,
regulation, authorization, order, or otherwise. Examples include determining what services to order, administering
contracts, and performing investigations.
    On the audit of the Second Generation Wireless program, we identified that contractor personnel were used as
contracting officer representatives for the contract. During the same audit, we identified a potential Anti-Deficiency
Act violation and, in a “For Official Use Only” draft report, recommended that the Air Force perform a preliminary
investigation to determine if a statutory funding violation occurred. The Air Force Materiel Command provided our
draft report to a contractor and directed the contractor to perform the investigation. Contractors that perform an
investigation of a potential violation of statute clearly breach the principles of inherently governmental functions. We
requested the Air Force terminate the contract for the investigation.
  Another audit completed on the contractor common access cards identified that contractors could become government
sponsors and sponsors who left government service may have been approving contractors to obtain common access
cards. Once this was identified, the Department took action to ensure that contractors were no longer government
sponsors. We also determined that government sponsors could not document the affiliation of an estimated 33,000
cards to a contract and did not have the card expiration linked to contract completion for an estimated 35,000 cards.

Financial Management

Financial Statements
Unless the Department achieves its goals of providing timely, reliable, accurate, and relevant information and of
sustaining improvements through an effective internal control program, DoD will not achieve the goal of unqualified
audit opinions in its annual financial statements. These three goals were outlined in the September 2008 DoD
Financial Improvement and Audit Readiness Plan. The DoD IG issued 13 opinion and other related reports on
internal control and compliance with laws and regulations, on the FY 2008 DoD Agency-wide financial statements
and seven other component FY 2008 financial statements, as required by the Office of Management and Budget. Due
to the limitations on the scope of work, DoD received a disclaimer audit opinion.


                                                                                                                     33
October 1, 2008 to March 31, 2009
                                                            Accomplishments of the DoD IG


          Financial Statement                                            DoD IG Issued Opinion
          			
          DoD Agency-wide                                                      Disclaimer
          Army General Fund                                                    Disclaimer
          Army Working Capital Fund                                            Disclaimer
          Navy General Fund                                                    Disclaimer
          Navy- Working Capital Fund                                           Disclaimer
          Air Force General Fund                                               Disclaimer
          Air Force Working CaRital Fund                                       Disclaimer
          Marine Corps General Fund                                            Disclaimer
          Marine Corps Working Capital Fund                                    Disclaimer
          U S. Army Corps of Engineers, Civil Works                            Unqualified

                                                                        DoD IG Endorsed Opinion
          Financial Statement                                                (Contractor)

          Military Retirement Fund                                             Unqualified
                                                                         (Acuity Consulting, Inc.)
          Defense Finance and Accounting Service                               Unqualified
          Working Capital Fund                                         (Urbach Kahn & Werlin LLP)
          Medicare-Eligible Retiree Health Care Fund                             Qualified
                                                                          (Kearney & Company)

In the DoD agency-wide financial statement opinion report, we reported 13 material internal control weaknesses:
•	 Financial Management Systems;
•	 Fund Balance with Treasury;
•	 Accounts Receivable;
•	 Inventory;
•	 Operating Materials and Supplies;
•	 General Property, Plant, and Equipment;
•	 Government-Furnished Material and Contractor-Acquired Material;
•	 Accounts Payable;
•	 Environmental Liabilities;
•	 Statement of Net Cost;
•	 Intra-governmental Eliminations;
•	 Other Accounting Entries; and the
•	 Reconciliation of Net Cost of Operations to Budget.
   Of these 13 material weaknesses, 11 have been identified since FY 2003; Accounts Payable and Accounts Receivable
were first identified as material weaknesses in FY 2006 and FY 2007, respectively.

Equipment Baseline Valuations
The DoD IG issued three reports that assessed the effectiveness of internal controls over the valuation, rights and
obligations, and completeness of military equipment programs to determine whether military equipment baselines
were adequate. Overall, the Property and Equipment Policy Office in the Office of the Under Secretary of Defense
for Acquisition, Technology, and Logistics and the Navy, Air Force, and Marine Corps did not have adequate internal
controls in place over their military equipment baseline.
    Navy management did not properly classify assets, use the asset’s correct useful life, and valuate accurate program
acquisition values; improperly classified assets and used the asset’s incorrect placed-in-service date; and improperly
included assets as military equipment and granted waivers. In addition, Marine Corps valuation, rights and obligations,
and completeness assertions were unsupported; military equipment valuation had $2.1 billion, of $5.9 billion, in
unsupported acquisition costs and a potential $12 million understatement in the valuation as of September 30,
34
                                                                                         Semiannual Report to the Congress
Audits

2006; and military equipment programs had 116 unsupported waivers of 148 judgmentally selected waivers. Air
Force internal controls did not ensure that all Air Force military equipment assets and programs were included in the
military equipment baseline; program waivers were appropriately granted and supported; and equipment previously
reported as General Property, Plant, and Equipment was excluded from the reported military equipment value.

Other Financial Management Controls
Controls over Collections and Returned Checks: DFAS could not ensure it fully accounted for all collections
and returned U.S. Treasury checks. DFAS internal controls did not adequately ensure they properly recorded and
safeguarded $316.8 million of collections and $43.5 million of returned U.S. Treasury checks in FY 2007. Further,
DFAS was not properly accepting accountability for undeposited negotiable instruments. As a result, the government
unnecessarily incurred an estimated $202,000 in interest on debt or other obligations, $15.8 million in collections
lacked deposit evidence, and improperly returned $7.5 million in checks to the debtors. In addition, the lack of
internal controls increased the risk that collections and returned U.S. Treasury checks could be lost or stolen.
Obligation of Funds for Ship Repair and Maintenance: The U.S. Pacific Fleet maintenance activities inappropriately
obligated funds without identifying a specific, definite need for contingent liabilities on ship maintenance and repair
contracts. Because of the inappropriate obligations, approximately $94.8 million of U.S. Pacific Fleet operation and
maintenance funds were not available for other ship maintenance and repair needs. Existing Department of the Navy
guidance does not prohibit the obligation of funds without a specific, definite need on ship maintenance and repair
contracts.
Aviation Into-Plane Reimbursement Card: The DoD IG identified that the Air Force internal controls over the
U.S. government Aviation Into-Plane Reimbursement Card® were inadequate for:
•	 verifying and reconciling $14.4 million in charges;
•	 retaining receipts; and
•	 accounting for cards.
    As a result, Air Force units did not: investigate at least $284,000 in questioned billings and request applicable
credits; incurred questioned fuel and ground service charges, totaling about $457,000, for retired aircraft no longer
in service; and paid $1.6 million in questioned noncontract fuel purchases in excess of contract fuel prices at loca-
tions with existing Defense Energy Support Center Into-Plane fuel contracts.


Health Care

The DoD Military Health System must provide quality care for approximately 9.2 million eligible beneficiaries
within fiscal parameters while facing growth pressures, legislative imperatives, and inflation that make cost control
difficult in both the public and private sectors. The DoD challenge is magnified because the Military Health System
provides health care support for the full range of military operations. The increased frequency and duration of military
deployment further stresses the Military Health System in both the active and reserve components. Part of the challenge
in delivering health care is combating fraud.
    A major challenge to the Department is sufficient oversight of the growing cost of health care for its beneficiaries.
During a hearing with the Senate Appropriations Subcommittee on Defense, the Secretary of Defense stated the cost of
health care is a concern that must be controlled. The DoD budget for health care costs was approximately $45 billion
in 2009, a 45 percent increase since FY 2005 ($31 billion). Included in the above funding are supplemental funds
of $800 million for the Global War on Terror and $300 million for traumatic brain injury and psychological health.
In addition, the American Recovery and Reinvestment Act of 2009 provides $400 million for facilities sustainment,
restoration and modernization, and $1.3 billion for construction of hospitals. Another of the Department’s challenges
is to effectively transition to the next generation of TRICARE contracts.
   The ability to support and develop the people in the Military Health System continues to be a challenge. Maintaining
medical readiness of the medical staff and units includes ensuring that medical staff can perform at all echelons of
                                                                                                                      35
October 1, 2008 to March 31, 2009
                                                              Accomplishments of the DoD IG

operation and that the units have the right mix of skills, equipment sets, logistics support, and evacuation and support
capabilities.
     Strengthening medical care from accession through active service to rehabilitation and transition to VA care is
a major challenge for the Department. The number of wounded warriors associated with Southwest Asia and other
such conflicts significantly impact the health care resources within the Department and can result in such issues as the
unsatisfactory conditions that were raised at Walter Reed Army Medical Center. Another related challenge to medical
readiness are the issues inherent in providing efficient processes for post-deployment health care and benefits to severely
injured and ill service members. Transitioning wounded, ill, or injured service members to post-deployment care will
continue to grow as a challenge while OIF and OEF continue. Increased numbers of returning service members
with mental health complaints, along with a shortage of uniformed and civilian mental health workers, will require
examination of automated screening tools and improved diagnostics to provide earlier detection and intervention.
    Providing information to the right people so they can make more informed decisions continues to be a challenge
in the health care community. Along with the benefits of expanding automation efforts comes the increased risk to
security and privacy of information. Information assurance relating to sensitive medical information is a challenge for
the public and private sectors of the health care community. Implementing recommendations resulting from the
2005 Base Realignment and Closure process will continue to be a challenge. In addition to improving the readiness
and cost efficiency associated with realigning base structure, a primary objective of the process was to examine and
implement opportunities for greater joint activity among the military departments. Recapitalization of the physical
infrastructure is a challenge. Military treatment facilities are aging and in need of replacement. Maximizing the benefit
of construction and sustainment funds provided by the American Recovery and Reinvestment Act will be a challenge
in FY 2009. The Department’s expanded role in providing humanitarian assistance and disaster relief to support
U.S. strategic objectives and promote human dignity through better health will provide financial and organizational
challenges. One of the first challenges will be developing plans and budgets to support the expanded role.

TRICARE Controls Over Claims by Third Party Billing Agencies
While most of our audit efforts addressed medical support to our troops involved in OIF and OEF, we completed an
audit on TRICARE controls over claims by third-party billing agencies. Contrary to the federal regulations and the
TRICARE Operations Manual, the TRICARE Management Activity sent payments to billing agencies rather than
to providers and also paid claims prepared by billing agencies that were excluded by the Department of Health and
Human Services from participating in federal health care programs. The TRICARE Management Activity made these
payments because it did not identify relationships between providers and billing agencies, and when sending payments,
it used the billing agency’s address instead of the providers’ address. Further, TRICARE Management Activity officials
believed they lack the authority to exclude billing agencies that are involved in preparing or submitting improper
health care claims. Therefore, the TRICARE Management Activity needs to improve controls over payments for
health care claims prepared by billing agencies for care provided in the United States. Additionally, we supported
investigations of health care fraud, including support to the investigation selected as the 2008 National Health Care
Anti-Fraud Association Investigation of the Year.

Military Personnel Financial Services Protection Act
The DoD IG issued the second in series of three reports that discuss the reforms contained in Public Law 109-290
“Military Personnel Financial Services Protection Act,” September 29, 2006, and the impact of revised DoD Instruction
1344.07 “Personal Commercial Solicitation on DoD Installations,” March 30, 2006. The report states that the impact
of mandated reforms on the suitability of financial products marketed to service members at three European Command
installations and two stateside military installations found no instances of sales of inappropriate life insurance or
financial products to service members while on base. In fact, DoD and some state insurance regulators were identifying
and taking actions against inappropriate sales practices to service members off base. For example, during our review
while following up on the possible sale of inappropriate life insurance products at the Naval Air Station Pensacola, we
identified that inappropriate sales were taking place off base. Discussions with U.S. Navy Region Legal Service Office
36
                                                                                           Semiannual Report to the Congress
Audits

determined that it had investigated and issued a report on February 15, 2008. The report concluded that a financial
agency was in direct violation of Florida’s Military Sales Practice Rule. It recommended actions be taken immediately
to lessen the harm being done to the sailors and Marines on Naval Air Station Pensacola.

Information Assurance, Security, and Privacy

 Information Assurance
 An information assurance soldier scanning the
 network at Camp Taji, Iraq.




The DoD IG has annually reported to OMB and the
Congress that the Department continues to face a
daunting challenge in providing a strong and responsive
information security and privacy program. In particular,
the Department has to balance security and privacy of
its system operations and the storage, processing, and transmission of data with the need for information sharing and
interoperability. In both the business and warfighting domains, the twin imperatives of security and information
sharing and exchange are in daily contention. Further complicating this challenge is the need to address that portion
of its data, systems, operations, and initiatives in the hands of the Defense Industrial Base and other non-DoD mission
partners. Progress needs to be made to better resolve these conflicting requirements. The Deputy Secretary of Defense
acknowledged these concerns in his December 22, 2008, transmittal of the Department’s Federal Information Security
Management Act and Privacy Management Report for FY 2008 to the Office of Management and Budget, but added:
“I have concluded that, within existing operational and budgetary constraints, the Department of Defense is making
satisfactory progress in resolving the issues.” The DoD Inspector General does not agree that satisfactory progress has
been made because there has yet to be established a structured reporting mechanism to ensure that our DIB and non-
DoD mission partners share in providing the level of assurance needed for the security and privacy of DoD systems
and data under their purview.
     The Department continues to lack mandatory contract requirements for the protection of DoD information
in the hands of contractors and other non-DoD mission partners, thereby both endangering the confidentiality,
availability and integrity of that data, and impeding prosecution of non-DoD contractors and mission partners when
data breaches occur. The DoD continues to lack a comprehensive, enterprise-wide inventory of information systems,
to include warfighting mission area systems and those containing DoD information systems operated by contractors,
thereby impeding management oversight of the DoD information enterprise for portfolio management, information
assurance, and budgetary purposes. Further, DoD implementation of the 2004 Presidential Directive on physical
and logical access to federal installations and information continues to fall short. Better progress needs to be made in
overcoming obstacles that hamper the ability of the DoD to protect operational information for the warfighter and
privacy data for all employees.

Classified Material
Weak controls over the identification and protection of classified information resulted in classified information being
posted on two unclassified DoD systems: the Deployable Disbursing System and the Electronic Data Access/Voucher
Processing System. Marine Corps personnel had not taken adequate measures to prevent unauthorized disclosure of
classified information in unclassified systems. Based on the report, the Marine Corps conducted an investigation and
confirmed that a compromise in classified information did occur and took immediate actions to correct and purge the
two unclassified systems of the inappropriately entered classified information.
                                                                                                                     37
October 1, 2008 to March 31, 2009
                                   Accomplishments of the DoD IG


     Investigations
     The following are highlights from some of the cases investigated during this reporting
     period involving the Defense Criminal Investigative Service, the criminal investigative
     arm of the DoD IG, and its federal law enforcement partners. Other cases are highlighted
     in this chapter.

     •	 A major pharmaceutical company agreed to pay a $1.4 billion settlement for off-
        label drug marketing.
     •	 A Michigan company specializing in the manufacturing of emergency and military
        vehicles agreed to a $1.7 million settlement resulting from kickback charges involving
        chassis for U.S. Army and Marine Corps mine resistant ambush protected vehicles
        – otherwise known as MRAPs.
     •	 A Chinese national pled guilty to conspiring to export sensitive night vision
        technology to the People’s Republic of China.
     •	 An Irish Trading Firm and its officers were charged in a scheme to supply Iran with
        helicopter engines and other aircraft parts.
     •	 A retired Army major pled guilty in a bribery scheme in which he admitted receiving
        $225,000 in bribes from contractors.

                          While the DCIS will continue to focus on “protecting America’s
                          warfighters,” especially in overseas operations, it will also be taking
                          on additional priorities as it begins to oversee and investigate issues
                          of possible fraud and other criminal activities associated with $7.4
                          billion in DoD stimulus funding.

                          DCIS’ top priorities include combating fraud and corruption;
                          investigating defective, substituted, and substandard products;
                          stopping the illegal transfer of technology, systems, and equipment
                          critical to the Department of Defense; providing dynamic
                          investigative support to the war on terrorism; and focusing on
                          cybercrime and computer intrusion investigations.



     Corruption and Fraud
     Millions of dollars intended for DoD people and programs are lost annually because
     of financial crime, public corruption, and major thefts. Further, the failure to stem
     these crimes undermines public confidence in government and those who are charged
     with ensuring the protection of national resources. DCIS investigative efforts target
     abuses in the procurement process such as overcharges, bribes, kickbacks, and cost-
     mischarging. Additionally, DCIS partners with acquisition and financial agencies to
     proactively identify areas of vulnerability.

     Similarly, DCIS is a key member of the ongoing national effort to combat fraud through
     the multi-agency National Procurement Fraud Task Force. Examples of DCIS efforts to
     combat financial threats include the following.
38
                                                                Semiannual Report to the Congress
Investigations

Senior CIA Executive Convicted
On February 26, 2009, Kyle Dustin “Dusty” Foggo, former Executive Director, Central Intelligence Agency, was
sentenced to 37 months incarceration and 24 months supervised probation after pleading guilty earlier to one count of
Honest Services Wire Fraud. As the Executive Director of the CIA, Foggo served in the third highest ranking position
at the agency and is the highest ranking CIA executive ever convicted of a felony. The adjudication was the result of
a joint investigation conducted by the FBI, DCIS, CIA, and the Internal Revenue Service-Criminal Investigations
Division.
    Foggo, along with Brent Wilkes, the owner of a defense contracting company, was initially indicted on multiple
felony charges in February 2007. The indictment charged that Foggo had a standing offer for a high-level, high paying
position in Wilkes’ company. Foggo admitted he allowed Wilkes to conceal his close friendship and used “straw
men” and shell companies to conceal Wilkes’ interest in lucrative CIA contracts. Foggo admitted that he steered CIA
contracts to Wilkes at inflated prices. Various DoD entities administered the CIA contracts, many of which were
concealed within DoD contracts.
     Wilkes was separately convicted of bribing former Representative Randall “Duke” Cunningham and is currently
serving a 12 year sentence.

Submitting False Claims
A joint DCIS and U.S. Army Criminal Investigation Command investigation revealed the representatives of a water
purification company submitted false claims relating to water purification training contracts. Loss to the government
was approximately $421,000. In March 2007, the company pled guilty to one count of submitting false claims, and
in October 2007 was sentenced to five years probation and ordered to pay over $420,000 in restitution and $700,000
in fines.
     A company corporate officer and a U.S. government program manager were also tried in U.S. District Court,
Northern District of Georgia. On February 19, 2009, a jury found the program manager guilty of 38 counts of
bribery, 15 counts of wire fraud, and one count of money laundering. The jury also found a corporate officer guilty of
one count of conspiracy, eighteen counts of bribery, six counts of wire fraud, and one count of money laundering.

Overcharging DoD for Transportation of Parts
A joint DCIS and Army CID investigation found that C&D Distributors in South Carolina, invoiced and received
payment for unauthorized transportations costs from 2000 to 2006. This case received extensive media attention for
the charging of nearly $1 million to ship two washers valued at $0.19 each. On April 4, 2008, a Preliminary Order
of Forfeiture was entered against C&D in the amount of $20.5 million. On March 2, 2009 C&D and its owner
pleaded guilty to the charges in U.S. District Court. The judge ordered payment of $15.5 million in restitution for
the company and the owner for a total recovery of over $31 million.

Defective, Substituted, and Substandard Products

Investigations of the introduction of defective, substituted, and substandard products and parts into the procurement
system continue to be DCIS’ highest priority for the protection of the warfighter and to enhance readiness. These
products and parts often involve safety of flight issues or other mission-critical applications. DCIS special agents work
hard to ensure fraud and abuses in the procurement process are exposed, investigated, and prosecuted. Examples of
DCIS product substitution investigations are included below.

Non-conforming Metals Used in Military Aircraft
A federal grand jury handed up an eight-count indictment charging a DoD subcontractor and four of its executives
with Fraud involving aircraft or space vehicle parts and conspiracy to commit fraud. The indictment charges the


                                                                                                                      39
October 1, 2008 to March 31, 2009
                                                            Accomplishments of the DoD IG


executives repeatedly issued false and fraudulent certifications for titanium they sold that was used to make engine
mounts for the F-15, F-22, and F/A-18 fighter jets and the Air Force C-17. The false certifications were also issued
for titanium used to make parts installed in the spider hub assembly, which holds the telescope for the NASA Kepler
Spacecraft. The indictment alleges that the defendants falsely certified that the titanium they sold was tested and
met the specific stringent testing requirements, when in fact it did not. As a result, DCIS issued four Notification of
Potentially Defective Titanium alerts.

Failure to Perform Testing on Aircraft Parts
A DCIS investigation was initiated upon receiving information from the Defense Contract Management Agency.
DCMA claimed a subcontractor to a DoD contractor agreed to pay the U.S. Government nearly $3 million as a result
of a referral from the Defense Contract Management Agency quality assurance representative that initiated a joint
investigation involving DCIS. Based on information from the QAR, the contractor had directed a subcontractor to
ship Blackhawk helicopter armored wing assemblies even though required ballistic testing had not been conducted.

Non-conforming Fabric Used on Body Armor
The Body Armor Civil Fraud Task Force continues to negotiate civil settlement agreements against companies
regarding alleged nonconforming Zylon fabric used by American manufactures to produce body armor. Two DoD
subcontractors signed civil settlements with the Department of Justice, Civil Division, Commercial Litigation Branch.
The subcontractors paid the U.S. Government over $31 million to settle their disputed claims.

TRICARE Fraud
On January 26, 2009, a doctor in Florida was convicted of Health Care Fraud and Controlled Substance Act violations
in connection with his prescribing of medically unnecessary drugs which were connected to the death of two patients.
He was subsequently sentenced to over 24 years incarceration and fined $1 million. The conviction was the result of
a joint investigation by DCIS, the FBI and the Florida Department of Law Enforcement.
    TRICARE records provided thus far indicate that from January 4, 2001, to December 15, 2005, the doctor billed
for over 2500 office services totaling nearly $200,000 of which almost $66,000 was paid. According to records of the
Department of Defense Pharmacy Operations Center, from July 1, 2001, to March 24, 2006, the doctor prescribed
12,860 prescriptions to 175 TRICARE beneficiaries totaling nearly $540,000 of which over $500,000 has been paid.
Approximately half of that amount was for controlled substances.

Award in Overseas TRICARE Fraud Case
DCIS was recognized for its role in the investigation of the largest fraud in TRICARE history and received the
award for the Investigation of the Year by the National Health Care Anti-Fraud Association for 2008. DCIS and
U.S. Attorney’s Office investigators, while in the Philippines investigating other fraud matters, received complaints
of apparent excessive billings to TRICARE. Wisconsin Physicians Service Program Integrity Staff, a TRICARE
contractor, began data mining that subsequently identified increased claims from the Republic of the Philippines
through a Philippine company that billed itself as a “one-stop-shop” for health care and operated as a health care
provider, third-party biller and supplemental insurer. The company and its President/CEO inflated the bills of health
care providers by 100 percent or more before submitting the bills for payment by the United States Government.
The defendants also created a sham insurance program to circumvent TRICARE’s requirement that beneficiaries pay
a deductible and cost share, and they also submitted fictitious and fraudulent TRICARE claims falsely claiming that
beneficiaries had been hospitalized and had been rendered services when, in fact, they had not.
   The exhaustive five year investigation required frequent travel to the Philippines, coordination with the Philippine
National Police in locating numerous documents and witnesses, and arranging for special visas so witnesses could
travel to the United States to give testimony.


40
                                                                                        Semiannual Report to the Congress
Investigations


    The President/CEO was arrested in Manila by the Philippine National Police and removed to the United States.
After pleading guilty, he was sentenced on June 17, 2008, to 5 years’ imprisonment. Based on a guilty plea by the
corporation, it was sentenced on April 24, 2008, to pay nearly $100 million in restitution, a $500,000 fine, and to
forfeit $900,000. The company was ordered to liquidate its assets in order to pay these amounts. In addition, all of its
officers, directors and employees agreed to permanent exclusion from TRICARE and other government programs.

Cyber Crime and Computer Intrusion
The DCIS Cyber Crime Program continues to adapt to the Department’s needs. The threat to DoD networks has
transitioned from individual hackers seeking publicity to highly sophisticated intrusions by foreign governments
attempting to negate DoD’s technological advantage and by international organized criminal groups trying to steal
personally identifiable information for financial gain.
    To meet the demands brought about by this shift in threats, DCIS has partnered with national cyber crimes task
forces such as the Joint Task Force-Global Network Operations, the lead DoD agency responsible for the direction
and protection of the Global Information Grid. Further, partnerships were strengthened with other investigative fields
such as Technology Protection, Counterintelligence, and Counterterrorism. The DCIS Cyber Crime Program, along
with cyber crimes investigators from other federal and state law enforcement agencies, brings special skills capable of
meeting this new threat.

Cyber Security Breach
 In August 2007, DCIS initiated an investigation based upon notification from the Defense Information Systems
Agency that it discovered a computer intrusion originating from an internet protocol address in China with total
access to the root network of a DoD contractor located in Falls Church, Virginia.
   After identifying and locating the vulnerable system at the company, evidence was seized and analyzed using
computer forensic tools. Personnel responsible for the security and architecture of the network were also interviewed.
It was determined that the company and a sub-contractor failed to perform and deliver proper network security
and information assurance services to the government as required by the DoD Information Technology Security
Certification and Accreditation Process requirements in the statement of work involving the Military Health System
Expense Assignment System IV contract. There was also no indication that network security or information assurance
was implemented during the period of performance from November 2004 through November 2007.
   On September 30, 2008, a government contracting officer letter of demand was served on the company. The
demand letter stated the government performed an inspection of services on the contract, and based on contract
reviews, performance reviews, and the DCIS investigation, the company failed to perform and deliver proper network
security and information assurance services to the government. As a result, the government sought $1.3 million for
services that were never performed. On February 18, 2009, the company provided a signed bilateral modification
to the Department of Defense Task Order and a certified check in the amount of $1.3 million payable to the U.S.
Treasury.

Identity Theft
The FBI and the Air Force Office of Special Investigations contacted DCIS and requested investigative assistance
by the DCIS Cyber Crime Program. The investigation involved a former Marine lance corporal who had stolen
DoD employees personal identification information and engaged in an internet scheme to defraud other U.S. service
members and the Army and Air Force Exchange Service. The former Marine opened Military Star Credit Card
accounts using the names, identities, and Social Security numbers of the service members.
    After 13 victims were identified, search warrants were served on the former Marine’s residence. Based on the
evidence seized, a criminal complaint was filed and arrest warrant issued by the Federal District Court of the Middle
District of Florida. He was arrested in February 2007.



                                                                                                                     41
October 1, 2008 to March 31, 2009
                                                               Accomplishments of the DoD IG


The former Marine was indicted in October 2007 by a grand jury of the same District on 16 charges, pled guilty to
charges of identity theft and access device fraud in August 2008, and was sentenced in November 2008. His sentence
included 432 days incarceration, 60 months probation, and an order to pay restitution of $76,281. Additionally, a
forfeiture monetary judgment of $113,954 was ordered.

Illegal Transfer of Technology, Systems and Equipment
The DCIS Technology Protection Program is the agency’s fastest growing program in addition to being one of its most
critical due to the direct threat posed to the warfighter and the nation by loss of critical technology. Investigations
under this program involve the illegal theft or transfer of technologies and U.S. Munitions List items to proscribed
nations, criminal enterprises, and terrorist organizations. This illicit trans-national trafficking, which includes weapons
of mass destruction components, presents a serious danger to the United States and its allies and threatens America’s
warfighters deployed around the world.
     DCIS has investigated cases involving the illegal export of missile technology, military night vision equipment,
fighter jet components, and helicopter technical data. Fostering a multi-agency approach has been and continues to
be critical to the success of these investigations and prosecutions. DCIS conducts non-proliferation and technology
transfer investigations with Immigration and Customs Enforcement, the military criminal investigative organizations,
and other law enforcement partners. As a result of these joint investigations, numerous cases have been successfully
prosecuted.
    To augment these efforts, DCIS has also teamed with the Department of Justice and spearheaded the formation of
the Technology Protection Enforcement Working Group in 2007. The TPEG is comprised of Technology Protection
decision makers from various agencies in the law enforcement community.

Theft of Sensitive Optical Equipment
On February 11, 2009, a former Navy lieutenant was sentenced in U.S. District Court to 21 months imprisonment
and 3 years supervised release, to include psychiatric evaluation and visits, resulting from his plea of guilty to conspiracy
to steal and sell U.S. Government property including Infrared Aiming Lights manufactured by Insight Technology,
rifle scopes, machine gun parts, and other optical equipment.
     The former Navy lieutenant, who had been assigned to a mine hunter, the U.S.S. Shrike, pled guilty on October
17, 2008, following an investigation by DCIS. The plea was the result of an investigation that disclosed that former
lieutenant conspired with others to steal DoD property and sell the property on the Internet. He requisitioned the
property from the Defense Reutilization Management Office while assigned to the U.S.S. Shrike and diverted it on
the dock for his own use.
    On December 12, 2008, as part of the same investigation, a Taiwanese national pled guilty to conspiracy to commit
unlicensed exporting of Munitions List items and unlicensed export of Munitions List items in violation of the Arms
Export Control Act. The investigation disclosed that the Taiwanese national conspired with others to illegally export
munitions list items including a helmet mounted cueing system, heavy thermal weapon sight, and infrared laser aiming
devices from the U.S. to Taiwan and Hong Kong. The Taiwanese national was arrested in December 2007 in Hong
Kong by the Hong Kong authorities at a meeting with an undercover agent pursuant to a Mutual Legal Assistance
Treaty agreement and was extradited to the United States on August 16, 2008.

Conspiracy to Illegally Export Military Components to Iran
This case was initiated based on information referred to DCIS by ICE. The investigation disclosed that as late as 2003,
Thomas McGuinn, an Irish citizen and owner of MAC Aviation Limited, a Republic of Ireland-based company, and
two other individuals solicited U.S. based aerospace companies for the purchase and diversion of F-14 fighter aircraft
parts, military helicopter engines, and military aviator night vision goggles for export to Iran. All of these items are
United States Munitions List components.

42
                                                                                             Semiannual Report to the Congress
Investigations

They were charged with purchasing USML components and illegally exporting them to Iran using companies in
Malaysia and the United Arab Emirates. Among the alleged recipients of these U.S. goods was an Iranian military
firm that has since been designated by the U.S. for being owned or controlled by entities involved in Iran’s nuclear
and ballistic missile program. The 25 count indictment that was unsealed on March 24, 2009, charged each of the
defendants with two counts of conspiracy, 19 counts of violating the International Emergency Economic Powers Act
and Iranian Transactions Regulations, four counts of false statements, and forfeiture allegations. If convicted, the
defendants face a maximum sentence of 10-20 years in prison for each of the IEEPA counts, 5-20 years in prison for
each of the conspiracy counts, and five years in prison for each of the false statement counts.

Conspiracy to Violate the Arms Export Control Act
On November 7, 2008, the owner of an aviation company located in Pompano Beach, Florida, was sentenced in
the U.S. District Court for the Southern District of Florida to 51 months imprisonment, concurrent with prior
sentencing, upon his guilty plea to one count of Conspiracy to Violate the Arms Export Control Act. The company’s
owner was a DoD contractor who sells aircraft components domestically and abroad. The actions of this contractor
were discovered during a joint DCIS and ICE investigation of a foreign firm attempting to procure and export USML
parts for the F-14, F-5, and C-130 aircraft without a valid Department of State Office of Defense Trade Controls
License. The investigation determined the foreign firm was working with the aviation company to accomplish the
scheme.

Attempt to Export Military Equipment to a Terrorist Organization
On March 30, 2004, ICE notified DCIS that a representative of an Indonesian business was attempting to purchase
third generation night vision devices and other sensitive military equipment without obtaining required export licenses.
A joint DCIS/ICE investigation revealed the firm’s representative conspired with a man from Singapore and others to
export state-of-the-art firearms, machine guns and ammunition, surface to air missiles, night vision goggles, and other
military weapons to the Liberation Tigers of Tamil Eelam (Tamil Tigers) operating within Sri Lanka.
   All coconspirators pled guilty to charges stemming from the investigation. In 2007, the man from Singapore pled
guilty to conspiracy to provide material support to a designated terrorist organization and money laundering. On
October 30, 2008, he was sentenced to 37 months confinement.

Chinese National Pleads Guilty to Conspiracy
On October 22, 2007, DCIS received information from ICE regarding a possible conspiracy to violate U.S. export
laws. Specifically, ICE reported that Everbright Science & Technology and its employees attempted to acquire third
generation Night Observation Device technology. This technology is on the USML and requires an export license.
EST arranged for the company manager, Bing Xu to come to the U.S. to finalize negotiations for the transfer of the
export controlled items. Xu was arrested by DCIS and ICE agents and charged with conspiracy to violate the Arms
Export Control Act. On February 24, 2009, Xu pled guilty before U.S. District Court for the District of New Jersey
to conspiring to export military-grade night vision technology from the United States to the Republic of China.

Two Brothers Convicted of Conspiring to Steal Optics
On February 2, 2009, two brothers who had served in the Marine Corps pled guilty to conspiring to steal military
optics and export them from the United States. At a hearing, one of the brothers admitted that while on active duty
with the Marines he stole high-grade optics from his station in Kings Bay, Georgia, and transported them to his
brother, a Marine Reservist, who sold them on the Internet. The convictions stem from a joint investigation by DCIS
and ICE. The stolen optics were USML items specially designed for military purposes and prohibited from export
without a special license. Neither brother had a license. The investigation revealed that they sold and shipped the
stolen optics to purchasers in Hong Kong, Japan, and Taiwan.



                                                                                                                     43
October 1, 2008 to March 31, 2009
                                                             Accomplishments of the DoD IG


Homeland Security/Terrorism
DCIS is a major supporter of the FBI’s Joint Terrorism Task Forces throughout the country. The mission of the JTTF
is to detect, prevent, and respond to domestic and international terrorist threats against United States citizens or
interests. DCIS currently helps staff 40 JTTFs on a full-time or part-time basis. DCIS JTTF participation ranges
from major metropolitan areas, such as New York City, Los Angeles, Washington D.C., and Chicago, to smaller cities,
such as Covington, KY, and Springfield, MA. A full-time DCIS representative is also assigned to the National Joint
Terrorism Task Force located at the National Counterterrorism Center. DCIS participation on JTTFs has resulted in
the referral of multiple national security investigations. Each of these cases had a strong DoD nexus and concerned
security violations or threats against U.S. Armed Forces, DoD civilians, or military installations.

Conspiracy to Wage War Against the United States
On March 6, 2009, a man was convicted of conspiracy to levy war against the United States and sentenced to 16
years in federal prison as the result of an investigation by the Long Beach JTTF. That investigation was initiated after
Torrance Police Department, CA, developed information of possible terrorist activities after arresting two other men,
Levar Washington and Gregory Patterson, in a string of armed robberies.
   Washington and Patterson were members of a domestic terrorist cell, Jam’iyyat Ul-Islam Is-Shaheen, and used the
proceeds from the bank robberies to purchase weapons and bomb making components. Search warrants executed at
their apartment uncovered plans to conduct a violent jihad against the United States. Their plans, specifically, were
to attack various Department of Defense facilities and personnel including United States military recruiting stations,
California National Guard installations, and civilian targets.
  Further investigation disclosed Washington, Patterson, and the man conspired to commit these acts against the U.S.
Government. Washington and Patterson were previously found guilty of conspiracy to levy war against the United States
through terrorism and of conspiracy to possess and discharge firearms in furtherance of criminal violence. Washington
was sentenced to 22 years imprisonment, and Patterson was sentenced to more than 12 years imprisonment.

Conspiracy to Use Weapons of Mass Destruction
On February 26, 2009, a man was sentenced to 20 years imprisonment and 5 years probation upon release for
conspiracy to use weapons of mass destruction. The conviction was the result of a DCIS case that derived from a FBI
JTTF.
   The investigation disclosed that the man provided material support to al Qaeda and that he fought in Afghanistan
and Bosnia in the early 1990s. The man, who was born in the United States, later returned to the Central Ohio area,
where he operated in a circle of Islamic militants with similar views, recruiting and preparing them to fight in overseas
conflicts. By the late 1990s the man was suspected of traveling to Germany where he worked with radical Islamists
exhorting them to commit violence, instructing them on the use of explosives. The man also provided information
regarding potential targets in the United States.

DCIS Initiatives
Asset Forfeiture Program
The DCIS asset forfeiture program has expanded to seven asset forfeiture investigators and one auditor. In addition,
two contractors, a senior professional and a project director, are assigned to headquarters. The program’s budget,
which is approved by DoJ, has increased more than 64% percent within this reporting period in order to meet the
agency’s forfeiture-related investigative needs. Also, within this reporting period, DCIS obtained court orders of final
forfeiture in the amount of over $100 million, most of which was derived from a judgment ordered against Eli Lilly
and Company.


44
                                                                                          Semiannual Report to the Congress
Investigations

  The settlement was the result of a joint criminal investigation that found a man illegally promoted the sale and use
of Zyprexa to psychiatrists, physicians, and other health care professionals for uses other than those approved by the
FDA. The case was investigated by the DoJ Civil Division, the DoJ Office of Consumer Litigation, DCIS, the Food
and Drug Administration Office of Criminal Investigations, and the Department of Health and Human Services
Office of the Inspector General. The forfeiture was part of an overall $1.4 billion, the largest amount paid by a single
defendant in DOJ history.
    Additionally, during this reporting period, Charlene Corley, owner of C&D Distributors, was sentenced to 6 1/2
years in prison for defrauding the Pentagon out of approximately $21 million dollars by inflating the shipping costs of
military equipment. For example, the company invoiced the military almost $1 million to ship two 19- cent washers
and almost $500,000 to ship an $11 dollar threaded plug. Corley pled guilty of conspiracy to commit wire fraud and
conspiracy to commit money laundering. A preliminary monetary judgment in the amount of over $20 million was
ordered against the defendant; the final order for the forfeiture for $8 million is pending.
   Since this program’s inception in May 2007, DCIS has obtained court orders of final forfeiture totaling over $120,000
and more than $11 million in additional pending seizures. The assets forfeited consist of monetary judgments, real
property, watercraft, and vehicles, involving investigations of public corruption, product substitution, theft, false
claims, healthcare fraud, and technology protection.

Defense Finance and Accounting Service - Rome
DCIS initiated a project at the Defense Finance and Accounting Service in Rome, New York, to review hundreds
of thousands of documents to analyze over $14 billion in payment vouchers related to U.S. Army purchases in Iraq,
Kuwait and Afghanistan for evidence of theft and bribery. The information reviewed by DCIS, the Office of the
Deputy Inspector General for Audit, and DCAA to refer potential criminal activity to the field for investigation has
generated approximately 30 investigative leads and provided over 1,000 vouchers to support ongoing investigative
efforts by DCIS and affiliated task force investigations.

Investigations of Senior Officials

On March 31, 2009, there were 267 ongoing investigations into senior official misconduct throughout the Department,
representing an increase from September 30, 2008, when we reported 227 open investigations. Over the past 6 months,
the Department closed 163 senior official cases, of which 18 (11 percent) contained substantiated allegations.

Military Reprisal Investigations

During the reporting period, MRI and the military department IGs received 323 complaints of whistleblower
reprisal. We closed 226 reprisal cases during this period. Of the 226 cases, 202 were closed after preliminary
analysis determined further investigation was not warranted and 24 were closed after investigation. Of the 24 cases
investigated, 4 contained one or more substantiated allegations of whistleblower reprisal (17 percent). MRI and the
military departments currently have 430 open cases involving allegations of whistleblower reprisal.

Examples of Substantiated Whistleblower Reprisal Cases
A Navy lieutenant alleged he was given an unfavorable evaluation, reassigned, referred for an involuntary mental
health evaluation, and threatened with discharge in reprisal for contacting an inspector general after his chain of
command denied his request for captain’s mast. A Navy investigation substantiated he was reassigned and threatened
with discharge in reprisal for making a protected communication. Corrective action is pending.
    A Navy petty officer alleged he received non-judicial punishment and an unfavorable fitness report in reprisal for
contacting an inspector general about alleged fraternization within the unit. A Navy investigation substantiated the
allegations. Corrective action is pending.
                                                                                                                     45
October 1, 2008 to March 31, 2009
                                                              Accomplishments of the DoD IG


     An Army sergeant alleged his first sergeant recommended him for an Article 15 in reprisal for reporting unsafe
conditions during a field exercise to an inspector general. An Army investigation substantiated reprisal against the first
sergeant. Corrective action is pending.
    An Army Reserve staff sergeant alleged he was referred for an involuntary mental health evaluation in reprisal for
reporting allegations to an inspector general that a supervisory administrator created a hostile work environment. An
Army investigation substantiated that the administrator reprised against the staff sergeant by providing misleading
information about the sergeant, which instigated the referral for an involuntary mental health evaluation. Corrective
action is pending.

Referrals for Mental Health Evaluations
The DoD IG closed 17 cases involving allegations of improper referrals for mental health evaluation during the reporting
period. In 11 (65 percent) of those cases, we substantiated that command officials and/or mental health care providers
failed to follow the procedural requirements for referring Service members for mental health evaluations under DoD
Directive 6490.1, “Mental Health Evaluations of Members of the Armed Forces.” We substantiated that one of the
mental health referrals was influenced by officials in reprisal for a service member’s protected communications.

Civilian Reprisal Investigations
Civilian Reprisal Investigations hired two additional investigators in its continued aggressive promotion of civilian
whistleblower protection. During the first half of FY 2009, CRI advised on twenty-five intakes not going to full
investigation, closed three investigations, and is actively working sixteen cases open at the end of the first half of the
fiscal year. The DoD IG was also recertified as 5 U.S.C. Section 2302 (c) compliant for the next three years and advised
the Office of the Inspector General, Naval Research Laboratory, on its initial certification.

Example of Substantiated Civilian Whistleblower Reprisal Cases
A civilian supervisory transportation management specialist alleged that management officials suspended him and
failed to promote him in reprisal for his protected disclosure concerning fraud, waste, abuse, and gross mismanagement
associated with a criminal investigation into transportation contract fraud. A CRI investigation substantiated reprisal.
Corrective action is pending.

Investigative Policy and Oversight
Investigative Policy and Oversight produces policy concerning criminal investigations that impact the DoD law
enforcement community; administers the DoD IG Subpoena and DoD Contractor Disclosure Programs; conducts
Department-wide oversight affecting the investigative and law enforcement community; conduct oversight evaluations
of DoD investigative organizations or individual investigations to including command directed investigations upon
request. IPO accomplishments this period include:
•	 Issuing 110 subpoenas issued with an average processing time of 12.6 days, below the 15 day metric. Five
    subpoena training classes conducted for the Defense Criminal Investigative Organizations.
•	 Launching the DoD IG Contractor Disclosure Program that requires federal contractors report violations of
    criminal law for overpayments in connection to the award or performance of any contracts or subcontracts in an
    amount greater than $5 million and of more than 120 days duration. Contractors made nine disclosures.
•	 Facilitating the transition from the Voluntary Disclosure Program to one requiring disclosure. The Voluntary
    Disclosure Program, which provided incentives to federal contractors under the False Claims Act and Federal
    Sentencing Guidelines for voluntarily disclosing to Government authorities potential civil or criminal violations
    within their own operations, was rescinded in November 2008; over $3 million was recovered this period from
    previously reported disclosures.

46
                                                                                          Semiannual Report to the Congress
Inspections


                                Inspections
                                Evaluation of the DoD Safety Program and
                                Safety Perception Surveys

                                Accidents cost the military departments the lives of 700 service members per year and an
                                estimated $21 billion in direct and indirect costs. In an effort to identify opportunities
                                to prevent accidents and improve the DoD safety program, the DoD IG partnered with
                                the National Safety Council, the Defense Safety Oversight Council, and the Defense
                                Management Data Center and administered a series of safety perception surveys in
                                2005 and 2007. These surveys solicited responses from four population groups--DoD
                                senior leaders (2005 only), active duty personnel, civilian employees, and Guard and
                                Reserve members. The 2005 surveys established an empirical safety climate baseline
                                for measuring program improvements. The surveys are repeated every 2 years (every 4
                                years for senior leaders). We published the results of the 2007 surveys on December 12,
                                2008, and compared the results to the 2005 baseline. Overall, the data shows positive
                                trends in management’s efforts to improve safety awareness. The survey reports are
                                available at http://www.dodig.mil/Inspections/IE/Reports.htm.

                                Allegations Concerning the Acquisition of Pumps for New
                                Orleans Flood Control by the Army Corps of Engineers

                                                            On February 27, 2009, the DoD IG received the independent
                                                            engineering assessment of the pumping system acquired by
                                                            the Army Corps of Engineers for New Orleans flood control.
                                                            The independent assessment was conducted by the Parsons
                                                            Infrastructure and Technology Group under contract with
                                                            the DoD IG. The Parsons assessment concluded that the
                                                            pumps were adequately tested for their intended purpose and
                                                            that there are no immediate vulnerabilities to catastrophic
                                                            failure.

                                                            We previously examined allegations concerning the
                                                            pumping system that were referred to us by the Office of
                                                            Special Counsel in October 2007. The Special Counsel
                                                            took exception to the conclusions of our May 2008
                                                            report and, in a letter to the President of August 4, 2008,
                                                            recommended that an impartial investigation be conducted
                                                            by independent professional engineers.

                                Because we believed the concerns expressed by the Special Counsel warranted further
                                consideration, we obtained a contract with Parsons to determine whether the pumping
                                system at issue was adequately tested and to evaluate the risk of system failure in the
                                event of a hurricane.




                                                                                                                       47
October 1, 2008 to March 31, 2009
                                                                                                                 Accomplishments of the DoD IG


                                                                                          Defense Hotline
                                                                                          The Defense Hotline continues its primary mission of providing a confidential
                                                                                          and reliable vehicle for DoD civilian and contractor employees, military service
                                                                                          members, and the public to report fraud, waste, mismanagement, abuse of
                                                                                          authority, threats to homeland security and leaks of classified information.

                                                                                          The Defense Hotline is operational Monday through Friday from 7:00 a.m.
                                                                                          to 5:00 p.m., and is staffed by 14 full-time DoD IG employees, who receive,
                                                                                          examine and evaluate allegations pertaining to Department of Defense programs
                                                                                          and operations. Complaints may also be submitted to the hotline 24 hours a day
                                                                                          via the Internet and email.

                                                                                          During this reporting period, the Defense Hotline received 6,329 contacts from
                                                                                          the public and members of the DoD community and initiated 922 cases: 33
                                                                                          percent by U.S. mail, 27 percent received by email, 22 percent via the Hotline’s
17973-Hotline.indd 1                                                10/20/06 5:37:57 PM



                                                                                          web page, 12 percent from the Government Accountability Office, 4 percent by
                                                                                          telephone, and 2 percent via Congressional inquiries.
                        Department of Defense
                       Inspector General Hotline
                                                                                          In an effort to increase the ability of our military, contractors, and
                           1-877-363-3348                                                 civilians in the Southwest Asia region to report allegations of fraud,
                       Protect the Total Force                                            waste, and abuse, the DoD IG has a toll-free Defense Hotline
                                                                                          number for the exclusive use of personnel stationed in the region:
                                                                                          1-877-363-3348.


                                                                                          The hotline closed 894 cases this reporting period. Investigations initiated
     Military                    Contractors                Civilians                     exclusively by the Defense Hotline returned $1.5 million to the federal government
 Report: Fraud, Waste, and Abuse                                                          during this reporting period.
                             Send written complaints to:
                                  Defense Hotline
                                   The Pentagon
                             Washington, DC 20301-1900

DSN: 312-664-1151           Email: hotline@dodig.mil www.dodig.mil/hotline
                                                                                                               Distribution of Referrals

                                                                                                              0% 1%
                                                                                                   13%
                                                                                                                                35%
                                                                                             2%
                                                                                                                                                     DODIG
                                                                                                                                                     UNIFORM SVCS
                                                                                                                                                     OSD
                                                                                                                                                     DEFENSE ACTIVITIES
                                                                                                                                                     NONDOD
                                                                                                                                                     TRICARE

                                                                                               49%


48
                                                                                                                                             Semiannual Report to the Congress
Other Department of
Defense Oversight
                                                                                 Other DoD Oversight


Army
Army Audit Agency
To accomplish its mission, U.S. Army Audit Agency
relies on a work force of highly trained professional
auditors, many with advanced degrees and professional
certifications. USAAA’s staff consists of approximately
600 employees and is organized into 17 functional audit
teams that provide audit support to all aspects of Army
operations.
     USAAA also maintains a significant presence in the
Central Command area of responsibility assisting Army
commanders. At the beginning of October 2008, it had
28 deployed auditors in Iraq, Kuwait, and Afghanistan.
Overall, USAAA has deployed over 130 auditors since
2002 and have issued more than 100 reports on Operation                  Army auditors at ARCENT headquarters.
Enduring Freedom/Operation Iraqi Freedom.
   USAAA’s goal is to be a highly sought after and integral
part of the Army by providing timely and valued services       Assessing Future Base Budget
that improve the Army by doing the right audits at the right   Requirements
time and achieving desired results. To ensure its audits are   USAAA conducted a multi-location audit of the Army’s
relevant to the needs of the Army, USAAA prepared its          process for developing its future base budget. USAAA
Strategic Audit Plan to align its audit resources with the     reviewed each of the Army’s six Program Evaluation
Army’s four imperatives and three enabling initiatives:        Groups to determine if the PEGs adequately considered
•	 Sustain the Army’s soldiers, families, and civilians;       enduring requirements when projecting future base
•	 Prepare soldiers, units, and equipment to succeed in        budget requests. Specifically, USAAA evaluated the
     complex 21st century security environments;               PEG process for building the FYs 2010 to 2015 Program
•	 Reset forces and rebuild readiness for future               Objective Memorandum to determine if the process was
     deployments and contingencies.                            consistent, in accordance with DoD and Army guidance,
•	 Transform and meet the needs of combatant                   and effective in communicating requirements to Army
     commanders;                                               decision makers. Additionally, USAAA determined if
•	 Secure financial resources and legislative authorities to   the PEGs considered enduring requirements from the
     meet requirements for the Army’s compelling needs;        FY 2009 supplemental request during the FYs 2010 to
•	 Implement business transformation; and                      2015 POM build. USAAA found that most PEGs had a
•	 Enhance strategic communications.                           consistent and transparent process for validating requested
   During the first half of FY 2009, USAAA published 80        base budget requirements; however, the determination of
reports, made over 240 recommendations, and identified         critical requirements was not entirely transparent and may
over $900 million in potential monetary benefits agreed        unnecessarily reduce or eliminate validated requirements
to by Army activities. USAAA reported another $2.9             for various systems that were funded by the supplemental.
billion in potential benefits that DoD agencies non-           By not fully identifying critical requirements, the Army’s
concurred with; the Office of the DoD Inspector General        senior leaders may not have a clear picture of the base
is coordinating the resolution of these reports. A few of      budget shortfalls. As of March 31, 2009, USAAA
USAAA’s significant reports are described below.               published reports for two of the six PEGs.



50
                                                                                           Semiannual Report to the Congress
U.S. Army


Management of Shipping Containers                            FY 2009 Manning Requirements for
in Southwest Asia                                            Contract Security Guards in Europe
At the request of the Office of the Deputy Chief of Staff,   Garrisons in Europe account for about half of the Army’s
G-4, USAAA audited the Army’s visibility over shipping       contract security guard costs. USAAA followed up on
containers related to the Southwest Asia theater of          a prior audit of manning requirements for contract
operations. USAAA completed the series of audits in the      security guards in Europe and evaluated FY 2009
first half of FY 2009, and published a report on operations  manning requirements. The audit showed that U.S.
in Afghanistan and a summary report.                         Army, Europe and Seventh Army implemented prior
                                                             recommendations, saving about $36 million in FY 2008.
Management of Shipping Containers in Southwest USAAA also identified opportunities to further reduce
Asia—Afghanistan: USAAA identified visibility issues contract requirements by about $2.8 million. USAAA’s
existed with the data in the automated system used to recommendations will help USAREUR right-size contract
manage and track shipping containers in Afghanistan. requirements without compromising force protection.
These issues were primarily attributable to shortfalls in
command emphasis and the absence of the actions needed Pre-Mobilization Training
to ensure the visibility data was accurate and complete. Requirements, U.S. Army Reserve and
The Afghanistan theater of operations lost visibility nearly U.S. Army National Guard
8,000 containers valued at about $24 million. USAAA These two reports were the first reports in a series of
made recommendations to the Combined Joint Task audits reviewing mobilization training for the Reserve
Force – 82 and Combined Security Transition Command Component. USAAA found that Army Reserve and
– Afghanistan to improve container management National Guard units effectively identified their pre-
and asset visibility. Both commands agreed with our mobilization training tasks by attending joint planning
recommendations and started corrective actions.              meetings with First Army. They also identified specific
                                                             training requirements necessary to complete agreed-to
Management of Shipping Containers in Southwest pre-mobilization training tasks. However, Reserve and
Asia—Summary: This report summarized audits USAAA Guard units often did not complete their pre-mobilization
performed in Iraq, Afghanistan, and Kuwait. Audit results training tasks prior to mobilization because they couldn’t
showed visibility over shipping containers were systemically stabilize unit staffing with sufficient numbers of deployable
problematic in Southwest Asia and in the continental personnel and did not obtain equipment necessary for
United States. USAAA found three overarching factors the training. Additionally, units did not execute training
Army should address to improve visibility over shipping tasks efficiently between the pre-mobilization and post-
containers: Army’s continued use of containers beyond mobilization phases. As a result, units had increased post-
their intended purpose; categorization and treatment of mobilization training requirements, had to repeat some
containers as expendable assets; and absence of sufficient training tasks, and one unit had decreased deployed time
container management education and training at logistics in theater. USAAA made six recommendations to improve
schools. Inadequate visibility of containers contributed the pre-mobilization training processes for the Reserve
to the unanticipated cost of $513 million in detention and National Guard. The third audit in the series is of
fees and container buyouts. Our recommendations would post-mobilization training and will start in March 2009.
mitigate future container management challenges and
could result in a future cost avoidance of $263 million. Followup Audit of Installation
The Office of the Deputy Chief of Staff, G-4 agreed with Preparedness for Weapons of Mass
the recommendations and stated it would take corrective Destruction
actions.                                                     USAAA followed up on corrective actions the Office of
                                                             the Deputy Chief of Staff, G-3/5/7 took to implement a
                                                             recommendation addressed to them previously in a 2003
                                                             effort. The original audit showed that the office’s efforts
                                                             to validate $181 million in equipment and training

                                                                                                                       51
October 1, 2008 to March 31, 2009
                                                                                  Other DoD Oversight


requirements with major commands and installations              Transportation Charges
were not fully effective because some installations             USAAA performed a series of audits on transportation
did not submit requirements and some installations              charges at the request of the Vice Chief of Staff, Army as
submitted questionable requirements totaling about              part of the Army’s intensive review of the cost of doing
$15.6 million. As a result, Army had no assurance that          business. Most of the audit work was performed at the
requirements identified for FYs 2004-2009 were valid.           United States Transportation Command and the Military
USAAA concluded that the actions the office took                Surface Deployment and Distribution Command.
fixed the previously reported problem and realized              USAAA coordinated its transportation charges audits with
monetary benefits. The office established the Installation      the DoD IG; the Office is coordinating the resolution of
Preparedness Branch which used a top-down approach              the three published reports discussed below.
to develop the Installation Preparedness Program. This
approach developed the requirements in accordance with
guidance from the Secretary of Defense and delivered
those requirements to specific installations. The branch
scrubbed the requirements and eliminated the five projects
valued at $15.6 million identified in the previous audit.

Trauma Services Cooperative
Agreement, Brooke Army Medical
Center
USAAA conducted this engagement as part of a requested
audit of patient billing services at Brooke Army Medical
Center. USAAA reported that BAMC provided medical
treatment to non-DoD civilians beyond the emergency
care authorized by regulations. This occurred as a result
of BAMC entering into a cooperative agreement with
two other trauma centers (Air Force medical center and
a civilian medical facility) to provide emergency trauma
                                                                               Army auditors on assignment.
care to all civilians in the local metropolitan area without
requiring full reimbursement for the medical services it
provided. During FYs 2004-2006, BAMC incurred annual
costs of about $30 million as a result of the emergency         Customer Billing Rates – Liner Business Shipments:
medical services it provided under this agreement while         This audit addressed concerns that the Army was
only collecting associated costs of about $10 million.          overpaying for liner business shipments to support the
U.S. Army Medical Command provided BAMC                         Global War on Terrorism. USAAA found that customer
supplemental funds of about $20 million annually to             billing rates were not based on appropriate costs for FY
offset the shortfall in collections. Despite the offset funds   2006 through FY 2008. The Transportation Command
and partial collections, BAMC accumulated about $70             established rates for war shipments that were significantly
million in unpaid medical claims during this three-year         higher than shipping costs—almost doubling customer
period. USAAA made two recommendations to correct               rates for war shipments and generating about $650 million
the conditions found by having BAMC renegotiate the             in profits by the end of FY 08. This was in addition to
cooperative agreement to include full reimbursement             eliminating a $268 million accumulated operating loss
provisions and requesting that MEDCOM review the                (that included costs not associated with the liner business
new agreement for legal sufficiency and compliance with         area) and subsidizing other shipping lanes that were
DoD/DA regulations.                                             priced to operate at a loss for FY 2006. Because of the
                                                                Transportation Command’s billing policy, the Army was


52
                                                                                            Semiannual Report to the Congress
U.S. Army

overcharged about $382 million during FY 2006 and               the methodology used to calculate the fees. If USAAA
FY 2007 and could be overcharged another $2.1 billion           recommendations to develop and publish detailed
over the Program Objective Memorandum. USAAA also               guidance and to identify and use incremental costs for the
identified a possible Purpose Act Violation and potential       fee determination process are implemented, the Army will
Antideficiency Act violation, of as much as $321 million,       realize transportation cost savings of about $123 million.
that should be reported as required by the Financial
Management Regulation.            USAAA recommended             Energy Consumption
revision of customer billing rates, development of detailed     The Army spends over $1.2 billion annually for energy
billing policies and procedures, and implementation of a        operating costs at its installations. Executive Order 13423
management control program for customer billing rates.          (Strengthening Federal Environmental, Energy, and
                                                                Transportation Management) requires federal agencies
Container Detention Billing for the Global War on               to improve energy efficiency and reduce greenhouse gas
Terrorism: This audit was requested based on concerns           emissions by 3 percent annually or 30 percent by the end
that the Army was paying for container detention penalties      of 2015. The Order requires agencies to report energy
incurred by non-Army activities. The audit showed that          consumption and progress towards meeting energy
Military Surface Deployment and Distribution Command            reduction goals to the Department of Energy. This audit
did not bill the activity responsible for container detention   focused on the effectiveness of the Army’s methods for
and it did not have a system in place to identify and bill      tracking and reporting energy consumption data and the
the responsible activity. Instead, it billed the Army for all   measures taken to achieve energy savings.
detention based on informal agreements. The Army paid
at least $67 million of detention charges for non Army          USAAA reported that the Army did not use effective
activities (this included about $47 million for commercial      methods to track and report energy consumption data.
vendors) and another $183 million of detention where            USAAA found that 69 of 231 activities shown in the Army
the activity responsible was not determined. The proper         Energy and Water Reporting System with a reporting
authority did not authorize the use of Army funds to            requirement for FY 2007 did not report and were not
pay for detention incurred by non-Army activities.              contacted to determine why they did not report. Further,
Consequently, a violation of the Purpose Statute and            AEWRS had limited analysis capabilities and interfaces
a potential Antideficiency Act violation occurred. If           with other systems which affected the ability of Army
recommendations in this report are implemented,                 managers to conduct trend analysis to measure progress
potential monetary benefits of about $329 million could         towards meeting energy goals. Because all activities did not
accrue to the Army.                                             report energy usage or used varying methods to report, the
                                                                Army had little assurance that data reported in FY 2007
Administrative Fees for Direct Bookings: This audit             was complete and accurate. USAAA also found that the
addressed concerns that the Army was overpaying for Army        Army generally used effective measures to reduce energy
and Air Force Exchange System direct booking fees. The          consumption and achieve energy savings. However, the
audit showed that Surface Deployment and Distribution           Army did not consistently use energy reduction initiatives
Command overcharged its direct booking customers.               and sometimes did not take advantage of energy saving
Although the program was designed to reduce shipping            measures recommended in energy assessments. Based
costs by cutting out the middleman, SDDC established            on our review of six energy assessments, the Army could
a fee that was about twice the overhead costs charged to        potentially achieve at least $10.6 million in savings over
its larger scope, full-service booking customers. SDDC          FY 2010-2014 by implementing energy assessment
did not know how much it cost to provide direct booking         recommendations for four installations in FY 2009.
services and it did not make an effort to establish an
equitable fee structure. While the Defense Commissary           Organizational Clothing and
Agency paid a much lower fee because of legislation, its        Individual Equipment
fee was also overstated. The inappropriate fee structure        To protect soldiers from evolving threats, the Army
continued because SDDC did not periodically review              is rapidly developing and fielding new organizational


                                                                                                                         53
October 1, 2008 to March 31, 2009
                                                                                Other DoD Oversight


clothing and individual equipment. USAAA evaluated             oversee redevelopment activities. The Army agreed with
the Army’s processes for managing OCIE and reported            our recommendations and initiated corrective action,
that the OCIE fielding process did not consider items          which included agreeing to maintain its relationship with
that soldiers already had in their possession as a result of   BLRA.
previous fielding of new OCIE. USAAA estimated the
Army could save about $79 million by revising its fielding Management of Relocatable Facilities
procedures to consider items soldiers had on hand. In      The Assistant Secretary of the Army (Financial
addition, USAAA reported the Army did not allocate         Management and Comptroller) asked USAAA to review
funding for sustainment of OCIE based on priorities.       management of relocatable buildings across the Army. In
In some cases, commands used this funding to purchase      the first half of FY 2009, USAAA issued its final summary
modernized OCIE, competing with the Army’s Rapid           report on this audit, which was the culmination of work
Fielding Initiative that was intended to provide these     at Department of the Army and at five sites (Forts Riley,
items. USAAA estimated that revising procedures would      Stewart, Drum, Huachuca, and Bragg). Although DA
enable the Army to put at least $20 million to better use. policies and procedures existed to acquire, manage, and
USAAA also identified inefficiencies in the infrastructure dispose of relocatable facilities, implementation of the
Army in Europe activities used to manage OCIE. These       guidance needed improvement. Also, the Army initially
inefficiencies included redundant levels of inventory,     did not have a comprehensive exit strategy in place to
duplicate handling of material, and multiple layers of     ensure it would dispose of relocatable facilities once they
personnel. Reorganizing this infrastructure could save     were replaced by a permanent facility or their term of use
over $13 million.                                          expired. These conditions occurred because the Army
                                                           used a decentralized process that allowed inconsistent
No-Cost Economic Development                               interpretation and implementation of the guidance. As a
Conveyance Management and                                  result, the Army had limited visibility and control over
Compliance - Phase II                                      the acquisition, inventory, and disposal of relocatable
USAAA conducted this audit in response to Army’s facilities. Army agreed with USAAA’s recommendations
interest in whether the sources and uses of proceeds from to correct these issues.
local redevelopment authorities’ activities on former Army
property conveyed at no-cost complied with legislation Military and Family Life Counseling
and guidance and were properly supported. USAAA also Service Contract
evaluated the effectiveness of Army oversight on LRAs USAAA performed this multi-location audit which
activities. The sources and uses of proceeds for all 15 focused on the value added to counseling services provided
LRAs complied with the legislation and guidance and to soldiers and their families as a result of hiring Military
were properly supported. Redevelopment at all 15 LRAs and Family Life Consultants. The Army received informal
was progressing to achieve economic prosperity and job counseling services from MFLCs under a DoD contract
growth. However, the Bayonne Local Redevelopment valued at about $300 million. During the first quarter of
Authority required greater Army scrutiny because the FY 2009, USAAA published reports for Forts Hood and
Army did not have reasonable assurance that BLRA would Lewis. These reports are discussed below.
reinvest about $70 million of residual proceeds into the
no-cost property as agreed to. The Army effectively Military and Family Life Counseling Service
oversaw the redevelopment activities of LRAs, but it Contract—Fort Hood: Counseling services improved for
could make additional improvements to ensure focus and soldiers and their families at Fort Hood with the hiring of
consistency on providing oversight and implementing MFLCs. MFLCs worked directly with Army Community
guidance. USAAA made four recommendations: extend Service to provide deployment and reintegration support
the reporting requirement with BLRA, discontinue to soldiers and their families. MFLCs complemented
oversight of five LRAs whose reporting period expired, the other counseling services offered at Fort Hood by
continue oversight of 9 LRAs whose reporting period their proactive efforts to provide timely, confidential,
hasn’t yet expired, and assign adequate resources to and convenient counseling services on a real-time

54
                                                                                          Semiannual Report to the Congress
U.S. Army

basis. They worked extremely well with ACS, Military            Retrograde Operations in Southwest
OneSource counselors, and chaplains to ensure non-              Asia–Class VII Theater Provided
medical counseling services were available to soldiers and      Equipment, Iraq
their families when and where needed. Soldiers and their        USAAA found that Army faced retrograde challenges
families were generally aware of non-medical counseling         over Class VII theater provided equipment. For
services available to them.                                     instance, USAAA found 10,900 wheeled vehicles were
                                                                not processed for reset; 18 percent of vehicle turn-ins
                                                                lacked proper documentation; and personnel resources
                                                                from Redistribution Property Assistance Teams were not
                                                                utilized to their full capacity. In addition, Army commands
                                                                did not maintain accurate accountability and visibility
                                                                over theater provided equipment. USAAA also found
                                                                about $420 million of unaccounted for equipment, and
                                                                $17 million of equipment previously identified as lost.
                                                                USAAA’s recommendations to the Assistant Secretary
                                                                of the Army (Acquisition, Logistics, and Technology),
                                                                U.S. Central Command, and the 402nd Army Field
                                                                Support Brigade were made to improve accountability
                                                                and visibility over newly fielded equipment, and theater
                                                                provided equipment. Commands have agreed with our
                                                                recommendations and are working on corrective actions.

                                                                Retrograde Operations in Southwest
    Army auditors at the Forward Operating Base WarEagle.
                                                                Asia–Multi-Class Retrograde, Iraq
                                                                USAAA identified that Army did not manage retrograde
                                                                and redistribution operations in Iraq in the most effective
                                                                and efficient manner. Although the Army had processes
Military and Family Life Counseling Service                     in place, operations were not fully synchronized, which
Contract—Fort Lewis: Counseling services improved               contributed to a buildup of excess materiel. Specifically,
for soldiers and their families at Fort Lewis with the hiring   Mobile Redistribution Teams formed to clean up battle
of MFLCs. Fort Lewis made extensive use of the MFLCs            space and assist supply activities in collecting, identifying,
and embraced the program by sending them referrals.             storing, moving, and reissuing excess supplies were
MFLCs’ ability to offer “walk-around” (not confined to an       under used. In addition, supply activities supporting
office or classroom setting) services provided an additional    retrograde and redistribution operations created process
measure of support for soldiers and family members              work arounds, which inadvertently created inefficiencies
faced with deployment and military lifestyle stressors.         in the process and directly led to the accumulation
In addition, MFLCs provided more confidentiality                of about $91 million of unnecessary procurements.
than other services due to decreased reporting and non-         USAAA developed recommendations to institutionalize
attribution requirements and also provided the service          retrograde and redistribution processes, prevent process
at locations on- or off-post. They worked extremely well        work arounds, measure effectiveness of operations, and
with counselors from ACS, Military OneSource, and               determine best practices. Commands have agreed with
the Family Life Chaplain’s Office to ensure non-medical         our recommendations and are taking corrective actions.
counseling services were available to soldiers and their
families when and where needed. Soldiers and their
families were generally aware of non-medical counseling
services available to them.



                                                                                                                           55
October 1, 2008 to March 31, 2009
                                                                                    Other DoD Oversight


                                                                     two-hour propaganda video, “The Destruction of the
U.S. Army CID                                                        American Destroyer USS Cole,” soliciting people to
                                                                     commit terrorist attacks and provide material support
The U.S. Army Criminal Investigation Command provides                for al-Qaeda. During the trial, al-Bahlul told the
continuous worldwide criminal investigative support                  jury he had volunteered to be the 20th hijacker in the
to all U.S. Army elements, conducts protective services              September 11, 2001, terrorist attacks. On November
for senior members of the Department of Defense and                  3, 2008, al-Bahlul was convicted of terrorism charges
foreign nations, provides actionable criminal intelligence,          and sentenced to life in prison; and
provides forensic laboratory support to all DoD, conducts        •	 Continued criminal investigations of suspected
logistic security operations in support of Army Operations           terrorists in Afghanistan to support the OMC and
and the GWOT, and maintains Army criminal records.                   expanded its focus on interdicting international
Army CID provides investigative support to combatant                 threat financing, narco-terrorism and foreign fighters
commanders for Iraq and Afghanistan. It remains the                  traveling to Afghanistan to fight on the side of al Qaeda
primary investigative agency within the U.S. Central                 and the Taliban. To date, more than 3,700 criminal
Command’s theater of operations, responsible for                     investigations and more than 1,900 interviews of
conducting all felony crime investigations. The traditional          detainees were conducted.
criminal investigative and intelligence missions have                 Among the many issues facing CID in Afghanistan
expanded to include war crimes and crimes against                are persistent violations of Logistics Security. Organized
coalition and host nation personnel, along with developing       criminal elements and terrorist groups conduct attacks
countermeasures to combat subversive activities on the           against U.S. and NATO supply lines, resulting in the
battlefield.                                                     loss of tens of millions of dollars of various classes of
                                                                 property. CID agents have initiated joint investigations
Army CID Support to OEF/OIF                                      with Afghanistan law enforcement to improve LOGSEC
The Army CID plays a vital role in the U.S. Army’s mission       and recover stolen property. Working through the Afghan
against terrorism through traditional felony investigative       Ministry of Interior, CID agents partnered at all levels with
support, actionable criminal intelligence, logistics security,   the Afghan National Police, the Counter-Terrorism Police,
and protective services for senior members of the DoD            the National Directorate of Security, and the Directorate
and counterparts from foreign nations when traveling to          of Intelligence. CID provided criminal intelligence and
the United States.                                               targeting information to Afghan organizations, which were
    The Army CID continues as the executive agency for           able to seize property and return it through CID to U.S.
the DoD Criminal Investigation Task Force (comprised             forces, and to effect arrests and successful prosecutions of
of agents from Army CID, NCIS and the AFOSI) that                Afghan criminals. These efforts resulted in the recovery
conducts criminal investigations to substantiate or refute       of over $7 million in stolen U.S. property in 2008,
alleged war crimes and acts of terrorism committed against       including vital aviation components (e.g., helicopter
the U.S. and/or U.S. interests by non-U.S. citizens. CITF        engines and targeting parts), combat support equipment
successes this period include:                                   (e.g., generators and HMMWV parts), and the personal
•	 Worked with the DoD Office of Military Commissions            property of soldiers.
    to support President Obama’s transition team in their           Another on-going CID effort to support commanders is
    study of how to close the Guantanamo detention               the Law Enforcement Program, which embeds experienced
    facility;                                                    law enforcement professionals to deploying Army units
•	 Continued criminal investigations of Guantanamo               from Corps to Battalion level. The mission of the LEP
    detainees, including Khalid Sheikh Mohammad,                 is to assist commanders with enhanced expertise and
    the self-confessed mastermind of the 9/11 terrorist          methodology to understand, identify, penetrate, interdict,
    attacks;                                                     and suppress international insurgent and criminal-like
•	 Assisted prosecutors and testified against Ali Hamza          network enterprises to include their employment of
    Ahmad Suliman al-Bahlul of Yemen, a former                   improvised explosive devices.
    propaganda chief for al-Qaeda responsible for the                      LEP personnel are former law enforcement

56
                                                                                              Semiannual Report to the Congress
U.S. Army

professionals with criminal enterprise investigative and        of tens of millions of dollars of various classes of property.
analytical skills developed working for a federal/state         Through joint investigations and working through the
agency or large metropolitan police force with federal          Afghan Ministry of Interior, Army CID agents partnered
task force experience. LEP personnel have an average of         at all levels with the Afghan National Police, the Counter-
20-30 years of analytical and investigative experience. To      Terrorism Police, the National Directorate of Security,
effectively combat extremist/insurgent groups there must        and the Directorate of Intelligence. Army CID provided
be an understanding of international organizations; their       criminal intelligence and targeting information to Afghan
intent, motives, structure and methods of movement of           organizations, which were able to seize property and return
personnel, money and arms. LEP personnel: respond to            it through Army CID to U.S. forces, and to effect arrests
requests for information; conduct real time training to         and successful prosecutions of Afghan criminals. These
enhance the unit’s skills in the areas of forensic materials    efforts recovered over $7 million in stolen U.S. property
collection and exploitation; tactical site exploitation         in 2008, including vital aviation components (e.g.,
procedures; detainee prosecution packet assembly and            helicopter engines and targeting parts), combat support
intelligence collection capabilities; open and close cases of   equipment (e.g., generators and HMMWV parts), and
IED instances; participate in/on patrols; conduct tactical      soldiers’ personal property.
questioning events; assist in coordination and execution
of TSEs; and assist in evidence collection missions.
   In Iraq, CITF opened three new investigative field offices
to supplement the one it had, and developed processes for
obtaining warrants and detention orders for high value
targets after the Status of Forces Agreement was enacted.
The SOFA established an end-date for the withdrawal of
U.S. troops at December 31, 2011, and a series of binding
provisions for U.S. troops in the interim, including a
new requirement that arrest warrants be obtained before
American troops arrest or detain suspected criminals. To
meet this requirement, CITF, traditionally devoting most
of its efforts to investigating suspects after their capture,
is getting out in front of the battlefield captures by
conducting preliminary investigations that lead to arrest
warrants and detention of suspected terrorists.
    A major CITF success for this period in Iraq included
identifying people and organizations involved in financing            U.S. Army Criminal Investigation Command special
terrorist networks which led to an arrest warrant for Abu              agent hands out American flags to local children.
Ghadiyah, a top al Qaeda operative in charge of a network
that smuggled terrorists into Iraq, ending the operation.
     CITF continued its support to the Central Criminal         In April 2008, the Law Enforcement Program, a Joint
Court of Iraq through its criminal investigations and has,      IED Defeat Organization initiative transitioned to the
to date, referred cases against more than 1,610 detainees       Army CID. The LEP mission is to support commanders
involved in kidnappings, murders, mass slaying, insurgency      through embedding contracted former law enforcement
and the financing, sometimes with millions of dollars, of       professionals with an average of 20-30 years of analytical
al-Qaeda networks. Those investigations resulted in trials      and investigative experience into deploying Army units
held with a 75 percent conviction rate.                         from corps to battalion level. With skills developed
  Among the many issues facing Army CID in Afghanistan          working for federal/state agencies or large metropolitan
are persistent violations of Logistics Security. Organized      police forces with federal task force experience, this
criminal elements and terrorist groups conduct attacks          program provided commanders expertise to understand,
against U.S. and NATO supply lines, resulting in the loss       identify, penetrate, interdict, and suppress international


                                                                                                                           57
October 1, 2008 to March 31, 2009
                                                                                 Other DoD Oversight


insurgent and criminal-like network enterprises, including     LandWarNet (the collective reference for the Army’s
the employment of IEDs. These contractors responded to         computer networks). This effort identifies and remediates
requests for information; conducted real time training to      vulnerabilities before cyber criminals or other adversaries
enhance the unit’s skills in forensic materials collection     can access and damage Army systems, steal or alter
and exploitation, tactical site exploitation procedures, and   sensitive information, or disrupt network operations.
detainee prosecution packet assembly and intelligence          During this reporting period, Army CID’s vulnerability
collection capabilities. They opened and closed cases of       assessment program identified $54.5 million in cost
IED instances, participated on patrols, conducted tactical     avoidance to the Army, exceeding the entire FY 2008
questioning events, assisted in coordination and execution     cost avoidance of $48 million. Following the mandatory
of tactical site exploitation, and assisted in evidence        remediation of identified vulnerabilities, no computer
collection missions.                                           network compromises occurred at assessed installations
       The Army CID continued to combat fraud and              for the remainder of this reporting period. In November
corruption related to OEF and OIF funding. As a founding       2008, as a testament to its innovative approaches to crime
member of the International Contract Corruption Task           prevention, the International Association of Chiefs of
Force, Army CID worked with member agencies that               Police selected Army CID for one of two Community
include DCIS, NCIS, AFOSI, DOS-IG, FBI, SIGIR, and             Policing Awards (Special Recognition in Homeland
USAID, under the Department of Justice International           Security).
Contract Corruption Initiative. With forward operating             The Army CID’s Laboratory provided support to the
investigative offices in Afghanistan, Kuwait and Iraq.         warfighter and expanded the Joint Expeditionary Forensic
The investigative activities are primarily focused on          Facilities capabilities by leveraging capabilities and
contingency fund contractual fraud and in support to the       expertise. The Laboratory’s successes this period include:
various military operations, the Army CID has initiated        •	 Processed over 5,500 Iraqi records containing
46 reports of investigation with $2.5 million in total             fingerprints of Integrated Automated Fingerprint
recoveries and an additional $12.6 million identified as           Identification System quality for search within the
cost avoidance.                                                    Automated Biometric Identification System resulting
      The Army CID conducted continuous worldwide                  in 1,943 matches, including three percent containing
protective services for designated senior DoD JCS, and             derogatory information.
Army officials and their foreign counterparts on sponsored     •	 Processed over 150 ABIS searches and 347 IAFIS
Senior Foreign Official Visits to the United States. Since         searches resulting in five ABIS hits and 73 manual
October 2008, Army CID conducted seven OEF and                     identifications. Over 16,500 latent print examinations
four OIF travel missions, 67 travel missions to other              were accomplished in support of cases.
OCONUS locations, 174 CONUS missions excluding                 •	 Completed 43 Integrated Ballistics Identification
the principals within the National Capital Region,                 System entries.
and provided direct support to the 2009 Presidential                The joint task force established by Army CID and
Inauguration. Additionally, numerous Personal Security         Army Internal Review in late 2007 continued to operate
Vulnerability Assessments were conducted for deployed          throughout 2008 in response to a number of U.S.
Combatant Commanders supporting OIF and OEF                    Army Reserve soldiers activated in support of OIF/OEF
Chiefs of Military Cooperation Offices in contingency          operations who were committing fraud while in a temporary
areas; and other senior DoD Officials.                         change of station or temporary duty status. To date, the
     In response to the increasing and rapidly emerging        task force has investigated 493 suspects with a potential
asymmetric threats in the form of cyber intrusions and         fraud of over $21 million. From that, investigations of
malicious network activities, Army CID continued to            365 subjects were provided to commanders for possible
support the Army through its “Virtual Community                prosecution involving fraud of nearly $19 million. The
Policing” approach to fighting cyber crime. One                total fines and recoveries due to the U.S. Army at this
noteworthy example is Army CID’s partnership with              time is approximately $13.5 million.
the Army Chief Information Officer (CIO/G-6) to
conduct proactive vulnerability assessments of the Army’s

58
                                                                                           Semiannual Report to the Congress
U.S. Army/Navy

                                                                   A joint Army CID and IG GSA, contract fraud
                                                            investigation disclosed a U.S. Army contractor failed to
                                                            provide prescribed equipment to deploying units from
                                                            Fort Gordon, GA. The contract directed the contractor
                                                            to assemble “modular emergency response kits” using
                                                            equipment and items produced in the United States in
                                                            accordance with the “Buy America Act”. Investigation
                                                            determined the contractor assembled the MERKs using
                                                            improper and insufficient items and using some equipment
                                                            produced in China. On January 28, 2009, the contractor
                                                            agreed to pay the U.S. government $1.6 million to settle
                                                            the claim.
                                                                An Army CID fraud investigation disclosed an Army
                                                            Air Force Exchange Sales concessionaire in Germany
                                                            failed to report approximately $77,000 in food sales over
                                                            a three year period from 2006 – 2009. Investigation
                                                            disclosed the concessionaire deliberately neglected to ring
          U.S. Army Criminal Investigation Command
                                                            up food sales and transactions and kept the unreported
             special agents conduct raid operations.
                                                            fees for their own personal use. When confronted the
                                                            concessionaire admitted failing to report approximately
                                                            $670 in weekly sales from September 2006 – January
Army CID Significant Case Narratives: 2009. Prosecution by German authorities is anticipated.
Non-OEF/OIF
A joint Army CID and Department of Veterans Affairs,
U.S. Postal Service OIG, and DCIS contract fraud            Navy
investigation disclosed a contractor submitted false claims
in the form of inflated invoices to Army hospitals and
to numerous other government and private hospitals.
                                                            Naval Audit Service
Further investigation disclosed the company used a
billing methodology which inflated the number of lines The mission of the NAVAUDSVC is to provide
billed to the government through use of a factor, ratio or independent and objective audit services to assist
multiplier instead of adhering to the prescribed method Naval leadership in assessing risk to improve efficiency,
called for under the respective contracts. On November accountability, and program effectiveness. Working
25, 2008, the U.S. Attorney’s Office, Boston, MA reached collaboratively with senior Department of the Navy
a $6.6 million civil agreement with the company.            officials, the NAVAUDSVC develops a risk-based annual
      An Army CID environmental crime investigation audit plan that addresses critical areas that officials feel
disclosed a U.S. Army Corps of Engineer contract violation merit additional oversight. In the past six months, our
of the Clean Water Act by clearing approximately four audits have addressed such important, and at times high-
miles of vegetative land in Southern Pinai County, AZ, profile, DON issues as the Navy’s anti-terrorism strategy
without an USACOE permit. The unlawfully cleared and the preparedness of Navy installations to respond to
vegetation then washed into the Santa Cruz River causing chemical, biological, radiological, and nuclear incidents;
a diversion that changed the course of the river and controls over communications security equipment
damaged government power structures. On December (which is used to securely transmit information related
10, 2008, a settlement agreement was reached between to national security); and DON’s efforts during weapons
the DoJ and the contractor wherein the contractor agreed systems development to mitigate the systems’ potentially
to pay the U.S. government $1 million in civil penalties hazardous levels of noise.
for violating the Clean Water Act, as amended.


                                                                                                                    59
October 1, 2008 to March 31, 2009
                                                                                Other DoD Oversight


Our assist reports for the Naval Criminal Investigative       AT Standards; however, the Navy has not established a
Service identified over $100,000 in potential fraud, as       process to verify installation compliance. As a result,
well as a significant case of potentially fraudulent use      NAVAUDSVC identified discrepancies between the
or abuse of overtime by multiple personnel, and will be       reported and actual levels of compliance. Additionally,
used as evidence in court cases. We are continuing our        NAVAUDSVC found that CVAMP had generally been
audit work, undertaken at the request of the Secretary of     populated with some of the identified vulnerabilities
the Navy, to assess controls over overseas acquisition in     at the majority of the 22 Navy installations audited.
such locations as Djibouti, Dubai, and Bahrain, and are       However, 32 percent of identified vulnerabilities within
also continuing our series of audits on the Department’s      the sample had not been entered. Further, mitigation
accountability over small arms. We have worked and will       actions had not been entered for approximately half of the
continue to work with senior DON officials to provide         vulnerabilities observed within CVAMP. Management
them with an expert and impartial assessment of critical      concurred with all recommendations, and all planned
DON issues, risks, and opportunities.                         and completed corrective actions met the intent of the
                                                              recommendations.
Global War on Terror
NAVAUDSVC supports the DON GWOT goals by                   The United States Marine Corps Critical Infrastructure
auditing selected policies, procedures, and activities to  Program: NAVAUDSVC found that opportunities
assure that they achieve the stated objectives and maximizeexist to improve the overall critical asset identification
efficiencies. In support of the DON GWOT goals and         process, such as improving command participation,
risk assessments, NAVAUDSVC’s efforts during this          using authoritative sources for mission essential tasks,
reporting period include ongoing and completed audits in   and implementing uniform training. Additionally, the
the areas of acquisition and disbursing internal controls, NAVAUDSVC concluded that: there is insufficient
anti-terrorism/force protection, medical health, safety,   assurance that all commands have fully participated in the
intelligence and security, and small arms and ammunition.  formal identification process and utilized official HQMC
NAVAUDSVC oversight includes Navy-wide programs as         critical asset identification guidance; the current funding
well as functions performed specifically in Southwest Asia,strategy may not be sufficient to ensure the continuity
including Bahrain, Dubai, and Djibouti. NAVAUDSVC          of this DoD-mandated program; and without adequate
is also working with the SWA Joint Planning Group and      controls to ensure that complete and reliable information
its members to ensure that the full spectrum of DoD        is being captured and validated, USMC may not be able
oversight is engaged in support of DoD’s SWA effort.       to fully plan for, protect against, and mitigate the effects
                                                           of attacks against critical infrastructure. Management
Navy Antiterrorism Program Execution: NAVAUDSVC concurred with all recommendations, and all planned
completed audit work in the six Continental United and completed corrective actions met the intent of the
States Navy regions and a judgmental sample of 22 recommendations.
subordinate installations. NAVAUDSVC analyzed
how effectively selected installations within the six Navy Notice of Ammunition Reclassification Program
Regions have complied with 15 of the 35 sub-objectives Utilization: NAVAUDSVC reviewed nine ammunition
of the AT strategic plan which, in the auditor’s opinion, cognizance areas and nearly 12,000 National Item
were most pertinent to the execution of a robust AT Identification Numbers for which ordnance condition code
program for an installation. NAVAUDSVC also analyzed changes and disposition of unsafe or unreliable ordnance
the accuracy and adequacy of information installation items (NAR messages) during the period under review
officials entered into the Core Vulnerability Assessment were issued. NAVAUDSVC found that the process for
Management Program database (in accordance with DoD initiating and issuing NARs was sufficient. However, the
guidelines). NAVAUDSVC determined that all six Navy Navy has not fully implemented an effective and efficient
in the Continental United States regions were reporting process for verifying that commands are complying with
the status of their installations compliance with AT NARs once they are issued. As a result, the Navy does
Strategic Plan sub-objectives and associated DoD/Navy not have the ability to accurately assess a portion of its

60
                                                                                         Semiannual Report to the Congress
U.S. Navy

ordnance inventory for various conditions, such as timely   all planned and completed corrective actions met the
implementation to restrict or prevent the use of unsafe,    intent of the recommendations.
defective, unserviceable, and/or obsolete ammunition.
Implementation was incomplete, in part, because the         Consideration of Hazardous Noise in the Acquisition
Navy’s current verification of the NAR compliance           of Selected Programs: NAVAUDSVC identified several
process lacks enforceability because accountability for     weaknesses in the acquisition process that, if allowed to
reporting and enforcing compliance throughout the Fleet     continue, may contribute to a hazardous environment
has not been defined in Navy criteria. Management           of high noise exposure. According to the Naval Safety
concurred with all recommendations, and all planned         Center, that environment can lead to permanent hearing
and completed corrective actions met the intent of the      loss. In addition to the personal cost to sailors and marines,
recommendations.                                            the economic consequences of hearing impairment
                                                            and bodily injury to the DON include: lost time and
                                                            decreased productivity; loss of qualified workers through
                                                            medical disqualification; military disability settlements;
                                                            retraining; and expenses related to medical treatment.

                                                            Consideration of Hazardous Noise and Vibration in
                                                            the Acquisition of the Expeditionary Fighting Vehicle:
                                                            NAVAUDSVC found that during the acquisition process
                                                            of the EFV, the Program Office followed the system safety
                                                            design order of precedence when mitigating the identified
                                                            noise and vibration hazards and established risk categories
                                                            that complied with required guidance. However, risk
                                                            assessment codes were incorrectly reduced and guidance
                                                            relating to risk acceptance authority levels was not
                                                            followed. In addition, while a comprehensive database to
                                                            identify, track, and monitor hazards and their mitigation
                                                            efforts were maintained, there were opportunities
     The Naval Audit Service conducted an audit regarding   for improvement. Management concurred with all
             prepardness against CBRN attacks.              recommendations, and planned and completed corrective
                                                            actions met the intent of the recommendations.

Selected Navy Installations’ Preparedness Against           Consideration of Hazardous Noise in the Acquisition
Chemical, Biological, Radiological, and Nuclear             of the F/A-18E/F Super Hornet and EA-18G Growler
Attacks: NAVAUDSVC determined that the Joint Project        Strike Fighter Variants: NAVAUDSVC found that
Manager Guardian successfully provided the required         there was an appropriate process for evaluating the risk
IPP Lite equipment and associated new equipment             assessment codes for the flight-line/deck jet noise hazard
training to the five installations reviewed. However,       and the hazard was identified as a “serious” risk. However,
NAVAUDSVC also found that the five installations            there was no attempt made to mitigate the jet noise hazard
may not be fully prepared to respond to CBRN attacks        in the initial design and development of the aircraft.
using the JPMG Installation Protection Program Lite         Additionally, required guidance relating to risk levels and
equipment. Specifically, NAVAUDSVC found that the           risk acceptance authority levels was not followed, and
Navy installations reviewed needed improvement in the       flight-line/deck jet noise hazard and its residual mishap
areas of emergency management training, mask fit testing,   risk was not tracked.
and JPMG IPP Lite equipment accountability and
storage before they could fully respond to a CBRN attack.
Management concurred with all recommendations, and


                                                                                                                       61
October 1, 2008 to March 31, 2009
                                                                                  Other DoD Oversight


Consideration of Hazardous Noise in the Acquisition            Acquisition Processes and Contract
of the Joint Strike Fighter: The NAVAUDSVC found               Management
that although the JSF aircraft could emit noise at decibel
levels well above the level considered hazardous to hearing,   Management of Special Tooling and Special Test
there was no evidence that a formal noise waiver had           Equipment at Space and Naval Warfare Systems
been granted to the contractor, or that one was required.      Command. Special Tooling and Special Test Equipment
Conversely, there was no noise standard referenced in          is a subset of Government Furnished Equipment: The
the operational requirements document, other than a            FY 2008 Risk Assessment reported a risk that DON does
statement that noise should be minimized, or in the            not have an accurate inventory of GFE. The Office of
contract. Additionally, there was no evidence that there       the Secretary of Defense estimated that the total value of
was an attempt to mitigate the maintainer noise hazard         DoD GFE, including ST/STE assets, to be in excess of
early in the program acquisition through design selection      $30 billion. According to the FY 2006 Risk Assessment,
as required by guidance. NAVAUDSVC also found that:            OSD valued DON ST/STE at more than $4 billion.
a “very low” risk assessment code was created for rating       NAVAUDSVC found that, with few exceptions, Space
hazards, and the RAC for the JSF was inappropriately           and Naval Warfare Systems Command ST/STE was
reduced to that category; and a current log of mitigation      fully accounted for (e.g., all of the ST/STE audited that
efforts that included an assessment of the residual mishap     should be at contractor locations, per available inventory
risk associated with the maintainer noise hazard was not       records, was at those locations). SPAWAR achieved this
maintained.                                                    accountability through its delegation of contract oversight
                                                               to the Defense Contract Management Agency.
Human Capital                                                       SPAWAR’s delegation of contract oversight to
                                                               DCMA is in compliance with DoD Directive 5105.64.
Internal Controls for Overtime Procedures at Navy              NAVAUDSVC determined that DCMA performs
Region Mid-Atlantic: The NAVAUDSVC determined                  reviews of the contractor property control information
that the Office of the Commander, Navy Region                  systems; conducts physical inventories of Navy tooling
Mid-Atlantic did not have adequate controls over the           and equipment; and investigates lost, stolen, damaged,
overtime approval and review process. NAVAUDSVC                and destroyed items.
determined that overtime was not consistently approved             Additionally, NAVAUDSVC was able to account for
in a timely manner; timekeepers, and not supervisors,          99 percent of statistically sampled ST/STE located at
were approving overtime; documentation was not                 contractor facilities. However, SPAWAR did not have
retained as required; and supervisors often did not review     an ST/STE inventory management process that provides
overtime to ensure that it was actually needed or worked.      timely reporting (relaying useful and accurate information
Overtime is an area that, if not properly controlled, is       in a reasonable period of time) and complete visibility
very susceptible to fraud and abuse. It is essential that      (being able to see clearly what one is responsible for) of its
clear guidelines are established and communicated to           portion of Navy ST/STE.
all personnel, that appropriate management approves                This occurred because SPAWAR did not develop and
the need to work overtime, and that overtime claimed is        implement an efficient and effective management process
checked by managers against supporting documentation           to provide visibility of ST/STE inventory.
before authorization to pay is approved. Management                  Also, SPAWAR needed to establish a central office
concurred with all recommendations, and all planned            within SPAWAR with responsibility for management and
and completed corrective actions met the intent of the         oversight of ST/STE inventory, and include assessable
recommendations.                                               units for GFE in SPAWAR Program Executive Offices, and
                                                               System Centers’ Managers’ Internal Control Programs.




62
                                                                                            Semiannual Report to the Congress
U.S. Navy

Financial Management                                             deficiencies estimated to cost $53 million to repair had
                                                                 remained uncorrected for an average of 48 months. The
Navy Marine Corps Intranet Contract Performance                  remaining 268 critical sustainment deficiencies with an
Measures for Incentive Payments: The audit covered               estimated repair cost of $31.7 million were corrected,
all incentive payments made to the NMCI contractor               but were shown as uncorrected in the database. As a
from October 6, 2000 (inception of the NMCI contract)            result, BUMED and its regions were not aware of the
through September 25, 2007, which amounted to about              true condition of their real property facilities, and the
$156 million. NAVAUDSVC found that the processes,                resource requirements to correct the deficiencies and
procedures, and performance measurement criteria used            reports prepared using the data from the requirements
for evaluating NMCI contractor performance for incentive         database may be significantly inaccurate and misleading.
payments were appropriate. Also, NAVAUDSVC found                 Management concurred with all recommendations, and
that the NMCI Program Office maintained sufficient               all planned and completed corrective actions met the
documentation to justify and support 33 of the 40                intent of the recommendations.
incentive payments, totaling approximately $140 million.
However, the NMCI Program Office did not maintain                Naval Criminal
sufficient documentation to support and justify seven of         Investigative Service
the 40 incentive payments totaling approximately $15.3
million. Specifically, NAVAUDSVC found insufficient              NCIS Support to OEF/OIF
supporting documentation for the one-time payment                The Naval Criminal Investigative Service supported efforts
incentive of $10 million, and five Customer Satisfaction         aimed at detecting, deterring, and disrupting terrorism
for End Users incentive payments totaling $3.3 million.          against DoD and Department of Navy personnel and
In addition, NAVAUDSVC identified one questionable               assets worldwide. The NCIS brings to bear a wide array
IA incentive payment of $2 million. These conditions             of offensive and defensive capabilities to the mission of
were due to insufficient oversight and management of the         combating terrorism. Offensively (counterterrorism),
NMCI contract by the NMCI Program Office during the              NCIS conducts investigations and operations aimed at
prior years, and inadequate documentation. As a result,          interdicting terrorist activities. Defensively (antiterrorism),
there is no assurance that the NMCI contractor met the           NCIS supports key DON leaders with protective services
criteria for earning the applicable incentives. Management       and performs vulnerability assessments of military
concurred with all recommendations, and all planned              installations and related facilities to include ports,
and completed corrective actions met the intent of the           airfields, and exercise areas to which naval expeditionary
recommendations.                                                 forces deploy.
                                                                    NCIS personnel deployed around the globe to support
Bureau of Medicine and Surgery Management of                     combating terrorism efforts. The following activities and
Sustainment Funds to Repair and Maintain Real                    accomplishments for NCIS were reported this period:
Property Facilities: NAVAUDSVC found that BUMED                  •	 Deployed to the Multi-National Forces Strategic
activities and regions were not effectively using the facility        Counterintelligence Directorate – Iraq, to fulfill
inspection results and management information systems                 operational and strategic counterintelligence
BUMED provided for activities to use in managing                      requirements and provided counterintelligence
real property facilities. As a result, critical sustainment           support to the unified and special commands.
requirements at BUMED facilities were not being                       Accomplishments include:
accurately and adequately identified by BUMED activities         •	 Produced 283 intelligence reports and is conducting
and critical and non-deferrable sustainment requirements              70 counterintelligence operations;
were not being budgeted and executed in a timely manner.         •	 Developed intelligence that enabled 20 MNF-I
As of March 18, 2008, the database created by the                     operations against High Value Targets, weapons
contractor contained 622 critical outstanding sustainment             caches, and disruption of terrorist/insurgent operations
deficiencies estimated to cost $84.7 million to repair for            directed against MNF-I assets;
15 activities selected for audit, of which 354 uncorrected


                                                                                                                             63
October 1, 2008 to March 31, 2009
                                                                                 Other DoD Oversight


•	 As an integral part of the Multi National Security              Subjects are pending trial in U.S. District Court for
   Transition Team - Iraq, NCIS supported the                      the Southeastern District of Louisiana.
   intelligence transition team at the Iraqi National         •	   Conducted criminal investigations and analyzed
   Information and Investigation Agency. Transition                evidence on non-U.S. suspects for prosecution by
   Team accomplishments include:                                   the Central Criminal Court of Iraq in support of the
•	 Provided guidance and training to the MNF-I Law and             USMC Joint Prosecution and Exploitation Center.
   Order Task Force Baghdad improving the detention                Specifically:
   hearing process and “speeding up” the criminal             •	   Produced 94 prosecution packages for the CCCI
   justice system. The process produced an immediate               against insurgents and Al Qaeda members;
   30 percent drop in the inmate population at the NIIA       •	   Referred 18 detainees to the CCCI for prosecution;
   Counterterrorism Detention Cell; Also, NCIS is the              they are pending trial;
   Acting Program Manager for the “Gryphon” Project           •	   Conducted 14 site exploitation missions in hostile
   that utilizes lessons learned from fighting terrorism in        zones to collect evidence and intelligence;
   Northern Ireland and other countries with indigenous       •	   Reviewed/assessed 329 detainee packages for
   terrorist problems. This project is being conducted             presentation to the Iraqi courts for prosecution.
   throughout Iraq and will play a significant role in the    •	   Provided 13 training courses for Iraqi police and
   continuing effort to defeat terrorism in Iraq.                  judges.
•	 Provided criminal investigative and counterintelligence    •	   Provided CI/Human Intelligence support to the
   support for the I/II Marine Expeditionary Forces –              Naval Expeditionary Combatant Command, Iraq for
   Iraq, which resulted in developing counterintelligence          Navy Riverine Squadrons One and Two operations in
   collection operations for the I/II MEF staff that               theater.
   enabled three threat-specific initiatives. These           •	   Conducted 16 site exploitation missions to collect
   initiatives resulted in mitigating foreign intelligence         evidence on insurgent and terrorist activities and to
   and security service attempts to gain access to MNF-I           recover weapons caches;
   facilities.                                                •	   Trained Iraqi Army and police officers on evidence
•	 Provided criminal investigative and counterintelligence         collection.
   support for the USMC Joint Prosecution and                 •	   Provided counterintelligence support to the Unified
   Exploitation Center, Iraq, which resulted in the                and Specified commands as part of the MNF
   following:                                                      Strategic Counterintelligence Directorate. Provided
•	 Initiated 94 investigations, closed 98 cases, produced          cyber forensic support to eight counterintelligence
   eight criminal intelligence reports, and recruited              operations targeting the Taliban and other insurgents;
   11 criminal sources. The investigations included                one unilateral operation exploited over 1000 pieces
   death, bribery, narcotics, counterfeiting, and stolen           of media.
   government property;                                       •	   Provided polygraph examiners as support to Special
•	 Performed 20 criminal investigative missions in hostile         Operations Forces in Iraq and Afghanistan and the
   areas outside secure USMC facilities.                           Operation Iraqi Freedom/government of Iraq vetting
•	 Developed criminal intelligence that enabled                    team in Baghdad.
   undercover narcotics suppression operations to             •	   Provided CI/HUMINT and force protection
   identify military and civilian contractor as suspects;          support to the CJTF HOA. Produced 79 intelligence
•	 Investigated the assault and kidnapping of third country        reports and employed numerous sources who
   nationals by three U.S. contractors and a USMC                  provided intelligence on foreign intelligence service
   military policeman. Identified and apprehended the              activity, piracy, and terrorist activity in the Horn of
   subjects who each, during interrogation, admitted               Africa. Also provided force protection and criminal
   culpability. The subjects were escorted to Baghdad for          investigative support for the commanding officer of
   their initial appearance with a U.S. Magistrate and             Camp Lemonier.
   ultimately turned over to U.S. Marshals in Kuwait.


64
                                                                                           Semiannual Report to the Congress
U.S. Navy


•	 NCIS provided intelligence and information sharing       the shaft causing critical engine failure. Sixteen Navy P-3
   analytical support to investigations and operations,     aircraft were impacted by the contractor’s action. The
   supported NCIS force protection efforts, brokered        U.S. Attorney’s Office, Northern District of Texas, and
   partnerships, and provided finished intelligence. It     the contractor reached a civil settlement in which the
   produced and published 248 Threat Assessments            contractor absorbed over $350,000 in costs to rectify
   directly to U.S. Navy and Marine Corps deployed          problems. In total, the contractor paid over $400,000, of
   assets to assist in force protection planning, and also  which nearly $69,000 went to the U.S. Navy.
   published 1792 Intelligence Information Reports and         A joint child sexual abuse investigation with the Camden
   120 Daily Threat Summary Articles.                       County Sheriffs Office, GA, revealed a USN petty officer
                                                            had engaged in indecent activities with children on Naval
                                                            Submarine Base Kings Bay, GA. The petty officer admitted
                                                            to numerous indecent acts with victims and an analysis of
                                                            his computer revealed images of child pornography. The
                                                            petty officer pled guilty to 13 counts of child molestation
                                                            and was sentenced to 100 years in prison and awarded
                                                            an other than honorable discharge. His wife pled guilty
                                                            to two counts of child molestation and was sentenced
                                                            to a mandatory five years in prison followed by 15 years
                                                            probation.
                                                                 A joint homicide investigation with the Jacksonville
                                                            Sheriff’s Office, Jacksonville, FL, implicated a civilian
                                                            male in the shooting death of a USN enlisted sailor.
                                                            Investigation revealed the victim was in the process of
                                                            terminating a relationship with a civilian female at the
                                                            time of his death and that he had been threatened by a
                                                            friend of the female shortly before the shooting. Interviews
                                                            led to the identification of the civilian suspect who was
                                                            arrested in September 2008 for the murder. He is pending
    NCIS served as the Law Enforcement Advisor to
    Combined Task Force 151, a multi-national task force    trial.
    conducting counterpiracy operations to detect and deter        An investigation at the Naval Air Station, Patuxent
    piracy in and around the Gulf of Aden, Arabian Gulf,    River, MD, revealed improper asbestos abatement
    Indian Ocean and Red Sea.                               procedures used by two companies. One company was
                                                            awarded the demolition contract based on its status as
                                                            an 8(A) minority-owned, small, disadvantaged business.
                                                            The investigation determined that both companies are
                                                            minority-owned in name only, but not financially or
                                                            operationally. Interviews with company employees and
NCIS Significant Case Narratives -                          subcontractors, as well as document reviews, revealed
Non-OEF/OIF                                                 improper business conduct with government employees
Conducted a joint NCIS/DCIS investigation with support and subcontractors including bid-rigging, bribes/
from the DCMA that revealed allegations that a DoD kickbacks/gratuities, mail fraud, wire fraud, money
contractor failed to perform critical tasks on U.S. Navy laundering, and structuring. Individuals were sentenced
P-3 aircraft specified under three U.S. Navy contracts. to a total of nearly 23 months of incarceration, and the
The contractor falsified inspection records associated with court ordered payment of $895,000, with $595,000 in
required manual propeller rotations on the engine. Failure fines and $300,000 in restitution.
to perform the rotations could have resulted in cracks in



                                                                                                                     65
October 1, 2008 to March 31, 2009
                                                                                 Other DoD Oversight


       A joint undercover narcotics trafficking operation                Support and Personnel Audits Directorate,
with NCIS, Bureau of Alcohol Tobacco, Firearms, and            headquartered at Brooks City-Base TX, directs audits
Explosives and the San Diego, CA, Police Department,           related to operational support, personnel, training,
targeted the sale of methamphetamine, cocaine, oxycontin,      engineering support, support services, environmental
and marijuana in off-base Navy housing communities.            issues, intelligence operations, and health care. AFAA/SP
Approximately eighty undercover narcotics purchases            also manages the Support and Personnel Audits Region
were made leading to the arrest of 45 individuals,             located at Brooks City-Base TX with five area audit offices
including two active duty military members and one DoD         at 14 Air Force installations and 6 additional operating
civilian employee, for military and state violations of drug   locations.
trafficking. Approximately $55,000 worth of illegal drugs,            Acquisition and Logistics Audits Directorate,
three handguns, and $5,600 in cash were seized.                headquartered at Wright-Patterson AFB OH, directs
      A double homicide investigation jointly conducted        audits related to procurement, maintenance, supply,
with the Riverside County, CA, Sheriff’s Department            transportation, and weapon systems acquisition. AFAA/
led to the identification of four Marines in the murder        QL also manages the Acquisition and Logistics Audits
of a Marine and his wife in their off-base residence. The      Region located at Wright-Patterson AFB OH with five
victims were bound and shot to death. Search warrants          area audit offices at five Air Force installations and two
served on and off-base surfaced evidence implicating each      additional operating locations.
of the Marines, and during interrogation all four Marines           In the last six months, audit efforts were focused in
were implicated in the murders. The suspects were arrested     key management challenge areas: Joint War Fighting and
and are awaiting trial in Riverside County.                    Readiness, Information Security and Privacy; Acquisition
                                                               Processes and Contract Management; Financial
                                                               Management; and Health Care. These efforts have
Air Force                                                      resulted in more than $2.1 billion in potential monetary
                                                               benefits.
Air Force Audit Agency                                            Following are examples of audit coverage performed by
                                                               the Air Force Audit Agency related to the following DoD
The Air Force Audit Agency provides all levels of Air Force Management Challenge areas:
management with independent, objective, and quality
audit services by reviewing and promoting the economy, Joint Warfighting and Readiness
effectiveness, and efficiency of operations; evaluating
programs and activities and assisting management in Theater Deployable Communications Program
achieving intended results; and assessing and improving Management: Theater Deployable Communications
Air Force fiduciary stewardship and accuracy of financial is a ground-to-ground communications system
reporting. Organized into three line directorates, the designed to transmit and receive voice, data, and video
AFAA conducts centrally directed audits in 12 functional communications securely in deployed environments.
areas that provide support to Air Force senior leaders. The Using commercial off-the-shelf equipment, theater
Agency also has audit teams at over 50 locations providing deployable communications provides transmission
audit services to installation commanders.                     from deployed locations to the continental United
           Financial and Systems Audits Directorate, States and supported combatant command, local line of
headquartered at March ARB CA, directs audits related sight transmission, and secure and non-secure network
to financial management, financial support, information connectivity. The program office utilizes contractor
systems development, communications systems, and logistics support for spare part management and repair.
system security. AFAA/FS also manages the Financial and Since 1997, the Air Force fielded over 200 satellite
Systems Audits Region located at March ARB CA with terminals and 20,000 modules and invested over $1
five area audit offices at 19 Air Force installations and five billion to provide a communications computer and phone
operating locations.                                           network to deployed units worldwide. The audit disclosed


66
                                                                                          Semiannual Report to the Congress
U.S. Air Force


Air Force personnel could improve theater deployable allow the Air Force to use more than $1.5 billion over
communications program management. Specifically, the the 6-year Future Years Defense Program for other flying
Theater Deployable Communications Program Office did training or war effort requirements.
not effectively implement configuration management or
provide necessary technical documentation.
     Additionally, the program office did not accurately
compute equipment spares requirements. As a result,
spares requirements may be overstated and funds
expended for excess quantities of equipment that could
become obsolete before being used.
      Lastly, the Theater Deployable Communications
Program Office did not have an effective contract property
management system. As a result, the government did
not have reasonable assurance that over $37 million
in theater deployable communications spares and
equipment purchased since program inception had proper
accountability, maintenance, and safeguards.

Unmanned Aerial System Pilot Force Management:
The MQ-1 Predator and MQ-9 Reaper Unmanned Aerial
Systems are medium-altitude, long-endurance, remotely                The Air Force Audit Service conducted an audit on
piloted aircraft. The MQ-1 provides interdiction and                  unmanned aerial system pilot force management.
armed reconnaissance against critical, perishable targets
and the MQ-9 serves as a persistent hunter-killer of
emerging targets. Both aircraft fly combat air patrols, a      United States Air Forces Central War Reserve Materiel:
tactical pattern around or screening a defended target while   War reserve materiel assets are acquired, positioned, and
looking for incoming attackers. Air Combat Command is          maintained to meet the Secretary of Defense Strategic
responsible for training unmanned aerial system pilots at      Planning Guidance objectives. As such, war reserve
Creech AFB Nevada. In FY 2008, Air Combat Command              materiel assets support wartime activities reflected in the
officials allocated over 14,000 flying hours for unmanned      Air Force War and Mobilization Plan for requirements
aerial system graduate pilot training.                         over and above primary operating stocks and deployed
       This audit concluded Air Force planners did not         equipment. As of November 2007, United States Air
develop an effective long-term strategy to manage the          Forces Central personnel maintained 115,000 war reserve
unmanned aerial system pilot force. Specifically, officials    materiel equipment and vehicle authorizations totaling
did not establish a sustainable unmanned aerial system-        $1.7 billion, as well as an additional operating stock of
specific career path to meet increasing unmanned aerial        43,000 equipment items and vehicles on hand valued
system requirements or efficiently train unmanned aerial       at almost $1 billion. This audit concluded Air Force
system pilots.                                                 personnel could improve war reserve materiel management.
      Instead, officials used experienced pilots from other    Specifically, United States Air Forces Central personnel
weapon systems on temporary assignments to meet                used war reserve materiel for appropriate purposes;
unmanned aerial system pilot requirements and provided         however, personnel overstated war reserve materiel
unmanned aerial system pilots advanced flying training in      requirements by more than 17,000 assets totaling $240.4
other weapon systems not required to operate unmanned          million, and misstated associated asset authorizations by
aerial systems aircraft.                                       more than 34,000 items valued at nearly $600 million.
    Further, developing a unmanned aerial system-specific      As a result, United States Air Forces Central officials did
career path and eliminating unnecessary training will          not identify and cancel unnecessary war reserve materiel



                                                                                                                         67
October 1, 2008 to March 31, 2009
                                                                                    Other DoD Oversight


buy requirements totaling over $155 million, or identify         document all permanent modifications, updates, and
and fill 3,800 unfilled critical equipment authorizations.       retrofit changes to the Combat Information System
Additionally, an inventory of 294 line items (9,159              architecture and baseline configurations. The time
equipment, vehicle, and consumable assets) identified            compliance technical orders provide instructions including
more than 55 line items (1,831 assets) not on custodial          time lines for modifying the systems, initiating special “one
records and 53 line items (429 assets) missing, with an          time” inspections, or imposing temporary restrictions on
overall accountability error rate of 37 percent. Although        systems. As of February 1, 2008, personnel released 109
we did not identify fraud, inadequate inventory controls         active time compliance technical orders with compliance
increased the risk for undetected lost assets or fraud, waste,   dates between January 2006 and January 2008. The audit
and abuse for $1 billion in assets.                              determined the Air Force did not effectively mitigate
                                                                 security vulnerabilities in Combat Information Transport
Pallets: Pallets are crucial components of the airlift           System equipment.           Specifically, Program Office
portion of the Defense Transportation System. System             personnel did not issue time compliance technical order
463L pallets maximize available airlift capability and           security updates in a timely manner, and effectively track
reduce aircraft ground time by allowing for load build-          time compliance technical order compliance, but did not
up prior to aircraft arrival during routine operations.          report non-compliant major commands and installations
Pallet availability at the right place and time can be           to Air Force Network Operations for enforcement action.
the determining factor in a mission’s success or failure         The Federal Information Security Management Act, as
during contingencies. During FY 2007, Air Mobility               codified in Title III of the E Government Act of 2002,
Command reported 179,000 pallet authorizations, valued           Public Law 107-347, requires that each chief information
at approximately $230 million. The audit disclosed Air           officer report material weaknesses in policies, procedures,
Force logistics managers could more effectively manage           or practices annually to the Office of Management and
pallets. Specifically, logistics managers did not compute        Budget. In our opinion, the material weaknesses identified
accurate requirements for either buy or repair of pallets.       meet the requirement for establishing an Air Force Plan of
To illustrate, program management personnel overstated           Action and Milestones.
buy and repair requirements by approximately 224,000
and 93,000 pallets, respectively. Reducing pallet buy and        Acquisition Processes and Contract
repair requirements would allow the Air Force to put $384        Management
million to better use. Additionally, installation pallet
managers did not identify accurate requirements, record
                                                     Air Force Contract Augmentation Program Execution:
correct pallet inventories, timely submit pallet revalidation
                                                     The Air Force Contract Augmentation Program allows the
letters, and properly report pallet activity. Finally, pallet
                                                     Air Force to expedite the acquisition process and quickly
managers did not track pallet recovery, and personnel at 8
                                                     provide contractor support during contingencies and
of 23 installations used pallets for unauthorized purposes.
                                                     military operations other than war. The augmentation
Utilizing pallets for unauthorized uses resulted in 730
                                                     program contract capabilities are generally aligned with
pallets valued at over $930,000 which were not available
                                                     Air Force combat service support furnished by civil
for the mission.                                     engineer, logistics, and services personnel to include
                                                     construction, professional engineering, power production,
Information Security and                             physical plant, fire protection, and lodging management.
Privacy                                              As of June 14, 2008, the Air Force had awarded 112
                                                     task orders valued at $446 million to the six Air Force
Combat Information Transport System Technical Contract Augmentation Program III contractors. This
Order Compliance Process: The Combat Information audit disclosed management of the Air Force Contract
Transport System is a $4.7 billion Air Force program Augmentation Program was generally effective. Air
to modernize worldwide fixed base communications Force personnel properly reviewed and approved task
infrastructure. Time Compliance Technical Orders orders and effectively implemented Air Force Contract


68
                                                                                              Semiannual Report to the Congress
U.S. Air Force


Augmentation Program Post Award Management Plan.                equipment or processes. When acquisition program
Although personnel appropriately accounted for and              officials approve a value engineering change proposal,
monitored the Air Force Contract Augmentation Program           the government funds development and implementation
funds, Program Office personnel improperly assessed Air         costs and shares the resulting savings with the contractor.
Force and Army customers a 2.5 percent service fee. As a        The audit concluded Air Force personnel at the product
result, during FY 2005 through FY 2008, customers paid          and air logistics centers could improve implementation
nearly $8 million in service fees that were not authorized      and administration of the value engineering program for
and appropriate which could result in an Anti-Deficiency        Air Force weapon systems. Specifically, personnel did not
Act violation.                                                  effectively implement and maintain a value engineering
                                                                program and did not track and report value engineering
A-10 Wing Replacement Program: The primary mission              savings. While we did not find evidence the Air Force had
of the A-10 is to provide day and night close air combat        implemented other cost savings initiatives in lieu of value
support and to act as forward air controller in support of      engineering on the contracts we reviewed, we are aware
land forces. The original A-10 aircraft design included thin-   that program managers have implemented producibility
skin wings and a service life of 8,000 hours. Beginning in      improvement programs, reliability and maintainability
1981, A-10 production changed to thick-skin wing panels         programs, and other programs designed to reduce costs
to compensate for cracking in the thin-skin wing panels.        on large weapon system contracts. However, without an
A-10 production ended in 1986 and currently 114 of              effective value engineering program, the Air Force may
356 aircraft in inventory have thick-skin wings, while the      be losing opportunities for reducing weapon systems’ life
remaining 242 aircraft have a combination of thick- and         cycle costs or improving quality.
thin-skin wing panels. The A-10 Program Management
Directive authorized actions to increase the aircraft service   Financial Management
life to 16,000 hours which will keep the A-10 in the Air
Force inventory until 2028. The A-10 Wing Replacement    Air Force Smart Operation for the 21st Century: In
Program will produce new wings for the remaining 242     November 2005, the Secretary and the Chief of Staff
aircraft through an indefinite-delivery indefinite-quantity,
                                                         directed Air Force organizations to implement and
firm-fixed-price contract. The A-10 Wing Replacement     institutionalize strategic continuous process improvement
Program is expected to cost approximately $1.2 billion.  initiatives. The Air Force implementation of this
The audit concluded management of the A-10 Wing          initiative is called Air Force Smart Operations for the 21st
Replacement Program was generally effective. Specifically,
                                                         Century. The initiative empowers airmen participation
Program Office personnel documented decision processes   in maximizing value and minimizing waste and applies to
and followed acquisition guidelines for planning this    all processes associated with the Air Force mission. The
sustainment effort. However, the A-10 Systems Program    principles and tools provide Air Force members the day-
Office did not have an effective risk management process to-day operating style needed to integrate continuous
to capture and report all program risks. As a result,    improvement into all facets of Air Force operations.
unexpected increases in program cost or schedule delays  As of May 2008, Air Force organizations reported 980
that lead to grounded aircraft could occur.              active and 5,134 completed projects to DoD. The audit
                                                         disclosed program personnel realized continued progress
Air Force Value Engineering Program:              Value in implementing the program; however, we noted several
Engineering is a management tool that promotes areas where management action is needed to ensure the
reduction of contract program and acquisition costs program realizes its objective. Specifically, management
while improving productivity and quality. Contracts that officials must take action to: report all events in the
include a value engineering clause allow contractors to Continuous Process Improvement-Management Tool; use
develop, prepare, and submit value engineering change the Financial Reporting Template; effectively staff major
proposals. These change proposals identify opportunities commands and installations with certified personnel;
to reduce future costs through investment in new effectively implement processes to sustain efficiencies; and



                                                                                                                        69
October 1, 2008 to March 31, 2009
                                                                               Other DoD Oversight


establish an Air Force-wide framework to disseminate best    environmental cleanup activities at former Air Force
practices throughout the Air Force, and; maintain audit      installations closed or realigned under the Base Closure and
trails and supporting documentation for data. As a result,   Realignment Act of 1988 and the Defense Base Closure
events with estimated cost savings/avoidance of over $650    and Realignment Act of 1990. In FY 2006, Air Force
million was not supported, and therefore, could not be       Real Property Agency personnel changed from site specific
validated.                                                   to project specific management of base realignment and
                                                             closure environmental liabilities. The change provided
Depot Maintenance Labor Standards:                  Depot    personnel oversight of base realignment and closure
maintenance direct labor standards describe the time         environmental liabilities and established annual reviews
it should take a trained worker, working at a normal         of environmental projects for valid requirements, support
pace, to produce a set unit of work that conforms to         documentation, and financial record accuracy. The Air
technical requirements and standard methods under            Force provides details of Base Realignment and Closure
specific working conditions. Depot labor standards serve     fund environmental liabilities in the financial statements,
as a basis for a work measurement program to oversee         Note 14, Environmental Liabilities and Disposal
the effectiveness and efficiency of depot maintenance        Liabilities. For FY 2007, the Air Force reported $1.4
operations. Air Logistics Center personnel also use labor    billion in Base Realignment and Closure environmental
standards to define and cost specific workload and to        liabilities. The audit disclosed Air Force Real Property
develop the Depot Maintenance Activity Group labor           Agency personnel correctly recorded and properly
budget. The FY 2007 Depot Maintenance Activity               supported Base Realignment and Closure environmental
Group budget estimated depot labor costs for Air Force       liabilities reported in FY 2007 financial records.
organic customer exchangeable asset workload totaled         Specifically, personnel correctly recorded and properly
approximately $363 million (9 million direct labor hours).   supported environmental liabilities, including noncurrent
The audit concluded Air Force personnel could improve        liabilities related to undelivered orders outstanding
the accuracy of labor standards used to plan exchangeable    and accrued expenditures unpaid, reported in FY 2007
asset repair and overhaul requirements. Specifically,        financial records, and reported noncurrent environmental
depot maintenance planners did not always develop and        liabilities to Defense Finance and Accounting Service for
maintain accurate labor standards for 364 (69.5 percent)     inclusion in the FY 2007 financial statements. Although
of 524 operations reviewed. As a result, Air Logistics       Air Force Real Property Agency managers inadvertently
Center officials overstated the FY 2007 anticipated direct   reported the noncurrent environmental liability amount
labor expenditures by approximately $6.7 million and         as $149.4 million instead of the correct amount of $149.8
understated the expenditures over $1.4 million resulting     million, the difference was immaterial.
in a net overstatement of approximately $5.3 million.
Correcting this condition would more accurately reflect      Health Care
anticipated future Depot Maintenance Activity Group
labor expenses by over $590 million for FYs 2008 throughAir Force Fitness Program: The Air Force Fitness
2013. Additionally, maintenance wing personnel did not  Program policy requires airmen to meet fitness
document labor standard reviews as required. Lastly,    standards by maintaining a healthy lifestyle and through
Air Logistics Center personnel improperly classified    participation in unit physical activity. The program goal is
production overhead tasks and personnel as direct labor.to motivate airmen to participate in physical conditioning
As a result, the logistics centers overstated anticipated
                                                        emphasizing total fitness, including aerobic conditioning,
direct labor expenses by over 1.1 million hours valued at
                                                        strength, and flexibility training. Further, in January
$43.7 million and gave the appearance that the logistics2008, the Air Force Chief of Staff and the Chief Master
centers required more direct laborers.                  Sergeant of the Air Force made fitness assessment results a
                                                        mandatory element of Airman Performance Reports. In
Base Realignment and Closure Environmental FY 2007, the Air Force spent approximately $100 million
Liabilities: The Air Force Real Property Agency manages on fitness activities, base gymnasiums, and health and


70
                                                                                         Semiannual Report to the Congress
U.S. Air Force


wellness centers to support the fitness program. The audit    system capabilities and promoting wide-spread use of a
disclosed, at the 13 locations reviewed, unit commanders      single Air Force system.
did not consistently implement the fitness program and
unit-based fitness programs did not effectively promote       Air Force Office of Special
a healthy lifestyle. Specifically, commanders did not
consistently allow individual physical fitness activity       Investigations
during duty hours, take administrative action for members
not meeting standards, adequately support exemptions, or      AFOSI Significant Case Narratives -
properly perform fitness assessments. Furthermore, unit-      OEF/OIF
based fitness programs did not effectively influence airmen   The Air Force Office of Special Investigations is combat-
to make fitness a year-round commitment. Of 321 airmen        ready military organization that provides the Air Force a
recently completing a fitness assessment, 35 percent had      wartime capability to conduct, in hostile and uncertain
a significant increase in abdominal circumference and         environments, counter-threat operations to find, fix,
weight within 60 days of the assessment.                      track, and neutralize enemy threats. It also performs as
                                                              a federal law enforcement agency with responsibility for
Environmental Resources Program Information conducting criminal investigations, counterintelligence,
Management System: The Comprehensive Environmental and specialized investigative activities, protective service
Response Compensation and Liability Act, requires the operations, and integrated force protection for the Air
Air Force to collect environmental contamination data Force.
to identify releases of hazardous substances that threaten          Successful OEF/OIF operations by Direct Action
human health or the environment and monitor restoration       Units  based on AFOSI Target Packages Military Source
progress. The Air Force developed the Environmental Operations follow: include:
Resources Program Information Management System •	 Threats Identified: 2,270 (Individuals linked to
to centrally store and manage restoration data collected          insurgent groups, terrorist groups, or intelligence
from installations. The system currently contains over            services, which represent a threat to USAF installations/
65 million contamination sampling results collected at            resources).
161 locations from 1980 to the present. The Air Force
spent $456 million in FY 2008 for environmental
restoration and an average of $1.1 million annually since
FY 1999 for system hardware, software, and personnel
to manage the system, analyze data, and operate a help
desk. This audit determined the system database did not
effectively support environmental remediation decisions.
Specifically, the system did not contain environmental
data for 89 contaminated Air Force sites, and 48 percent
of sampling data were submitted more than 90 days after
sampling was completed. Further, more than 70 percent
of environmental restoration managers did not use or rely
on system data, opting to develop and use other “ad hoc”
systems. As a result, the Air Force has no assurance that its
environmental cleanup data is adequately protected; and
cannot accomplish effective, efficient analyses or provide
timely, complete information to installations, the DoD,
the United States Environmental Protection Agency and                      An AFOSI special agent searches for a
the Congress. In addition, the Air Force expended time                       suspected Taliban weapons cache.
and funds for duplicate systems instead of enhancing



                                                                                                                        71
October 1, 2008 to March 31, 2009
                                                                                 Other DoD Oversight


•	 Target Packages: 109 (Targeting information                 •	 AFOSI at JBB obtained information related to an
    provided by AFOSI to Direct Action authorities                attempted assassination of a high ranking member
    Army, SOF, Coalition Forces, Host Nation Police/              of the Iraqi Parliament and a second person targeted
    Army, etc … for exploitation).                                for assassination. The information was provided to
•	 Captured/Neutralized: 203 (Individuals captured/               security personnel who prevented the assassinations.
    neutralized by Direct Action Units based on AFOSI             In another instance, AFOSI obtained critical source
    Target Packages).                                             information leading to a complex air assault operation
	        -13 were known high value targets	                       that resulted in the capture of a six-man al-Qaeda
	        -4 were identified as al Qaeda in Iraq                   in Iraq weapons trafficking and smuggling cell.
	        -30 were known Taliban Insurgents                        Numerous illegal weapons and hundreds of rounds of
•	 Weapons Caches: Fifteen different weapons caches               ammunition were seized during the operation.
    were actioned and netted approximately four tons           •	 AFOSI at Al Udeid, Qatar, launched an inquiry into
    of weapons and explosives to include IEDs, hand               the recovery of stacks of detailed building plans for
    grenades, projectile grenades, a suicide vest, detonator      multiple sensitive facilities found in a third country
    cord, TNT, blasting caps and anti-personnel mines.            national’s worksite. The inquiry led to identifying
•	 Narcotics Caches: AFOSI direct CI-Source reporting             and ultimately mitigating numerous vulnerabilities,
    and targeting led to the discovery and destruction of         especially in the handling and searching of third
    over of 82,000 pounds of hashish.                             country nationals. It also disclosed gaps in the
Threats detected but not linked to a specific Military            contracts’ security clauses which were requiring lower
Source Operations follow:                                         operations security and security requirements for
•	 Threats Identified: 40                                         vendors than those imposed on the installation for
•	 Target Packages: 2                                             which the buildings were being constructed.
•	 Captured/Neutralized: 5                                     •	 Existing and new contracts are being modified to ensure
Significant AFOSI cases are described below.                      these requirements are contractually enforceable. The
•	 At Joint Base Balad, Iraq, on November 1, 2007,                lessons learned from this inquiry have the potential
    three AFOSI special agents were killed when an IED            to alter contracting methodologies for all deployed
    detonated under their vehicle. At the time of the             locations.
    incident, the agents were enroute off-base to meet with    •	 At Kirkuk Regional Air Base, AFOSI identified and
    an AFOSI source. Subsequent to the attack, extensive          captured insurgent cell members following a rocket
    investigative efforts led to the source’s confession to       attack that killed two and wounded seven individuals
    his involvement in arranging the attack. Between              on KRAB. Working with local Iraqi police and Iraqi
    November 2007 and October 2008, the source                    Army personnel, AFOSI aided in the arrest of 23
    identified several insurgents reportedly involved in          insurgents and neutralized rockets and IEDs during
    carrying out the ambush. To date, six insurgents have         a raid in the vicinity of KRAB. In January 2009,
    been apprehended.                                             agents conducted a raid with Iraqi police resulting
•	 JBB command authorities rely heavily on AFOSI to               in the arrest of a known al-Qaeda in Iraq member
    help identify and defeat enemy networks operating in          wanted for IED attacks against U.S., coalition, and
    the area of JBB. In one instance, AFOSI obtained the          Iraqi forces.
    first post-Security Agreement warrants, leading to the     •	 In Saudi Arabia, AFOSI’s extensive source network
    detention of over 10 terrorists wanted by Iraqi Police.       led to the identification of a terrorist plan to attack
    In another instance, AFOSI at JBB worked with other           a named compound housing DoD contractors, U.S.
    in-country AFOSI agents to develop a target package           civilians, and numerous citizens from other western
    for the second “most wanted” terrorist sought by the          countries. No other U.S. or western agency had
    local Iraqi police. The operation resulted in the arrest      uncovered the information on the threat. This was the
    of the individual, as well as the capture of another          first exposed late-cycle operational planning towards
    individual sought by the police for involvement in            western targets in Saudi Arabia since 2006.
    terrorist activities.

72
                                                                                          Semiannual Report to the Congress
U.S. Air Force


•	 In Afghanistan, AFOSI published 192 Intelligence    the computer in his personal possession outside of the
   Information Reports responsive to theater and       CDC facility where he worked. Investigation disclosed
   national level collection requirements. Several of  the contractor was issued an unclassified laptop computer,
   these products contributed to the capture or killingbut due to repeated security incidents of computer misuse,
   of 52 Anti-Coalition Force members and significantlythe CDC seized the computer. Analysis of the laptop
   contributed to maintaining a high level of security in
                                                       revealed 42 documents classified at various levels, some as
   the area of Kandahar Airfield. In addition, AFOSI,  high as “TOP SECRET/SCI” and special access program
   U.S. Special Forces, the U.S. Drug Enforcement      material, were stored on the computer. Further computer
   Administration, and Afghan National Army            forensic analysis uncovered the contractor employee’s
   Commandos raided a compound and seized over 40      off-shore banking correspondence and association with
   tons of hashish. Discovered documents linked the    a London-based “chat room.” During the course of the
   hashish to a senior Taliban Commander. The seizure, investigation, investigators determined the contractor
   with an estimated value of $400 million, is creditedemployee retained thousands of classified documents on
   with diminishing a significant source of Taliban    various pieces of media and took steps to conceal these
   funding. The operation received international media media devices from the U.S. government. In addition, he
   attention.                                          backed-up the information from the laptop to removable
•	 At Manas Air Base, Kyrgyzstan, AFOSI teamed with    media. When confronted with the evidence, the
   Air Force Security Forces investigators to identify contractor employee admitted to mishandling classified
   tens of thousands of dollars in thefts from a U.S.  information; however, he claimed he never provided
   contractor dining facility. The stolen food items were
                                                       classified information to any foreign government and
   taken by host nation employees and sold on the open only took the classified information home to work on
   market in Bishkek. Those responsible for the thefts projects. The contractor was found guilty; received three
   were identified and fired.                          years probation, and a $25,000 fine. Additionally, his
•	 AFOSI activities at Ali Air Base enabled a successful
                                                       personal computers are subject to FBI monitoring during
                                                       the term of his probation, he cannot possess or apply for a
   raid against a high value target with direct ties to a
                                                       U.S. passport during probation, and he can be debriefed
   Shi’a extremist insurgent leader in northern Iraq. The
                                                       by investigative agencies at anytime.
   entire operation, from initial collection to capture,
   took three days and also netted the extremist’s brother,     A joint AFOSI and Army CID involuntary
   wanted by a Task Force in Baghdad for assassination manslaughter investigation disclosed an Air Force non-
   and IED operations.                                 commissioned officer and nine civilians and active duty
•	 AFOSI acquired information at Sather Air Base,      members participated in an assault of a U.S. Army
   Baghdad that was used to identify a previously      member that resulted in that member’s death. The assault
   unknown Zarqawi’s Al-Qaeda in Iraq cell within threewas determined to be a gang initiation and the victim later
   kilometers of Camp Victory. This cell is believed todied in his barracks room as a result of injuries received
   be responsible for multiple IED placements targeted during the assault. The NCO was tried and convicted
                                                       of involuntary manslaughter and sentenced to two years
   against Coalition Forces, four within a ten-day period.
   A large weapons cache consisting of over 700 items  confinement and a dishonorable discharge.
   including deadly RKG-3EM grenades were located               A joint child sexual assault investigation with the
   and neutralized.                                    Perry Police Department, Perry, GA, disclosed a NCO
                                                       sexually assaulted nine children at Pope AFB, NC, and
AFOSI Significant Case Narratives - Perry, GA. The investigation determined the NCO raped,
Non-OEF/OIF                                            sodomized, and sexually assaulted the children. Additional
A joint AFOSI and FBI investigation determined a DoD investigation and computer forensic analysis uncovered
contractor employee had numerous highly classified more than 10,000 files and images of confirmed child
documents stored on his unclassified cleared defense pornography and an additional 37,946 images and 131
contractor issued laptop computer. The contractor kept videos of suspected child pornography. The NCO was



                                                                                                                73
October 1, 2008 to March 31, 2009
                                                                            Other DoD Oversight


tried and convicted of rape and indecent assault of a child
under 16, forfeited all pay and allowances, dishonorably
discharged from the Air Force, and confined for life. As
part of the NCO’s plea agreement, his incarceration was
capped at 60 years.
    A joint AFOSI and FBI investigation of an Air Force
contractor and two subcontractors disclosed they violated
numerous provisions of the International Traffic in Arms
Act and the Arms Export Control Act. Investigation
disclosed the contractors knowingly took steps to
circumvent technology transfer restrictions and export
control procedures.
      While performing work on an Air Force Research
Laboratory/Munitions Directorate Contracting Division
contract to augment UAV flight performance using non-
thermal plasma actuators, the contractors were required to
obtain an export license before assigning any foreign source
to perform work under the contract or before granting          AFOSI special agents conducting a raid (above) and a
access of foreign persons to any equipment and technical        AFOSI special agent with Iraqi children (below).
data. Investigators determined that the contractors
knowingly took steps to circumvent technology transfer
restrictions and export control procedures.
    Through a separate contract, the contractors allowed
a third contractor to use a piece of export-controlled
equipment, obtained for the original contract, on a
USAF Academy contract, failed to notify the USAFA
the equipment was “export-controlled”, and allowed
approximately twelve foreign USAFA cadets and one
foreign instructor to view the equipment. All three
contractors were found guilty of violating ITAR and Arms
Export Control Act provisions and will be sentenced in
future court proceedings.




74
                                                                                       Semiannual Report to the Congress
Congressional Briefings
& Testimony
Working with Congress

Section 4(a) of the Inspector General Act requires the         concerns. He also discussed the historical context and
Inspector General “to review existing and proposed             issues the government has faced regarding contracting for
legislation and regulations relating to the programs and       goods and services and highlighted that because of the
operations of [the Department of Defense]” and to              magnitude of the DoDs purchasing power and the global
make recommendations “concerning the impact of such            presence of its personnel and resources, the Department
legislation or regulations on the economy and efficiency       still faces particular challenges regarding fair and reasonable
in the administration of programs and operations               pricing, contract oversight and administration, and the
administered or financed by [the Department] or the            dangers of outsourcing functions which are inherently
prevention and detection of fraud and abuse in such            governmental.
programs and operations.” The DoD IG is given the
opportunity to provide information to Congress by
participating in congressional hearings and briefings.
During this reporting period, the DoD IG testified
three times before Congress or congressionally mandated
commissions.
      On February 26, 2009, the Honorable Gordon S.
Heddell, Acting Inspector General, Department of
Defense, testified before the House Appropriations
Committee, Subcommittee on Defense regarding
“Department of Defense Outsourcing.” Also testifying
at the hearing were Mr. Thomas F. Gimble, Principal
Deputy Inspector General Department of Defense; Ms.
Mary L. Ugone, Deputy Inspector General for Audit;
                                                                 Department of Defense Acting Inspector General Gordon
and Mr. Charles W. Beardall, Deputy Inspector General            S. Heddell testifies before the U.S. House of Representatives
for Investigations. During his testimony, Mr. Heddell            Committee on Appropriations Defense Subcommittee on
emphasized that the Department of Defense Office of the          “Department of Defense Outsourcing.”
Inspector General has been and continues to be a strong
supporter of improving acquisition and contracting
processes. Additionally, the IG wants to ensure that
the Department and America’s warfighters are provided
materiel and services that are safe, superior in performance
and quality, sufficient in quantity, and within the time
frames needed by the warfighter while balancing taxpayer




76
                                                                                             Semiannual
                                                                                              SemiannualReport
                                                                                                         Reporttotothe
                                                                                                                    theCongress
                                                                                                                        Congress
On February 12, 2009, Mr. Thomas F. Gimble,
Principal Deputy Inspector General Department
of Defense, testified before the House Committee
on Oversight and Government Reform
Subcommittee on National Security and Foreign
Affairs regarding the “DoD IG Assessment of
Arms, Ammunition, and Explosives Control
and Accountability; Security Assistance; and
Sustainment for the Afghan National Security
Forces.” In addition to detailing the findings and
recommendations in the IG report, Mr. Gimble
also discussed lessons learned in Iraq that can and
should be applied to Afghanistan. Additionally,
the subcommittee was informed that the Special
Plans and Operations division was planning to         Department of Defense Principal Deputy Inspector General Thomas
send another assessment team to Afghanistan in        F. Gimble testifies before the House Committee on Oversight
                                                      and Government Reform Subcommittee on National Security and
March 2009, to determine the status of corrective     Foreign Affairs on the “DoD IG Assessment of Arms, Ammunition,
actions being implemented as a result of the          and Explosives Control and Accountability; Security Assistance; and
recommendations in our October 2008 report.           Sustainment for the Afghan National Security Forces.”
Mr. Gimble also gave a brief overview of other
oversight initiatives within the DoD IG related
to the Department’s ongoing efforts in Southwest
Asia.




                                                                                                                      77
October 1, 2008 to March 31, 2009
On February 2, 2009, Mr. Thomas F. Gimble, Principal           Joint Planning Group, the Comprehensive Audit Plan for
Deputy Inspector General Department of Defense,                Southwest Asia, and our coordinated investigative efforts
testified before the Commission on Wartime Contracting         through the Joint Operations Center and the International
in Iraq and Afghanistan regarding “Lessons from the            Contract Corruption Task Force. Mr. Gimble testified
Inspectors General: Improving Wartime Contracting.”            that issues specific to contracting in a war zone, which
Ms. Mary L. Ugone, Deputy Inspector General for Audit          have resulted in enhanced potential for fraud, waste, and
and Mr. Charles W. Beardall, Deputy Inspector General          abuse included inexperienced and insufficient contracting
for Investigations also testified at the hearing. Mr. Gimble   personnel, lack of adequate oversight, and a predominance
discussed historical trends in contingency contracting,        of crimes involving military members. He finished his
the importance of coordination between oversight               statement by informing the Commission that property
organizations, observations pertaining to contracting in a     and cash accountability, oversight of the Commanders’
war zone, lessons learned, and areas that continue to need     Emergency Response Program, and controls over common
attention. Mr. Gimble provided details related to our          access cards areas requiring increased attention.
ongoing coordination efforts to include the Southwest Asia




                                                                  Office of
                                                                  Communications and
                                                                  Congressional Liaison
                                                                  Congressional Requests
                                                                  and Briefings

                                                                  The Office of Communications and Congressional
                                                                  Liaison supports the DoD IG by serving as the contact
                                                                  for communications to and from Congress, and by
                                                                  serving as the DoD IG public affairs office.
                                                                      From October 1, 2008 though March 31, 2009,
                                                                  OCCL received 107 new congressional inquiries and
                                                                  closed 117 cases. New inquiries involved issues such as
                                                                  electrical safety in Iraq and a request from the Senate
                                                                  Armed Services Committee to review concerns with
                                                                  the Logistics Civil Augmentation Program contract.
      Department of Defense Acting Inspector General              In addition, 39 meetings were held with members of
      Gordon S. Heddell meets with Representative James P.        Congress and/or their staff on issues such as IG efforts
      Moran after a hearing.                                      in Iraq and Afghanistan, body armor, electrocutions,
                                                                  reprisal investigations, and CAC cards.




78
                                                                                          Semiannual Report to the Congress
Component Overview
                        AUDIT

The Office of the Deputy Inspector General for Auditing, with over 700 auditors dispersed world-wide, promotes
the economy and efficiency of DoD operations and programs and detects and deters fraud, waste, and abuse within
the Department of Defense through audits, assessments, and other services. To accomplish our mission, we plan our
audit coverage each year to provide coverage of DoD organizations, programs, activities, and functions as an integral
part of the DoD management system, taking into consideration high-risk areas as identified by our prior audits, the
Department’s top priorities, and GAO high-risk areas.
    During the period of October 1, 2008 through March 31, 2009, we issued 66 audit reports and identified $132
million in potential monetary benefits. Additionally, we achieved $162 million in identified funds put to better use
from reports issued in previous years. Our reports addressed deficiencies and internal control weaknesses in DoD’s
business operations, military programs, national security, compliance with laws and regulations, and the effectiveness,
safety, and care of the service members. The oversight performed is derived from congressionally and management
requested projects, statutory requirements, DoD hotlines and self-initiated audits of high-risk areas such as overseas
contingency operations, financial management, contracting, health care, disaster recovery preparation and assistance,
force management, information assurance, and DoD physical security.



                                Audits Issued by Category




80
                                                                                        Semiannual Report to the Congress
                                                               Investigations

The Office of the Deputy Inspector General for Investigations is divided into two basic components, criminal and
administrative investigations.
    The Defense Criminal Investigative Service is the criminal investigative arm of the DoD IG and conducts criminal
investigations of fraud, corruption, and theft related to Department contract spending. As the chart demonstrates,
during this reporting period, nearly 62 percent of DCIS’ case inventory was in the area of contract fraud. Additionally,
the investigation closure rate was approximately 56 percent. During this reporting, DCIS investigations resulted in 183
federal criminal charges, 108 convictions, 33 suspensions, and 28 debarments. Additionally in this reporting period,
this agency recouped $1.1 billion for the U.S. government. Of these, 17 federal criminal charges, 11 convictions, 12
suspensions, and the recoupment of $40 million were the result of DCIS’ investigations of fraud, corruption, and theft
related to the Global War on Terror and the agency’s efforts in Southwest Asia.
    Administrative Investigations is comprised of three distinct directorates: Investigations of Senior Officials, Military
Reprisal Investigations, and Civilian Reprisal Investigations. Administrative Investigations promotes public trust and
confidence by independently investigating allegations of misconduct involving senior DoD officials, both civilian
and military, and protecting whistleblowers from reprisal after reporting alleged fraud, waste, and abuse within the
Department. During this period, Administrative Investigations resolved over 400 cases. Of those cases, 163 involved
allegations against a senior official. The remaining cases involved allegations of whistleblower reprisal. In approximately
17 percent of those cases, allegations were substantiated resulting in administrative or disciplinary action.



      DCIS Investigations Active and Closed by Category




                                                                                                                        81
October 1, 2008 to March 31, 2009
                Intelligence

The Office of the Deputy Inspector General for Intelligence provides oversight (audits, evaluations and inspections)
across the full spectrum of programs, policies, procedures and functions of the Intelligence Community, Special
Access Programs, Nuclear Enterprise and related security issues within the Department of Defense. The Office of
Deputy Inspector General for Intelligence is a center of excellence dedicated to enhancing the capabilities of the DoD
intelligence activities through an informed and authoritative oversight program.
   The Deputy Inspector General for Intelligence, the Defense Criminal Investigative Service, the inspectors general of
the Departments of the Army and the Air Force, Defense Intelligence Agency, National Geospatial-Intelligence Agency,
National Reconnaissance Office, and National Security Agency/Central Security Service; the Army Audit Agency; the
Naval Audit Service; the Air Force Audit Agency; the Naval Criminal Investigative Service, and the Defense Contract
Audit Agency completed 91 audits, evaluations, inspections, investigations, or special projects on intelligence-related
classified and sensitive matters throughout DoD from October 1, 2008 through March 31, 2009. The reports are
categorized into the Department of Defense management challenge areas and the Global War on Terror. A listing and
a summary of each report is included in the Classified Annex to this report.



        Intelligence Related and Other Classified Reports
     DoD Management             DoD IG          Defense Agencies Military Departments                  Total
      Challenge Area
     Joint Warfighting and
                                    0                    26                      1                       27
           Readiness
        Human Capital               0                    19                      1                       20
          Information
                                    1                    3                       2                        6
      Security and Privacy
          Acquisition
         Processes and
                                    2                    5                       5                       12
           Contract
         Management
          Financial
                                    0                    8                       3                       11
         Management
          Health Care               0                    0                       0                        0
         Significantly
      Improve Intelligence          0                    0                       0                        0
         Capabilities
     Equipping and Training
                                    0                    0                       0                        0
         ISF & ANSF
       Nuclear Enterprise           1                    0                       0                        1
             Other                  0                    4                       2                        6
         Global War on
                                    3                    0                       5                        8
            Terror
            Total                   7                    65                     19                       91




82
                                                                                        Semiannual Report to the Congress
                                                      Policy & Oversight

The Office of the Deputy Inspector General for Policy and Oversight is unique in that it has varied responsibilities
including establishing audit and investigative policy, performing oversight of DoD auditors and investigators,
performing inspections and evaluations of DoD programs, serving as liaison between DoD and GAO for all GAO work
that involves the Department, conducting follow up on DoD IG and GAO audit recommendations, and providing
engineering support to the DoD IG and other Defense and federal agencies. The Deputy Inspector General for P&O
is also responsible, per the IG Act, for coordinating all draft DoD policy issuances. The following are highlights of
work accomplished by P&O during the reporting period.
   Policy and Oversight participated in, and/or lead, various audit and investigative oversight commissions/groups such
as the DoD Procurement Fraud Working Group, the Office of Management and Budget Single Audit Roundtable,
and the DoD Sexual Assault Advisory Council. Additionally, P&O provided final corrective action on 98 reports and
392 recommendations, with $1,001 million in savings documented on DoD IG recommended actions and facilitated
the successful resolution of 2 reports with 13 disputed recommendations referred for mediation, and assisted in
obtaining responsive management comments to recommendations in 1 report. We coordinated 104 GAO reviews
and processed 147 GAO draft and final reports, as well as 198 draft DoD and federal policies. Finally, Policy and
Oversight published an article in the Defense Acquisition, Technology and Logistics Magazine on Fraud, Waste, and
Abuse, as well as launched the DoD IG “Fraud Indicators in Procurement and Other Defense Activities” Web site.
The Web site is intended to be used by DoD auditors and others to assist in detecting fraud. The Web site contains
information related to fraud guidance, statistics, and resources; and best practices for auditors.
    During the reporting period, IPO issued 134 subpoenas with an average processing time of 12.6 days, below the
15 day metric. The chart below shows the breakout of subpoena crime type for the reporting period.

                          Subpoenas Processed by Category




                                                                                                                    83
October 1, 2008 to March 31, 2009
Special Plans & Operations


The Office of Special Plans and Operations issued three assessment reports and as of March 31, 2009, had four
ongoing assessment projects. All SPO completed and ongoing projects were performed in Southwest Asia, to include
numerous locations in Afghanistan, Iraq, and Pakistan. The three completed SPO projects (Report No. SPO-2009-
001, Report No. SPO-2009-002, and Report No. SPO-2009-003) contained a total of 55 Observations and 161
recommendations in the final assessment reports issued for those projects. Those recommendations were made to
various levels of senior DoD management in the United States and Southwest Asia.
     The DoD IG established SPO in 2007 to focus on high-value, high-visibility missions, and to rapidly provide
assessments of these key issues for senior leaders. As such, SPO has provided timely, high-value assessment reports on
strategic challenges and issues, with a special emphasis on the Global War on Terror and Southwest Asia, to facilitate
informed decision-making by senior leaders of DoD, the U.S. Congress, and other government organizations.
    The completed and ongoing projects address challenges in the accountability and control of weapons, ammunition,
and other sensitive equipment items; security assistance processes that provide equipment to the security forces of
Afghanistan, Iraq, and Pakistan; train and equip missions for ISF and ANSF; and building logistics and medical
sustainment capabilities for ISF and ANSF. The issue areas evaluated are key to building and sustaining the security
forces of Iraq and Afghanistan.


                      Assessments Issued by Area of Focus

                           Iraq            Afghanistan          Pakistan            Theater              Global
Munitions
Accountability              X                   X                  X                   X
and Control
Logistics
                            X                   X
Sustainment
Military
health Care                 X                   X
Sustainment
Security
Assistance
(FMS, Coalition
                            X                   X                  X                                        X
Support Funds,
Section 1206,
etc.)




84
                                                                                       Semiannual Report to the Congress
Appendices
                                                                                                                                                        Appendices

Appendices
A. Audit, Inspection and Evaluation Reports Issued.................................................................................................................86

B. DoD IG Audit Reports Issued Containing Quantifiable Potential Monetary Benefits.........................................................95

C. Followup Activities.............................................................................................................................................................96

D. Contract Audit Reports Issued............................................................................................................................................98

E. Status of Action on Significant Post-Award Contract Audits...............................................................................................99

F. Status of DoD IG Reports More than 12 Months Old with Final Action Pending............................................................100

G. Significant Open Recommendations................................................................................................................................138

H. Acronyms........................................................................................................................................................................139



                                                                       Appendix A

                             Audit, Inspection and Evaluation Reports Issued1

Copies of reports may be obtained from the appropriate issuing office by calling:

	           DoD IG							                                                                                    Army Audit Agency
	           (703) 604-8937							                                                                            (703) 693-5679
	           http://www.dodig.mil						                                                                       http://www.hqda.army.mil/aaaweb

	           Naval Audit Service						                                                                        Air Force Audit Agency
	           (202) 433-5525							                                                                            (703) 696-7904
	           http://www.hq.navy.mil/NavalAudit				                                                            https://www.my.af.mil

							
                       Number of Reports by Management Challenge Area
                               October 1, 2008 - March 31, 2009

                                                                                                          DoD IG                       Military Depts.                    Total
Joint Warfighting and Readiness                                                                             12                               57                            69
Information Security and Privacy                                                                             3                                8                            11
Acquisition Processes/Contract Management                                                                   12                               24                            36
Financial Management                                                                                          39                                42                          81
Health Care                                                                                                    1                                 7                           8
Other                                                                                                         17                                 6                          23
 Total                                                                                                        84                               144                         228
1 Including audit reports issued by other DoD internal audit organizations.

86
                                                                                                                                        Semiannual Report to the Congress
Appendix A


                                             SPO-2009-003 Assessment of the              A-2009-0030-ALE Military
 Joint Warfighting                          Accountability of Night Vision Devices       Construction Requirements at U.S.
                                            Provided to the Iraq Security Forces         Army Garrison Vicenza (02/02/2009)
   and Readiness                            (03/17/09)
                                                                                         A-2009-0032-ALO No-Cost Economic
                                            IE-2009-003 DoD Guard & Reserves             Development Conveyance Management
             DoD IG                         Safety Survey (12/12/08)                     and Compliance - Phase II, Assistant
                                                                                         Secretary of the Army (Installations and
                                            IE-2009-001 DoD Active Duty Safety           Environment ) (12/19/2008)
                                            Survey (12/12/08)
D-2009-005 Controls over the
                                                                                         A-2009-0033-ALL Audit of the
Contractor Common Access Card Life
                                              Army Audit Agency                          Management of Shipping Containers
Cycle (10/10/08)
                                                                                         Southwest Asia – Afghanistan
                                                                                         (01/22/2009)
D-2009-007 Procurement and Use of
                                            A-2009-0015-ALR Followup Audit of
Nontactical Vehicles at Bagram Air Field,
                                            the Ammunition Supply Point, U.S.            A-2009-0034-ALR Administrative Fees
Afghanistan (10/31/08)
                                            Army Garrison, Fort Lewis, Washington        for Direct Bookings, Military Surface
                                            (11/20/2008)                                 Deployment and Distribution Command
D-2009-030 Marine Corps
                                                                                         (01/15/2009)
Implementation of the Urgent Universal
                                            A-2009-0017-ALE Residual Value
Needs Process for Mine Resistant
                                            of Real Estate in Europe, U.S. Army          A-2009-0035-ALR Customer Billing
Ambush Protected Vehicles (12/8/08)
                                            Installation Management Command,             Rates – Liner Business Shipments,
                                            Europe Region (FOR OFFICIAL USE              United States Transportation Command
D-2009-031 Afghanistan Security Forces
                                            ONLY) (11/20/2008)                           (03/25/2009)
Fund Phase III – Air Force Real Property
Accountability (12/29/08)
                                            A-2009-0018-ALR Property                     A-2009-0036-ZBI Property
                                            Accountability in the Army National          Accountability for Controlled
D-2009-042 Hiring Practices Used To
                                            Guard, Oklahoma Army National Guard          Cryptographic Items, 902nd Military
Staff the Iraqi Provisional Authorities
                                            (12/04/2008)                                 Intelligence Group (01/28/2009)
(1/16/09)
                                            A-2009-0019-FFD Staffing for                 A-2009-0049-FFS U.S. Army Reserve
D-2009-047 DoD Testing Requirements
                                            Installation Access Control Points, Office   Pre-Mobilization Training Requirements
for Body Armor (1/29/09)
                                            of the Provost Marshal General and           (02/20/2009)
                                            U.S. Army Installation Management
D-2009-059 Air Force Management of
                                            Command (FOR OFFICIAL USE                    A-2009-0050-FFP Real Property Master
the U.S. Government Aviation Into-
                                            ONLY) (01/06/2009)                           Planning – Alaska, U.S. Army Garrisons-
Plane Reimbursement Card® Program
                                                                                         Alaska (FOR OFFICIAL USE ONLY)
(3/6/09)
                                            A-2009-0023-ALM Excess Theater               (02/10/2009)
                                            Provided Equipment Disposition
SPO-2009-001 Assessment of
                                            Request Process (FOR OFFICIAL USE            A-2009-0054-ALI Base Realignment
Arms, Ammunition, and Explosives
                                            ONLY) (12/16/2008)                           and Closure 2005 Construction
Accountability and Control; Security
                                                                                         Requirements, 16th Cavalry Regiment
Assistance; and Sustainment for the
                                            A-2009-0026-ALR Container Detention          Complex, Phase 1, Fort Benning,
Afghan National Security Forces
                                            Billing for the Global War on Terrorism,     Georgia (03/18/2009)
(10/24/08)
                                            Military Surface Deployment and
                                            Distribution Command (01/15/2009)            A-2009-0055-ALI Base Realignment
SPO-2009-002 Assessment of
                                                                                         and Closure 2005 Construction
Arms, Ammunition, and Explosives
                                            A-2009-0027-FFE Followup Audit of            Requirements: 16th Cavalry Regiment
Accountability and Control; Security
                                            Installation Preparedness for Weapons of     Complex, Phase 2, Fort Benning,
Assistance; and Logistics Sustainment for
                                            Mass Destruction (12/17/2008)                Georgia (03/18/2009)
the Iraq Security Forces (12/19/08)

                                                                                                                               87
October 1, 2008 to March 31, 2009
                                                                                                       Appendices


A-2009-0057-FFS Army National Guard       A-2009-0080-ALL Retrograde                N-2009-0012 Selected Navy
Pre-Mobilization Training Requirements    Operations in Southwest Asia, Multi-      Installations’ Preparedness Against
(02/19/2009)                              class Retrograde – Iraq, Camp Victory,    Chemical, Biological, Radiological, and
                                          Iraq (FOR OFFICIAL USE ONLY)              Nuclear Attacks (11/26/08)
A-2009-0058-ALI Base Realignment          (03/31/2009)
and Closure 2005 Construction                                                       N-2009-0013 Interim Report -
Requirements, General Instruction         A-2009-0082-ALM Field Level Reset         Consideration of Hazardous Noise in the
Complex, Fort Benning, Georgia            Requirements, U.S. Army National          Acquisition of the Joint Strike Fighter
(03/18/2009)                              Guard (03/31/2009)                        (12/15/2008)

A-2009-0065-ALO Management of             A-2009-0083-ALR Overseas Shipping         N-2009-0022 Consideration of
Relocatable Facilities (03/04/2009)       Rate for Privately Owned Vehicles,        Hazardous Noise in the Acquisition of
                                          United States Transportation Command      the CVN 78 Aircraft Carrier (3/19/09)
A-2009-0066-ALR Property Book Unit        (03/26/2009)
Supply Enhanced System – Property                                                            Air Force
Accountability and Management, 10th       A-2009-0085-ALL Retrograde
Mountain Division (03/30/2009)            Operations in Southwest Asia, Class VII          Audit Agency
                                          Theater Provided Equipment, Camp
A-2009-0067-FFP Real Property             Victory, Iraq (FOR OFFICIAL USE           F-2009-0002-FC3000 Theater
Master Planning, U.S. Army Garrison,      ONLY) (03/26/2009)                        Deployable Communications Program
Hawaii (FOR OFFICIAL USE ONLY)                                                      Management (12/15/2008)
(03/04/2009)                              A-2009-0086-ALA Body Armor Testing
                                          (03/30/2009)                              F-2009-0001-FC4000 Support
A-2009-0069-ALL Management of                                                       Equipment Requirements (10/1/2008)
Shipping Containers in Southwest Asia,     Naval Audit Service
Kuwait, Iraq, Afghanistan, and CONUS,                                               F-2009-0002-FC4000 Secondary Item
Summary Report (FOR OFFICIAL USE                                                    Budget Adjustments (11/10/2008)
ONLY) (03/19/2009)                        N-2009-0002 Consideration of
                                          Hazardous Noise and Vibration in          F-2009-0003-FC4000 Follow-up
A-2009-0071-ALM Automatic Reset           the Acquisition of the Expeditionary      Audit, Low Speed Vehicle Management
Induction Criteria (FOR OFFICIAL          Fighting Vehicle (10/16/08)               (11/17/2008)
USE ONLY) (03/23/2009)
                                          N-2009-0004 Navy Antiterrorism            F-2009-0004-FC4000 One-Way
A-2009-0072-ALI Base Realignment          Program Execution (10/22/08)              Interchangeable Stock Numbers
and Closure 2005 Construction                                                       (12/11/2008)
Requirements, Addition/Alteration,        N-2009-0006 The United States Marine
Armed Forces Reserve Center, Lafayette,   Corps Critical Infrastructure Program     F-2009-0005-FC4000 Excess Spare Parts
Indiana (03/18/2009)                      (10/29/08)                                (1/5/2009)

A-2009-0074-ALM Automatic                 N-2009-0007 Notice of Ammunition          F-2009-0006-FC4000 Pallets (2/4/2009)
Reset Induction Transportation from       Reclassification Program Utilization
Southwest Asia (FOR OFFICIAL USE          (10/30/08)                                F-2009-0001-FD1000 United States Air
ONLY) (03/23/2009)                                                                  Forces Central - Area of Responsibility
                                          N-2009-0008 Interim Report –              Civil Engineer Materials (10/6/2008)
A-2009-0077-ALM M88A1 Recovery            Consideration of Hazardous Noise in
Vehicle FY 09 Reset Maintenance           the Acquisition of the F/A-18A/F Super    F-2009-0003-FD2000 Air Force Claims
Requirements (FOR OFFICIAL USE            Hornet and EA-18G Growler Strike          Service Center (2/20/2009)
ONLY) (03/23/2009)                        Fighter Variants (10/31/08)
                                                                                    F-2009-0001-FD3000 Use of Individual
                                                                                    Mobilization Augmentees (10/9/2008)


88
                                                                                            Semiannual Report to the Congress
Appendix A


F-2009-0002-FD3000 Survivability                                                     F-2009-0002-FB4000 Plan of Action
of Space Assets (CLASSIFIED)                 Army Audit Agency                       and Milestone Program Management
(10/16/2008)                                                                         (FOR OFFICIAL USE ONLY)
                                                                                     (11/5/2008)
                                           A-2009-0002-FFI Training and
F-2009-0003-FD3000 United States
                                           Developing the Civilian Information
Air Forces Central War Reserve Materiel
(1/7/2009)
                                           Technology Management Workforce              Acquisition
                                           (10/14/2008)                               Processes/ Con-
F-2009-0001-FD4000 Enlisted and
                                           A-2009-0010-ZBI Army Research and         tract Management
Civilian Personnel Entry-Level Training
                                           Technology Protection Program, U.S.
(10/1/2008)
                                           Army Communications-Electronics
F-2009-0002-FD4000 Foreign Language
                                           Research, Development and Engineering                  DoD IG
                                           Center (FOR OFFICIAL USE ONLY)
Proficiency Pay (10/9/2008)
                                           (10/31/2008)
F-2009-0003-FD4000 Follow-up Audit,                                                  D-2009-026 Small Business Contracting
                                           A-2009-0014-ZBI Army Research
Family Member Programs Personnel                                                     Under the Navy DDG-1000 Program
                                           and Technology Protection Program,
Background Investigations (12/5/2008)                                                (11/26/08)
                                           Program Executive Office, Intelligence,
                                           Electronic Warfare and Sensors (FOR
F-2009-0005-FD4000 Unmanned                                                          D-2009-027 Air Force Combat Search
                                           OFFICIAL USE ONLY) (11/14/2008)
Aerial System Pilot Force Management                                                 and Rescue Helicopter (12/8/08)
(12/17/2008)
                                           A-2009-0037-FFI Information
                                                                                     D-2009-032 The America Supports You
                                           Technology Contingency Plans, Chief
F-2009-0006-FD4000 Diversity in                                                      Program (12/12/08)
                                           Information Officer/G-6 (01/26/2009)
Professional Development (12/29/2008)
D-2009-001 Information Assurance                                                     D-2009-034 DoD Inspector General
Controls for the Defense Civilian Pay       Naval Audit Service                      Report to Congress on Section 325 of
System (10/7/08)                                                                     the “National Defense Authorization Act
                                                                                     for Fiscal Year 2008” (12/15/08)
                                           N-2009-0005 Department of the Navy’s
                                                                                     D-2009-036 Acquisition of the Air Force
                                           Internal Controls over Communications
    Information                            Security Equipment (10/29/08)
                                                                                     Second Generation Wireless Local Area
 Security & Privacy                        (CLASSIFIED)
                                                                                     Network (1/16/09)

                                                                                     D-2009-041 The Expeditionary
                                           N-2009-0014 Control over Wireless
                                                                                     Fire Support System and Internally
                                           Devices at Selected Commander, Navy
             DoD IG                        Installations Command and Naval
                                                                                     Transportable Vehicle Programs
                                                                                     (1/14/09)
                                           Facilities Engineering Command
                                           Activities (12/17/08)
D-2009-001 Information Assurance                                                     D-2009-043 FY 2007 DoD Purchases
Controls for the Defense Civilian Pay                                                Made Through the U.S. Department of
System (10/7/08)                                                                     Veterans Affairs (1/21/09)
                                                   Air Force
D-2009-051 Controls Over Time                    Audit Agency                        D-2009-045 Security Guard Services
and Attendance Reporting at the                                                      Contract at Naval Weapons Station Earle
National Geospatial-Intelligence Agency                                              (1/23/09)
                                           F-2009-0001-FB4000 Combat
(2/9/09)
                                           Information Transport System Technical
                                                                                     D-2009-046 Procurement and Delivery
                                           Order Compliance Process (10/3/2008)
D-2009-054 Internal Controls and Data                                                of Joint Service Armor Protected Vehicles
Reliability in the Deployable Disbursing                                             (1/29/09)
System (2/17/09)


                                                                                                                           89
October 1, 2008 to March 31, 2009
                                                                                                        Appendices


D-2009-048 DoD Small Business             A-2009-0028-FFI Followup of Airtime
Innovation Research Program (1/30/09)     Requirements for Fixed Commercial           Naval Audit Service
                                          Satellite Communications Bandwidth,
D-2009-064 FY 2007 DoD Purchases          Office of the Chief Information Officer/   N-2009-0016 Management of Special
Made Through the National Institutes of   G-6 (01/05/2009)                           Tooling and Special Test Equipment
Health (3/24/09)                                                                     at Space and Naval Warfare Systems
                                          A-2009-0038-ALM Followup Audit of          Command (12/23/08)
D-2009-6-003 Key Strategies and           the Impact of Warranties on Weapon
Practices for Oversight of DoD            System Maintenance Costs (01/27/2009)      N-2009-0021 Acquiring Services
Contracted Audit Services (03/03/2009)    A-2009-0040-ALA Audit of Technology        through the Center for Naval Analyses
                                          Readiness Assessments, Program             (3/18/09)
                                          Executive Office, Aviation (02/10/2009)
  Army Audit Agency
                                          A-2009-0042-ALM Contracts for Field                 Air Force
A-2009-0003-ALE Organizational            Level Reset, U.S. Army Sustainment                Audit Agency
Clothing and Individual Equipment,        Command (01/27/2009)
U.S. Army, Europe and Seventh Army
(10/22/2008)                              A-2009-0047-ALC Flat Fees for              F-2009-0001-FC1000 Air Force
                                          Contracting and Contract Management        Contract Augmentation Program
A-2009-0005-ALA Technology                Services (02/23/2009)                      Execution (12/17/2008)
Readiness Assessments, Program
Executive Office, Missiles and Space      A-2009-0053-ALR Followup Audit of          F-2009-0002-FC1000 High Performing
(10/22/2008)                              Project Manager Assets – Aviation (Cargo   Organizations (12/17/2008)
                                          Helicopter), Office of the Program
A-2009-0006-FFD Followup                  Executive Officer, Aviation (03/04/2009)   F-2009-0001-FC3000 Systems
of Contracting for Installation                                                      Engineering Planning (10/27/2008)
Preparedness, Office of the Deputy        A-2009-0061-ALE Billing Operations,
Chief of Staff, G-3/5/7 and U.S. Army     U.S. Europe Regional Medical               F-2009-0003-FC3000 A-10 Wing
Training and Doctrine Command (FOR        Command (03/31/2009)                       Replacement Program (2/20/2009)
OFFICIAL USE ONLY) (10/30/2008)
                                          A-2009-0064-ALE Job Order                  F-2009-0004-FC3000 Air Force Value
A-2009-0013-ALE FY 09 Manning             Contracting, U.S.Army Garrison             Engineering Program (3/2/2009)
Requirements for Contract Security        Wiesbaden (03/05/2009)
Guards in Europe, U.S. Army, Europe
and Seventh Army (FOR OFFICIAL            A-2009-0070-ALL Applying Agreed-
USE ONLY) (11/14/2008)                    Upon Procedures to Review Invoices for             Financial
                                          Housing Maintenance Contracts, Camp               Management
A-2009-0016-FFH Acquisitions Made         Arifjan, Kuwait (FOR OFFICIAL USE
Using Military Interdepartmental          ONLY) (03/10/2009)
Purchase Requests, U.S. Army Medical
Command (11/17/2008)                      A-2009-0089-ALA Technology                              DoD IG
                                          Readiness Assessments, Program
A-2009-0022-ALC Followup Audit            Executive Office, Command, Control,        D-2009-002 Attestation of the
of HR solutions Program – Contract        and Communications Tactical                Department of the Navy’s Environmental
Procedures (12/12/2008)                   (03/31/2009)                               Disposal for Weapons Systems Audit
                                                                                     Readiness Assertion (10/10/08)
A-2009-0024-FFH Attestation
Examination – Army MWR External                                                      D-2009-003 Internal Controls Over
Contract Services (01/07/2009)                                                       Army General Fund Cash and Other
                                                                                     Monetary Assets Held Outside of the
                                                                                     Continental United States (10/9/08)
90
                                                                                             Semiannual Report to the Congress
Appendix A


D-2009-004 Agreed-Upon Procedures        D-2009-015 Endorsement of the               D-2009-033 Controls Over Billing
for Reviewing the FY 2008 Civilian       Qualified Opinion on the Fiscal Year        Customers and Collecting Revenue for
Payroll Withholding Data and             2008 DoD Medicare-Eligible Retiree          Work Performed at Corpus Christi Army
Enrollment Information (10/8/08)         Health Care Fund Financial Statements       Depot (12/16/08)
                                         (11/10/08)
D-2009-006 Small Arms Ammunition                                                     D-2009-038 Defense Finance &
Fund Management in Support of the        D-2009-016 Independent Auditor’s            Accounting Service Working Capital
Global War on Terror (10/20/08)          Report on the Air Force General Fund        Fund Financial Statement (12/22/08)
                                         FY 2008 and FY 2007 Basic Financial
D-2009-008 Internal Controls Over        Statements (11/8/08)                        D-2009-039 Endorsement of the
the Department of the Navy Military                                                  Disclaimer of Opinion on the Fiscal
Equipment Baseline Valuation Effort      D-2009-017 Independent Auditor’s            Year 2007 Financial Statement for the
(10/31/08)                               Report on the Air Force Working Capital     Chemical & Biological Defense Program
                                         Fund FY 2008 and FY 2007 Basic              (12/22/08)
D-2009-009 Endorsement of the            Financial Statements (11/8/08)
Unqualified Opinion on the FY 2008       D-2009-018 Independent Auditor’s            D-2009-040 Internal Controls Over the
DoD Military Retirement Fund             Report on the Army General Fund             Completeness of the Air Force Military
Financial Statements (11/7/08)           FY 2008 and FY 2007 Basic Financial         Equipment Baseline (1/6/09)
                                         Statements (11/8/08)
D-2009-010 Independent Auditor’s                                                     D-2009-044 Defense Finance and
Report on the Department of the Navy     D-2009-020 Independent Auditor’s            Accounting Service Indianapolis
General Fund                             Report on the Army Working Capital          Compilation of Other Defense
FY 2008 and FY 2007 Basic Financial      Fund FY 2008 and FY 2007 Basic              Organizations General Fund Financial
Statements (11/8/08)                     Financial Statements (11/8/08)              Data (1/23/09)

D-2009-011 Independent Auditors          D-2009-021 Independent Auditor’s            D-2009-049 Internal Controls over the
Report on the Department of the Navy’s   Report on the Department of Defense         United States Marine Corps Military
Environmental Disposal for Weapon        FY 2008 and FY 2007 Basic Financial         Equipment Baseline Valuation Effort
Systems Audit Readiness Assertion        Statements (11/12/08)                       (2/9/09)
(11/12/08)
                                         D-2009-023 Independent Auditor’s            D-2009-050 Distribution of Funds
D-2009-012 Independent Auditor’s         Report on the Department of Defense         and the Validity of Obligations for the
Report on the Department of the Navy     Special-Purpose Financial Statements for    Management of the Afghanistan Security
Working Capital Fund FY 2008 and         Fiscal Years Ending September 30, 2008      Forces Fund Phase II (2/5/09)
FY 2007 Basic Financial Statements       and 2007 (11/17/08)
(11/8/08)                                                                            D-2009-053 Independent Auditor’s
                                         D-2009-024 Independent Auditor’s            Report on the DoD FY 2008 Detailed
D-2009-013 Independent Auditor’s         Report on the U.S. Army Corps of            Accounting Report of the Funds
Report on the United States Marine       Engineers, Civil Works, FY 2008 and         Obligated for National Drug Control
Corps General Fund FY 2008 and           FY 2007 Basic Financial Statements          Program Activities (2/10/09)
FY 2007 Basic Financial Statements       (11/17/08)
(11/8/08)                                                                            D-2009-057 Controls over Collections
                                         D-2009-025 Obligation of Funds for          and Returned Checks at Defense Finance
D-2009-014 Independent Auditor’s         Ship Maintenance and Repair at the          and Accounting Service, Indianapolis
Report on the Department of the Navy     U.S. Pacific Fleet Maintenance Activities   Operations (2/27/09)
Working Capital Fund-Marine Corps        (11/26/08)
FY 2008 and FY 2007 Basic Financial                                                  D-2009-058 DoD Cost of War
Statements (11/8/08)                     D-2009-029 Audit of Internal Controls       Reporting of Supplemental Funds
                                         Over the Department of the Navy Cash        Provided for Procurement and Research,
                                         and Other Monetary Assets Held in the       Development, Test, and Evaluation
                                         Continental United States (12/9/08)         (2/27/09)

                                                                                                                            91
October 1, 2008 to March 31, 2009
                                                                                                       Appendices


D-2009-060 Endorsement of the                                                       A-2009-0044-FFH Nonappropriated
Management Letter on Internal Controls     Army Audit Agency                        Fund Capital Asset Valuations, U.S.
Over Financial Reporting for the FY                                                 Army Garrison, Fort Drum, New York
2008 Defense Finance and Accounting                                                 (02/02/2009)
                                         A-2009-0001-FFM The Army Managers’
Service Working Capital Fund Financial
                                         Internal Control Program for FY 07,
Statements Opinion Audit (For Official                                              A-2009-0045-FFH Nonappropriated
                                         Office of the Assistant Secretary of the
Use Only) (3/4/09)                                                                  Fund Capital Asset Valuations, U.S.
                                         Army for Manpower and Reserve Affairs
                                                                                    Army Garrison, Fort Lee, Virginia
                                         (12/19/2008)
D-2009-061 Controls Over Reporting                                                  (02/02/2009)
Transportation Costs in Support of the
                                         A-2009-0011-FFM Independent
Global War on Terror (3/12/09)                                                      A-2009-0046-ZBI Emergency
                                         Auditor’s Report for FY 08 American
                                                                                    and Extraordinary Expense Funds
                                         Red Cross Financial Statements
D-2009-062 Internal Controls Over                                                   (Intelligence Contingency Funds—
                                         (10/31/2008)
DoD Cash and Other Monetary Assets                                                  Limitation .0017) Multi-National Corps
(3/25/09)                                                                           – Iraq (02/04/2009) (CLASSIFIED)
                                         A-2009-0021-ALO Audit of DOD
                                         Support to 2009 Presidential Inaugural –
D-2009-063 Funds Appropriated for                                                   A-2009-0048-FFM Review of Business
                                         Notification of Potential Antideficiency
Afghanistan and Iraq Processed Through                                              Process Plan – Reporting Accounts
                                         Act Violation (12/02/2008)
the Foreign Military Sales Trust Fund                                               Receivable for the Army General Fund
(3/24/09)                                                                           (02/10/2009)
                                         A-2009-0025-FFH Nonappropriated
                                         Fund Capital Asset Valuations, U.S.
D-2009-065 Navy Reporting of                                                        A-2009-0052-FFM Review of the
                                         Army Garrison, Fort Lewis, Washington
Financing Payments for Shipbuilding on                                              Business Process Plan – Reporting
                                         (01/07/2009)
the Financial Statements (3/26/09)                                                  Accounts Receivable for the Army
                                                                                    Working Capital Fund (02/10/2009)
                                         A-2009-0031-ALE Execution of
D-2009-068 Independent Auditor’s
                                         Force Protection Funding in Europe
Report on the FY 2007 Defense                                                       A-2009-0056-FFH Nonappropriated
                                         (01/23/2009)
Information Systems Agency Working                                                  Fund Capital Asset Valuations, U.S.
Capital Fund Balance Sheet (3/27/09)                                                Army Garrison, Fort Stewart, Georgia
                                         A-2009-0039-FFM Army’s Transition
                                                                                    (02/17/2009)
                                         Strategy for the Defense Integrated
D-2009-069 Independent Auditor’s
                                         Military Human Resource System
Report on the FY 2007 Defense                                                       A-2009-0059-ZBI Audit of Intelligence
                                         (DIMHRS) (03/17/2009)
Information Systems Agency General                                                  Funds – Site A (02/25/2009)
Fund Balance Sheet (3/27/09)                                                        (CLASSIFIED)
                                         A-2009-0041-FFM Agreed-Upon
                                         Procedures Attestation of the FY 04
D-2009-6-004 Defense Contract                                                       A-2009-0060-FFS Potential
                                         Administrative Fees Collected by the HR
Management Agency Actions on                                                        Antideficiency Act Violations, Funds
                                         solutions Program Office (01/21/2009)
Audits of Cost Accounting Standards                                                 Executed for the Office of the Under
and Internal Control Systems at                                                     Secretary of the Army (Business
                                         A-2009-0043-ALL Agreed-Upon
DoD Contractors Involved in Iraq                                                    Transformation) (03/16/2009)
                                         Procedures Attestation to Determine
Reconstruction Activities (04/08/2009)
                                         the Accuracy of Financial Records of the
                                                                                    A-2009-0062-FFM Assessing Future
                                         101st Financial Management Company,
                                                                                    Base Budget Requirements, Manning
                                         Contingency Operating Base Speicher,
                                                                                    Program Evaluation Group (FOR
                                         Iraq (FOR OFFICIAL USE ONLY)
                                                                                    OFFICIAL USE ONLY) (03/03/2009)
                                         (02/02/2009)
                                                                                    A-2009-0073-ALA Assessing Future
                                                                                    Base Budget Requirements, Equipping
                                                                                    Program Evaluation Group (FOR
                                                                                    OFFICIAL USE ONLY) (03/26/2009)


92
                                                                                            Semiannual Report to the Congress
Appendix A


A-2009-0075-FFM Agreed-Upon               F-2009-0002-FB1000 Air Force Office       F-2009-0001-FD2000 Interim Report,
Procedures Attestation of the FY          of Special Investigations Confidential    Management of Global War on Terror
07 Administrative Fees Collected          Investigative Contingency Funds           Funds for Medical Support (12/2/2008)
by the HRsolutions Program Office         (12/5/2008)
(03/16/2009)                                                                        F-2009-0002-FD2000 Medical Expense
                                          F-2009-0003-FB1000 Centrally              and Performance Reporting System
A-2009-0078-ALE Access Control Point      Managed Allotment - Second                (1/2/2009)
Project at Patrick Henry Village, U. S.   Destination Transportation (2/20/2009)
Army Garrison Baden-Wurttemberg
(03/19/2009)                              F-2009-0001-FB2000 Mechanization of
                                          Contract Administration Services System          Health Care
A-2009-0081-FFH Nonappropriated           Controls (10/3/2008)
Fund Capital Asset Valuations, U.S.
Army Garrison, Fort Jackson, South        F-2009-0002-FB2000 System Controls
Carolina (03/24/2009)                     for the General Accounting and Finance
                                          System - Rehost (10/14/2008)                           DoD IG
 Naval Audit Service
                                          F-2009-0003-FB2000 General                D-2009-037 TRICARE Controls Over
                                          Accounting and Finance System - Rehost    Claims Prepared by Third-Party Billing
N-2009-0003 Disbursing Checks and         Accounting Requirements (2/4/2009)        Agencies (12/31/08)
Balances at the Commander, Navy
Region Southwest Asia Commercial Bill     F-2009-0004-FB2000 Defense
Paying Office (10/17/08)                  Enterprise Accounting and Management
                                                                                      Army Audit Agency
                                          System Controls (2/20/2009)
N-2009-0011 Special Operations Fund                                                 A-2009-0007-FFH Followup Audit
(11/18/08) (CLASSIFIED)                   F-2009-0001-FB3000 General                of Contracts for Medical Goods and
                                          Fund Accounts Payable - Integrated        Services, Southeast Regional Medical
N-2009-0015 Verification of               Accounts Payable System Transactions      Command (11/03/2008)
Department of the Navy’s Fiscal Year      (12/11/2008)
2007 Reporting of Depot Maintenance                                                 A-2009-0008-FFH Trauma Services
Workload Distribution Between Public      F-2009-0002-FB3000 Base Realignment       Cooperative Agreement, Brooke Army
and Private Sectors (12/22/08)            and Closure Environmental Liabilities     Medical Center, Fort Sam Houston,
                                          (12/15/2008)                              Texas (10/29/2008)
N-2009-0017 Navy Marine Corps
Intranet Contract Performance Measures    F-2009-0003-FB3000 Working Capital        A-2009-0009-ALO Military and Family
for Incentive Payments (2/12/09)          Fund General Equipment (12/17/2008)       Counseling Services Contract, Fort
                                                                                    Hood, Texas (10/31/2008)
N-2009-0020 Bureau of Medicine and        F-2009-0004-FB3000 Working Capital
Surgery Management of Sustainment         Fund Real Property (12/18/2008)           A-2009-0020-ALO Military and Family
Funds to Repair and Maintain Real                                                   Counseling Services Contract, Fort
Property Facilities (2/26/09)             F-2009-0005-FB3000 General Fund           Lewis, Washington (12/01/2008)
                                          Real Property (3/2/2009)
         Air Force
                                          F-2009-0001-FC2000 Depot
       Audit Agency                       Maintenance Labor Standards
                                          (10/16/2008)
F-2009-0001-FB1000 Air Force Smart
Operations for the 21st Century           F-2009-0002-FD1000 Iraq
Implementation (10/6/2008)                Reconstruction Program Task Order
                                          Closeout (10/14/2008)


                                                                                                                           93
October 1, 2008 to March 31, 2009
                                                                                                          Appendices


                                          D-2009-056 Personal Commercial               09-INTEL-04 Review of Intelligence
 Naval Audit Service                      Solicitation of Military Personnel: Impact   Systems Support Office Programs
                                          of DoD Actions and Public Law 109-290        (3/11/2009)
                                          (2/23/09)
N-2009-0018 Controls Over Medical                                                      09-INTEL-05 Audit of the Management
Supplies and Equipment (2/19/09)          D-2009-6-001 Quality Control Review          of Signals Intelligence Counterterrorism
                                          of Naval Audit Service’s Special Access      Enterprise Analysts (3/24/2009)
                                          Program Audits (10/09/2008)
         Air Force
       Audit Agency                                                                      Army Audit Agency
                                          D-2009-6-002 External Reviews of
                                          the Quality Control Systems of the
F-2009-0003-FD1000 Environmental          Military Department Audit Agencies           A-2009-0068-FFE Energy Consumption
Resources Program Information             (11/07/2008)                                 (03/12/2009)
Management System (12/15/2008)
                                          IE-2009-002 DoD Civilian Safety              A-2009-0079-FFE Civil Works Dam
F-2009-0004-FD4000 Air Force Fitness      Survey (12/12/08)                            Management, U.S. Army Corps of
Program (12/11/2008)                                                                   Engineers (03/24/2009)
                                          IE-2009-004 Examination of
                                          Allegations Involving DoD Public
                                          Affairs Outreach Program (01/14/09)
                                                                                        Naval Audit Service
              Other                       Withdrawn

                                          IE-2009-005 2008 Evaluation of               N-2009-0001 Contracting for Bachelor
                                          the DoD Voting Assistance Program            Housing Furnishings (10/3/08)
                                          (04/30/09)
             DoD IG                                                                    N-2009-0009 Department of the Navy
                                          Contract No. GS-00F-0005R                    Fisher Houses (11/4/08)
D-2009-022 Base Realignment and           Independent Engineering Assessment of
                                          the New Orleans Temporary Outflow            N-2009-0010 Internal Controls for
Closure 2005 Military Construction                                                     Overtime Procedures at Navy Region
Project To Consolidate and Relocate       Canal Pumps (Parsons Project No.
                                          746558) (02/27/09)                           Mid-Atlantic (11/7/08)
Service Media Activities to Fort Meade,
Maryland (11/14/08)                                                                    N-2009-0019 Auditor General
                                          09-INTEL-01 Review of an Under
                                          Secretary of Defense for Intelligence        Advisory – Service Contracts for
D-2009-028 Organizational Structure                                                    the Communications-On-the-Move
and Managers’ Internal Control Program    Program (10/31/2008)
                                                                                       Network Digital Over-the-Horizon Relay
for the Assistant Secretary of Defense                                                 (CONDOR) Project (2/24/09)
(Public Affairs) and American Forces      09-INTEL-02 Oversight of the
Information Service (12/10/08)            Nuclear Surety Inspections Conducted
                                          in the Aftermath of the B-52 Incident
D-2009-035 Review of Physical Security    (12/04/2008)
of DoD Installations (1/14/09)
                                          09-INTEL-03 Review of Intelligence
D-2009-052 Controls over Excess           Resources at the Joint Intelligence Task
Defense Articles Provided to Foreign      Force Combatting Terrorism and Special
Governments (2/13/09)                     Operations Command in Support of
                                          Operation Enduring Freedom and
D-2009-055 Base Realignment               Operation Iraqi Freedom (02/13/2009)
and Closure 2005 for the Pensacola
Undergraduate Navigator Training
Relocation (2/13/09)


94
                                                                                               Semiannual Report to the Congress
Appendix B


                                                   Appendix B


               DoD IG Audit Reports Issued Containing Quantifiable
                          Potential Monetary Benefits


                                                                                         Potential Monetary Benefits
                              Audit Reports Issued                                      Disallowed         Funds Put to
                                                                                          Costs1             Better Use
D-2009-007 Procurement and Use of Nontactical Vehicles at Bagram Air Field,            $16,000,000
Afghanistan (10/31/2008)                                                                Questioned
D-2009-022 Base Realignment and Closure 2005 Military Construction Project
to Consolidate and Relocate Service Media Activities to Fort Meade, Maryland            $833,000
(11/14/2008)                                                                            Questioned
D-2009-025 Obligation of Funds for Ship Maintenance and Repair at the US
Pacific Fleet Maintenance (11/26/2008)                                                     N/A                $95,000,000
D-2009-026 Small Business Contracting Under the Navy DDG-1000 Program
(11/26/2008)                                                                               N/A                  $548,619
                                                                                         $17,345
D-2009-032 The America Supports You Program (12/12/2008)                                Questioned            $16,900,000
D-2009-036 Acquisition of the Air Force Second Generation Wireless Local Area
Network (1/16/2009)                                                                        N/A                  $798,000
D-2009-057 Controls over Collections and Returned Checks at Defense Finance
and Accounting Service, Indianapolis Operations (02/27/2009)                               N/A                 $1,200,000
D-2009-064 FY 2007 DoD Purchases Made Through the National Institutes of
Health (03/24/2009)                                                                        N/A                $1,072,206
Totals                                                                                 $16,850,345           $115,518,825

*Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5(a)(6)
(See Appendix A).




                                                                                                                              95
October 1, 2008 to March 31, 2009
                                                                                                                   Appendices


                                                      Appendix C


               DECISION STATUS OF DOD IG ISSUED AUDIT REPORTS AND DOLLAR VALUE OF
                 RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE ($ in thousands)

                                      Status                                          Number                    Funds Put
                                                                                                              To Better Use 1
A.      For which no management decision had been made by the
        beginning of the reporting period.                                                39                     $146,242
B.	      Which were issued during the reporting period.                                   66                     $132,369
        Subtotals (A+B)                                                                  105                     $278,611
C.	      For which a management decision was made during the                                                     $245,804
        reporting period.

       (i) 	       Dollar value of recommendations that were agreed to
                  by management.
                  - based on proposed management action
                  - based on proposed legislative action
       (ii)	       Dollar value of recommendations that were not agreed
                  to by management.                                                      74                     $245,8042
D.	      For which no management decision has been made by the
        end of the reporting period.                                                     31                      $32,807
        Reports for which no management decision was made within
        6 months of issue (as of March 31, 2008).                                        103                     $12,820

1.	 DoD IG audit reports issued during the period involved $16.9 million in “questioned costs.”
2.	 On these audit reports management has agreed to take the recommended actions, but the amount of agreed monetary
    benefits cannot be determined until those actions are completed.
3.	 DoD IG Report Nos. D-2006-112, “Selected Controls over the Military Personnel, Army Appropriation”; D-2007-003,
    “Internal Controls over the Army General Fund, Note 3, “Fund Balance With Treasury,” Disclosures”; D-2007-6-001,
    “Reimbursement of Settlement Costs at DCMA Melbourne,” D-2008-5-003, “Review of Threat Assessment Guidance
    Regarding Nuclear Weapons Located Outside the Continental United States”; D-2008-080; “Accounting to Support DoD
    Personnel During Times of Civil Emergency”; D 2008-082, Summary Report on Potential Antideficiency Act Violations
    Resulting from DoD Purchases Made Through Non-DoD Agencies”; D-2008-104, “DoD Implementation of Homeland
    Security Presidential Directive 12”; D-2008-108, “Agreed-Upon Procedures Related to the 10th Edition of the Army
    Chief Financial Officers Strategic Plan”; and, D-2008-121, “Internal Controls for Air Force General Funds Cash and
    Other Monetary Assets”; had no management decision as of March 30, 2009, but action to achieve a decision is in process.
    D-2008-026, “Management of the Iraq Security Forces Fund in Southwest Asia – Phase III,” had no management decision
    as of March 31, 2009, but was decided April 3, 2009.




* Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5(a)(8)(9) & (10).

96
                                                                                                       Semiannual Report to the Congress
Appendix C




                      STATUS OF ACTION ON CENTRAL INTERNAL AUDITS
                                  Period ending March 31, 2009
                                         ($ in thousands)
                                           Status                                      Number        Funds Put to
                                                                                                     Better Use 1
         DoD IG
           Action in Progress - Beginning of Period                                      262           $2,100
           Action Initiated - During Period                                               74          $245,804
           Action Completed - During Period                                               98          $161,696
           Action in Progress - End of Period                                            238           $2,1002
         Military Departments
           Action in Progress - Beginning of Period                                      567         $3,012,509
           Action Initiated - During Period                                              143         $2,504,235
           Action Completed - During Period                                              133          $491,427
           Action in Progress - End of Period                                            577         $4,522,133

         1
           DoD IG audit reports opened during the period involved $16.8 million in “questioned costs.”
         2
           On certain reports (primarily from prior periods) with audit estimated monetary benefits of $1,393 mil-
         lion, we agreed that the resulting monetary benefits can only be estimated after completion of management
         action, which is ongoing.


        * Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
          Section 5(b)(2) & (3).




                                                                                                                     97
October 1, 2008 to March 31, 2009
                                                                                                            Appendices


                                                  Appendix D

                                CONTRACT AUDIT REPORTS ISSUED1
                                           ($ in millions)
                              October 1, 2008 through March 31, 2009




                                             Assignments                           QUESTIONED               FUNDS PUT TO
TYPE OF AUDIT       2
                                             Completed         EXAMINED              COSTS3                  BETTER USE
Incurred Costs, Ops Audits,
Special Audits                                   5,758           $36,415.4              $393.0                    $69.64
Forward Pricing Proposals                        3,168          $131,745.4                ---                   $9,336.95
Cost Accounting Standards                         584              $509.3                $60.0                      ---
Defective Pricing                                 78              (Note 6)               $12.3                      ---
Totals                                           9,588          $168,670.1              $465.3                  $9,406.5


                                                           Notes
1. This schedule represents Defense Contract Audit Agency contract audit assignments completed during the six months
ended March 31, 2009. Some completed assignments do not result in a report issued because they are part of a larger audit, so
the number of audit reports will be less than the number shown above. This schedule includes any audits that DCAA per-
formed on a reimbursable basis for other government agencies and the associated statistics may also be reported in other OIGs’
Semiannual Reports to Congress. Both “Questioned Costs” and “Funds Put to Better Use” represent potential cost savings.
Because of limited time between availability of management information system data and legislative reporting requirements,
there is minimal opportunity for DCAA to verify the accuracy of reported data. Accordingly, submitted data is subject to
change based on subsequent DCAA authentication.
2. This schedule represents audits performed by DCAA summarized into four principal categories, which are defined as:
Incurred Costs – Audits of direct and indirect costs charged to Government contracts to determine that the costs are reason-
able, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition Regulation
Supplement, and provisions of the contract. Also included under incurred cost audits are Operations Audits, which evaluate a
contractor’s operations and management practices to identify opportunities for increased efficiency and economy; and Special
Audits, which include audits of terminations and claims.
Forward Pricing Proposals – Audits of estimated future costs of proposed contract prices, proposed contract change orders,
costs for redeterminable fixed-price contracts, and costs incurred but not yet covered by definitized contracts.
Cost Accounting Standards – A review of a contractor’s cost impact statement required due to changes to disclosed practices,
failure to consistently follow a disclosed or established cost accounting practice, or noncompliance with a CAS regulation.
Defective Pricing – A review to determine whether contracts are based on current, complete and accurate cost or pricing data
(the Truth in Negotiations Act).
3. Questioned costs represent costs that DCAA has questioned because they do not comply with rules, regulations, laws, and/
or contractual terms.
4. Represents recommendations associated with Operations Audits where DCAA has presented to a contractor that funds
could be used more effectively if management took action to implement cost reduction recommendations.
5. Represents potential cost reductions that may be realized during contract negotiations.
6. Defective pricing dollars examined are not reported because the original value was included in the audits associated with the
original forward pricing proposals.

98
                                                                                                 Semiannual Report to the Congress
Appendix E


                                                   Appendix E

                                  STATUS OF action on
                       significant post‑award contract audits1
                        Period Ending March 31, 2009 ($ in millions)


                                                 Number of
                                                  Reports        Costs Questioned          Disallowed Costs6


             Open Reports:

               Within Guidelines2                   328                $664.2                    N/A7

               Overage, greater than 6
               months3
                                                    672              $ 1,525.6                    N/A

               Overage, greater than 12
               months4                              491                $101.4                     N/A

                In Litigation5                      150              $ 1,646.3                    N/A

             Total Open Reports                    1,641              $3,937.5                    N/A

             Closed Reports                         348                $329.7               $223.1 (67.7%)

             All Reports                           1,989              $4,267.2              $223.1 (5.2%)


1 This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing, equitable
adjustments, accounting and related internal control systems, and noncompliances with the Cost Accounting Standards as
reported by the Army, Navy, Air Force, Defense Contract Management Agency, Defense Intelligence Agency, Defense Logistics
Agency, National Geospatial-Intelligence Agency, National Security Agency and TRICARE Management Activity. Contract
audit follow-up is reported in accordance with DoD Instruction 7640.02, “Policy for Follow-up on Contract Audit Reports.”
Because of limited time between availability of the data and reporting requirements, there is minimal opportunity to verify the
accuracy of the reported data.
2 These reports are within the timeframes established by OMB Circular A-50, “Audit Follow-up”, and DoD Instruction
7640.02 as described in footnotes 3 and 4 below.
3 OMB Circular A-50 requires that audit reports be resolved within 6 months after report issuance. Generally, an audit is
resolved when the contracting officer determines a course of action which is documented and approved in accordance with
agency policy.
4 DoD Instruction 7640.02 states that audit reports are overage if not dispositioned within 12 months from date of issuance.
Generally, disposition is achieved when the contractor implements audit recommendations, the contracting officer negotiates a
settlement with the contractor, or the contracting officer issues a final decision pursuant to the Disputes Clause.
5 Of the 118 reports in litigation, 30 are under criminal investigation.
6 Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.
7 N/A (not applicable)
                                                                                                                             99
October 1, 2008 to March 31, 2009
                                                                                                             Appendices


                                                     Appendix F

            STATUS OF DOD IG REPORTS MORE THAN 12 MONTHS OLD
                        WITH FINAL ACTION PENDING
                            (As of March 31, 2009)

      Report Number                  Description of Action              Reason Action Not            Principle Action Office
        Title/Date                                                         Completed
96-156, Implementation            Implement system changes          Correction of this material    DFAS
of the DoD Plan to Match          to correct weaknesses in the      weakness involves a long-
Disbursement to Obligations       automated prevalidation           term effort.
Prior to Payment, 6/11/1996       process.
97-134, Disposal of Muni-         Change regulations to             Revisions are necessary to     USD(AT&L), DLA
tions List Items in the Posses-   advance the identification of     conform to changes in DoD
sion of Defense Contractors,      munitions list items to the       Publication formatting.
4/22/1997                         early stages of the acquisition
                                  process.
98-067, Access Reciprocity        Standardize Special             Decision to transfer primary USD(I)
Between DoD Special               Access Program eligibility      responsibility for Special
Access Programs, 2/10/1998        implementing criteria and       Access Program policy from
                                  develop a centralized SAP       USD(I) to the DoD SAP
                                  database.                       Central
                                                                  Office delayed revisions to
                                                                  and coordination of DoD
                                                                  publications related to man-
                                                                  agement, administration and
                                                                  oversight of SAPs. Funding
                                                                  constraints delay the remain-
                                                                  ing server set installation.
98-124, Department of De-         Implement peer review pro-      Revisions to DoD policy       USD(I)
fense Adjudication                gram and establish continu-     guidance on hold pending
Program, 4/27/1998                ing education standards and a ongoing Reform Initiatives
                                  program for the professional set forth in Executive Order
                                  certification for adjudicators. 13467. Decisions to pursue
                                                                  a new quality review tool
                                                                  underway, pending test-
                                                                  ing results. Extensive time
                                                                  required for coordination and
                                                                  approval of DoD adjudica-
                                                                  tion and certification pro-
                                                                  gram.




100
                                                                                                  Semiannual Report to the Congress
Appendix F




       Report Number                 Description of Action               Reason Action Not           Principle Action Office
         Title/Date                                                         Completed
 99-159, Interservice Avail-      Revise Joint Service Regula-       Lack of management             Army
 ability of Multiservice Used     tion to require consistent         attention.
 Items, 5/14/1999                 item management
                                  wherever economical and
                                  safe. Services provide train-
                                  ing on disposal
                                  authority for multi-service
                                  used items and requirements
                                  related to excess assets quanti-
                                  ties.
 D-2000-111, Security Clear-      Develop criteria and deter-        Revisions to DoD policy        USD(I), DSS
 ance Investigative Priorities,   mine the highest priority          guidance on hold pending
 4/5/2000                         mission-critical and high-         ongoing Reform Initiatives
                                  risk positions based on their      set forth in Executive Order
                                  impact on mission-critical         13467.
                                  programs.
                                  Develop a process for relating
                                  specific clearance requests to
                                  mission-critical and high-risk
                                  positions.
 D-2000-134, Tracking             The current database will          The decision to implement      DSS
 Security Clearance               be modified to retain all          new software, funding con-
 Requests, 5/30/2000              pertinent historical informa-      straints, as well as perform
                                  tion (including dates/times        modifications to an existing
                                  for every occurrence -- e.g.,      system, have delayed imple-
                                  deletions, case type, changes,     mentation of the recommen-
                                  cancellations, duplicates, con-    dation.
                                  versions, reinstatements, etc.)
 D-2001-018, Manage-              Army assumed responsibility        Remaining differences          Army
 ment and Oversight of the        to update Joint Instruction        between Army and Air Force
 DoD Weather Program,             AR 115-10/ AFI 15-157, to          comments have to be re-
 12/14/2000                       require coordination of            solved and incorporated into
                                  meteorological, oceano-            the joint instruction.
                                  graphic, and space weather re-
                                  quirements across all Military
                                  Departments to promote
                                  interoperability and avoid
                                  duplication.
 D-2001-037, Collection and       Develop, test and deploy           Selected system for use as      ASD(HA)
 Reporting of Patient Safety      Patient Safety Reporting           the patient safety reporting
 Data Within the Military         Program.                           program did not
 Health System, 1/29/2001                                            demonstrate to be effective,
                                                                     suitable or survivable for lim-
                                                                     ited deployment. Replace-
                                                                     ment system is
                                                                      being sought.

                                                                                                                           101
October 1, 2008 to March 31, 2009
                                                                                                         Appendices




      Report Number              Description of Action             Reason Action Not             Principle Action Office
        Title/Date                                                    Completed
D-2001-065, DoD               Identify and process addition-   Revisions to DoD policy         DSS, USD(I)
Adjudication of Contractor    al adjudicative resources for    guidance on hold pending
Security Clearances           Defense Industrial Security      ongoing Reform Initiatives
Granted by the                Clearance Office. Establish-     set forth in Executive Order
Defense Security Service,     ment of continuing education     13467.
2/28/2001                     standards to facilitate the
                              certification of professional
                              adjudicators. Issue guidance
                              on professional certification
                              and continuous training pro-
                              gram for all adjudicators.
D-2001-135, Prevalidation of Develop cost-effective auto-      Correction of this material     USD(AT&L)
Intergovernmental Transac-    mated methods to expand          weakness involves a long-
tions, 6/6/2001               prevalidation.                   term effort.
D-2001-141, Allegations       Amend DoD 5200.2-R to            Delays continue in prepara-     USD(I)
to the Defense Hotline on     address security investigation   tion and coordination of
the Defense Security Assis-   requirements for foreign na-     DoD guidance due to
tance Management System,      tional contractor employees.     current Reform Initiatives.
6/19/2001
D-2001-153, Pentagon          Develop processes to identify    Implementation has been de- WHS
Reservation Maintenance       the appropriate construction     layed by higher management
Revolving Fund, 7/2/2001      costs to be used in transfer-    priorities.
                              ring completed projects from
                              the construction in progress
                              account to the real property
                              accounts.
D-2001-158, Compilation of Management will establish an        Implementation has been de- DFAS
the FY 2000 Army General      action plan to meet revised      layed by higher management
Fund Financial Statements     requirements for reconciling     priorities.
at the Defense Finance and    suspense
Accounting Service India-     accounts.
napolis (Sustaining Forces),
7/13/2001
D-2001-170, U.S. Transpor- Develop system changes to           Implementation has been de- TRANSCOM
tation Command’s              differentiate among              layed by higher management
Reporting of Property, Plant, USTRANSCOM, Air Mobil-           priorities.
and Equipment                 ity Command, and Defense
Assets on the FY 2000 DoD Courier Service assets. Create
Agency-wide Financial State- electronic interfaces between
ments, 8/3/2001               the logistics and the account-
                              ing systems for transferring
                              data.




102
                                                                                              Semiannual Report to the Congress
Appendix F




       Report Number                Description of Action          Reason Action Not        Principle Action Office
         Title/Date                                                   Completed
 D-2002-004, Import Process- Revise USFK Regulation           Delays caused by person-     USFK
 ing of DoD Cargo Arriving   55-72 to update requirements     nel turnover and competing
 in the Republic of Korea,   and implement a cost-effi-       management priorities.
 10/4/2001                   cient system for the auto-
                             mated processing of customs
                             forms using an electronic data
                             exchange.
 D-2002-010, Armed Ser-      Establish a plan, controls,      Extended time needed to      Army, AF, ASD(HA)
 vices Blood Program Defense assessment requirements          FDA approval for upgrade
 Blood Standard System,      and training related to the      and deployment of the up-
 10/22/2001                  Defense Blood Standard Sys-      graded DBSS system.
                             tem upgrade. Also, establish
                             procedures to
                             ensure effective deployment
                             of those DBSS upgrades.
 D-2002-024, Navy Fleet      Report is classified.            Corrective actions are       Navy, PACOM
 Hospital Requirements (U),                                   delayed by changing
 12/12/2001                                                   requirements. Navy is
                                                              awaiting requirements from
                                                              PACFLT.
 D-2002-073, Financial          Use transactional data from a Slow system development      DFAS
 Management Ending Bal-         centralized database to popu- process.
 ance Adjustments to General    late general ledger accounts
 Ledger Data for the Army       in the Defense Departmental
 General Fund, 3/27/2002        Reporting System Budget-
                                ary and continue efforts to
                                analyze and correct causes
                                for current adjustments; Use
                                transactional data to generate
                                a general ledger data file for
                                DDRS Budgetary.
 D-2002-075, Controls Over      Strengthen controls to modify Corrective action requires   USD(AT&L)
 the DoD Purchase Card          contract with banks to pre-    long-term development of
 Program, 3/29/2002             vent accounts from being       risk-assessment tools.
                                reopened after notification to
                                close, and
                                provide reports on oversight
                                reviews.




                                                                                                                  103
October 1, 2008 to March 31, 2009
                                                                                                         Appendices



      Report Number               Description of Action            Reason Action Not             Principle Action Office
        Title/Date                                                    Completed
D-2002-091, Accountability     Comply with guidance for        Lack of management              Army
and Control of Materiel at     storage of maintenance          attention.
the Corpus Christi Army        materiel and the preparation
Depot, 5/21/2002               and submission of manage-
                               ment reports for review; per-
                               form annual physical inven-
                               tory and quarterly reviews of
                               materiel.
D-2002-117, Review of FY       Report is classified.           Extensive time needed for       DIA
2001 Financial Statement                                       system development.
for the Defense Intelligence
Agency (U), 6/25/2002
D-2002-122, Environmental   Develop a more detailed            Delays were caused by broad- USD(P&R)
Community Involvement       DoD instruction on Sustain-        ening the scope of the draft
Program at Test and Trainingable Ranges Outreach. Con-         instruction, extensive revi-
Ranges, 6/28/2002           tinue work on implementa-          sions and coordination issues.
                            tion of the new Directive
                            and development of the new
                            instruction.
D-2002-140, Measurement     Establish and implement            Initial delays were caused    WHS
of Water Usage by DoD       procedures to verify that the      by technical difficulties and
Components Serviced by the DCWASA routinely inspects           contract issues. The reasons
DC Water and Sewer Service, and reports results of inspec-     for recent delays are un-
8/20/2002                   tions for DoD-owned water          known because WHS did not
                            meters; develop and imple-         provide an update.
                            ment effective controls and
                            procedures to verify that the
                            DCWASA accurately reads
                            water meters; establish and
                            implement a maintenance
                            program.
D-2003-001, DoD Integrat- Develop integrated natural           The remaining Army plan         Army
ed Natural Resource Manage- resource management plans          was previously on hold
ment Plans, 10/1/2002       for military installations and     pending the resolution of an
                            coordinate the plans with the      internal disagreement within
                            other Federal and State agen-      the U.S. Fish and Wildlife
                            cies involved in the process.      Service. Current delays are
                                                               due to contracting and coor-
                                                               dination issues.
D-2003-018, Validity of        Establish procedures to with-   Action is being taken by        DFAS
Registration in the Central    hold payments to contractors    management to implement
Contractor Registration Da-    and vendors until they are      a manual, rather than an
tabase, 10/30/2002             properly registered with a      automated, solution.
                               valid Tax Identification Num-
                               ber in the CCR database.


104
                                                                                              Semiannual Report to the Congress
Appendix F



       Report Number                Description of Action           Reason Action Not          Principle Action Office
         Title/Date                                                    Completed
 D-2003-056, Public/Private     AT&L is working with OMB Long-term corrective                 USD(AT&L)
 Competition for the Defense    to address any overhead         actions are on schedule.
 Finance and                    ambiguities in OMB Circular
 Accounting Service Military    A-76, proposing additional
 Retired and Annuitant Pay      guidance to clarify costing
 Functions, 3/21/2003           policies, and providing defini-
                                tions for direct and indirect
                                costs as well as a revised
                                definition for overhead.
 D-2003-073, Reliability of     Report is classified.           Extensive time needed for     NGA
 the FY 2002 National Im-                                       system development.
 agery and Mapping Agency
 Financial Statements and Ad-
 equacy of Related Procedures
 and Controls (U), 4/2/2003
 D-2003-074, Reliability of     Report is classified.           Long term corrective          DIA
 the FY 2002 Defense Intel-                                     actions are in process.
 ligence Agency Financial
 Statements and Adequacy
 of Related Procedures and
 Controls (U), 4/7/2003
 D-2003-106, Administra-        The Director, Defense           Corrective actions are on     USD(AT&L)
 tion of Performance-Based      Procurement and Acquisi-        schedule. Normal time
 Payments Made to Defense       tion Policy, will conduct an    required to update the FAR
 Contractors, 6/25/2003         assessment of the benefits of   and DFARS.
                                expanded performance-based
                                payments implementation.
                                It will address contracting
                                officer compliance with FAR
                                Part 32.10, and whether any
                                changes are needed to those
                                policies, the Performance-
                                Based Payments User’s Guide,
                                or training resources.
 D-2003-110, Information        System enhancements to          Extended time needed to de-   USD(P&R)
 Technology Management:         correct deficiencies are in     velop system enhancements.
 Defense Civilian Personnel     process.
 Data System Functional-
 ity and User Satisfaction,
 7/27/2003




                                                                                                                     105
October 1, 2008 to March 31, 2009
                                                                                                             Appendices



      Report Number               Description of Action              Reason Action Not               Principle Action Office
        Title/Date                                                      Completed
D-2003-128, The Chemical       Issue policy to specify Army      Extended time required to         USD(AT&L)
Demilitarization               authorities and responsibili-     obtain and review Army’s
Program: Increased Costs for   ties as DoD’s Executive Agent     proposed implementation
Stockpile and Non-Stockpile    for the                           plan for DoD.
Chemical                       Recovered Chemical Warfare
Disposal Programs, 9/4/2003    Materiel Program.
D-2003-133, Report on          Emphasize the importance of       Extensive time required for       USD(C), DFAS
Controls Over DoD Closed       controls over the use of closed   changes to financial policies.
Appropriations, 9/15/2003      appropriations and monitor
                               compliance with applicable
                               laws and regulations. DFAS
                               establish
                               specific standard procedures
                               to ensure that
                               accounting personnel
                               approve only legal and proper
                               adjustments to closed appro-
                               priations, validate the can-
                               celed balances and report any
                               potential Antideficiency Act
                               violations.
04-INTEL-02, DoD Secu-         Disparities between the con-      Extensive time required to     USD(I)
rity Clearance Adjudication    tractor and military/civilian     update DoD Regulations.
and Appeals Process (U),       personnel adjudicative process    Revisions to DoD policy
12/12/2003                     will be eliminated with the       guidance on hold pending
                               pending revision to the DoD       ongoing Reform Initiatives
                               Regulation 5200.2-R.              set forth in Executive Order
                                                                 13467.
D-2004-007, Force Protec-      Report is classified.             Army and USMC are in pro- Army, MC
tion in the Pacific Theater                                      cess of updating their guid-
(U), 10/14/2003                                                  ance based on DoD guidance
                                                                 published on 10/30/06 and
                                                                 incorporation of other related
                                                                 changes.




106
                                                                                                  Semiannual Report to the Congress
Appendix F




       Report Number                Description of Action                Reason Action Not             Principle Action Office
         Title/Date                                                         Completed
 D-2004-008, Implementa-         Update Army Regulations             Coordination on issuance of      Army
 tion of Interoperability and    70-1and 71-9 to require             numerous related guidance
 Information Assurance Poli-     combat developers to identify       continues.
 cies for Acquisition of Army    interoperability and sup-
 Systems, 10/15/2003             portability requirements in
                                 requirements documents
                                 and update the requirements
                                 throughout the life of the
                                 systems, as necessary, in ac-
                                 cordance with DoD Directive
                                 4630.5 and to require pro-
                                 gram managers to obtain the
                                 Joint Staff J6 certifications for
                                 interoperability in accordance
                                 with Chairman of the Joint
                                 Chiefs of Staff Instruction
                                 6212.01B.
 D-2004-012, Sole-Source         Report is FOUO.                     Lack of management               Army
 Spare Parts Procured From                                           emphasis.
 an Exclusive Distributor,
 10/16/2003
 D-2004-034, Environment:        Clarify requirements for            The Corps’ guidance update       Army
 Defense Hotline Allegations     internal assessments.               was put on hold pending
 Regarding the Environmental                                         the revision of a higher level
 Compliance Assessment Pro-                                          Army regulation, but is cur-
 cess at U.S. Army Corps of                                          rently on track for publica-
 Engineers, Portland District,                                       tion by October 31, 2009.
 12/4/2003
 D-2004-047, Implementa-     Program Managers will be                Extensive time required for  Army
 tion of the DoD Manage-     able to store acquisition               coordination and publication
 ment Control Program for    documents in Virtual Insight            of DoD document.
 Army Category II and III    so the Milestone Decision
 Programs, 1/23/2004         Authority can
                             review document status from
                             development to document
                             approval. Army Regulations
                             will be updated to reflect new
                             reporting procedures.
 D-2004-053, Defense Threat Develop detailed guidance on             Extensive time required to       WHS
 Reduction Agency Relocation what should be considered               coordinate and issue guid-
 Costs, 2/19/2004            when determining whether                ance.
                             the relocation cost cap in
                             section 8020 of the FY 2004
                             Appropriation Act has been,
                             or will be, exceeded.



                                                                                                                             107
October 1, 2008 to March 31, 2009
                                                                                                           Appendices




      Report Number               Description of Action             Reason Action Not             Principle Action Office
        Title/Date                                                     Completed
D-2004-061, Export Con-        Ensure incorporation of ap-      Extensive time required to      USD(P), USD(AT&L)
trols: Export Controlled       propriate export compliance      coordinate and issue policy
Technology at Contractor,      clauses into solicitations and   guidance.
University and Federally       contracts.
Funded Research and
Development Center
Facilities, 3/25/2004
D-2004-063, Financial          Improve the financial            Implementation has been de- Army
Management: Controls Over      accountability for buildings     layed by higher management
U.S. Army Corps of Engi-       and other structures owned       priorities.
neers Buildings and Other      by USACE.
Structures, 3/26/2004
D-2004-065, DoD Imple-         Revise Voting Assistance         Publication of AF Instruction AF
mentation of the               Program guidance to reflect      was delayed to include pend-
Voting Assistance Program,     recent changes to DoD guid-      ing revision of DoD guid-
3/31/2004                      ance. Improve monitoring of      ance and then other related
                               voting assistance program and    guidance.
                               training of service members
                               and spouses.
D-2004-079, Reliability        Report is classified.            Long term corrective            DIA
of the Defense Intelligence                                     actions are in process.
Agency FY 2003 Financial
Statements (U), 4/29/2004
D-2004-080, Environmental      Implement guidance to            Normal time to develop and USD(AT&L)
Liabilities Required to be     improve the development,         implement new guidance and
Reported on                    recording, and reporting of      procedures.
Annual Financial Statements,   environmental liabilities.
5/5/2004
D-2004-087, Health Care:       ASD (HA), in coordination        Extended time needed for        Army, AF
DoD Management of Phar-        with the Military Surgeons       update of Air Force publica-
maceutical Inventory and       General, develop standard        tion.
Processing of Returned Phar-   policies and procedures for
maceuticals, 6/17/2004         pharmaceutical inventory
                               management at the Military
                               Treatment Facilities and also
                               require MTFs to use a phar-
                               maceutical returns company.
D-2004-099, Reliability of     Report is classified.            Long term corrective            NSA
National Security Agency FY                                     actions are in process.
2003 Financial Statements
(U), 7/15/2004




108
                                                                                               Semiannual Report to the Congress
Appendix F



       Report Number                Description of Action            Reason Action Not           Principle Action Office
         Title/Date                                                     Completed
 D-2004-104, Purchase Card    Recommended actions are            Extensive time needed to       Army
 Use and Contracting Actions  designed to provide guid-          revise guidance.
 at the U.S. Army Corps of    ance and strengthen controls
 Engineers, Louisville District,
                              over use of the Government
 7/27/2004                    Purchase Card at the Louis-
                              ville District and at USACE
                              Headquarters levels.
 D-2004-118, Army Gen-        Update the DoD FMR to              Lack of management             USD(C), DFAS
 eral Fund Controls Over      require the disclosure of unre-    emphasis; slow system devel-
 Abnormal Balances for        solved abnormal balances for       opment process.
 Field Accounting Activities, all proprietary and budgetary
 9/28/2004                    general ledger accounts in
                              the footnotes to the financial
                              statements. Identify abnor-
                              mal conditions impacting
                              both budgetary and propri-
                              etary account balances; notify
                              accounting activities of
                              abnormal proprietary
                              balances and require
                              explanations of corrective
                              actions; and resolve abnormal
                              balances in the budgetary
                              accounts.
 D-2005-020, Defense          DLA is identifying cost sav-       Normal time needed to          DLA
 Logistics Agency Processing  ings realized as a result of the   determine the full scope of
 of Special Program Require- DLA Customer                        realized monetary benefits.
 ments, 11/17/2004            Collaboration project.
 D-2005-022, Financial Man- The contract has been logged         Closeout work continues.       DFAS
 agement: Contract Classified and assigned to a contractor
 as Unreconcilable by the De- supporting the Commercial
 fense Finance and Account-   Pay Services Contract Recon-
 ing Service, 12/2/2005       ciliation office for reconcilia-
                              tion. Based on the reconcili-
                              ation, recovery actions will
                              be initiated for any identified
                              overpayments made to the
                              contractor.




                                                                                                                       109
October 1, 2008 to March 31, 2009
                                                                                                        Appendices



      Report Number               Description of Action             Reason Action Not           Principle Action Office
        Title/Date                                                     Completed
D-2005-028, DoD Work-          Establish minimum training       Delays have been due to         USD(AT&L)
force Employed to Conduct      standards for competition        litigation, additional standard
Public Private Competitions    officials and DoD functional     competitions, and guidance
Under the DoD Competitive      and technical experts assigned   development.
Sourcing Program, 2/1/2005     to work on public-private
                               competitions, and advise the
                               DoD component competitive
                               sourcing officials concerning
                               defining and documenting
                               minimum
                               education and/or
                               experience requirements.
D-2005-046, Financial          Correct the identified           DBO needs to confirm that     Army
Management: Independent        errors and perform a review      USACE has taken
Examination of the Rights to   of other leased and trans-       appropriate corrective
U.S. Army Corps of Engi-       ferred structures for similar    actions.
neers Buildings and Other      types of rights errors; review
Structures, 3/25/2005          and update policies and
                               procedures to prevent future
                               errors; and provide and docu-
                               ment training to consistently
                               implement the new policies
                               and procedures.
D-2005-051, Independent        USACE will establish an          Corrective actions are        Army
Examination of the Land As-    oversight process that pro-      on-going.
sets at the U.S. Army Corps    vides periodic reviews by
of Engineers, Civil Works,     Civil Works headquarters of
4/6/2005                       land asset transactions at the
                               activity level.
D-2005-054, Audit of the       Report is FOUO.                  Coordination is ongoing to    ASD(NII)
DoD Information Technol-                                        promulgate three policies.
ogy Security Certification
and Accreditation Process,
4/28/2005
D-2005-074, Support for        Report is classified.            Corrective actions are        NSA
Reported Obligations for the                                    being implemented.
National Security Agency
(U), 6/28/2005
D-2005-093, Information        Report is FOUO.                  Corrective actions are on     DFAS, DISA, Army
Technology Management:                                          schedule.
Technical Report on the
Standard Finance System,
8/17/2005




110
                                                                                             Semiannual Report to the Congress
Appendix F




       Report Number                Description of Action           Reason Action Not           Principle Action Office
         Title/Date                                                    Completed
 D-2005-096, DoD                DoD is establishing new       Corrective actions are          USD(AT&L), USD(C)
 Purchases Made Through the     policies and revising the DoD on-going
 General Services               FMR to improve intergov-
 Administration, 7/29/2005      ernmental transactions, the
                                use of Military Departmental
                                Purchase Requests, and as-
                                sisted acquisitions.
 D-2005-097, Auditability       Report is classified.         Corrective actions are being    DIA
 Assessment of the Financial                                  implemented.
 Statements for the Defense
 Intelligence Agency (U),
 8/18/2005
 D-2005-103, Develop-           Develop new controls and       Corrective actions are         Navy
 ment and Management of         fully implement existing       on-going.
 the Army Game Project,         controls to ensure that all
 8/24/2005                      resources are safeguarded;
                                and revise Navy guidance on
                                accountability over pilferable
                                property to be consistent with
                                the DoD guidance.
 D-2006-003, Security Con-      Report is FOUO.                Extended time required for     Army, Navy, AF, USD(I),
 trols Over Selected Military                                  revision and coordination of   ASD(HA)
 Health System Corporate                                       guidance.
 Database, 10/7/2005
 D-2006-007, Contracts          The DCAA will conduct an        Normal time for DCAA to       Army
 Awarded to Assist the Global   audit of costs of task orders   plan and conduct a review.
 War on Terrorism by the U.S.   awarded under Contract No.
 Army Corps of Engineers,       DACA78 03 D0002.
 10/14/2005
 D-2006-009, Independent        The U.S. Army Corps of         Corrective actions are on      Army
 Examination of Valuation       Engineers is updating policy schedule.
 and Completeness of U.S.       and procedures, assessing sys-
 Army Corps of Engineers,       tem changes to the Corps of
 Buildings and Other Struc-     Engineers Financial Manage-
 tures, 9/28/2005               ment System, and working to
                                correct data accuracy defi-
                                ciencies through new regional
                                assessment teams.




                                                                                                                        111
October 1, 2008 to March 31, 2009
                                                                                                     Appendices



      Report Number               Description of Action           Reason Action Not          Principle Action Office
        Title/Date                                                   Completed
D-2006-010, Contract Sur-      The Army will develop          Normal time to develop and Army
veillance for Service Con-     management controls to         implement new guidance and
tracts, 10/28/2005             ensure contract surveillance   procedures.
                               is adequately performed and
                               documented. Of 15 recom-
                               mendations contained in the
                               report, 14 of the recommen-
                               dations have been imple-
                               mented and are complete.
D-2006-026, Air Force Op-      Report is classified.          Implementation is moving      AF
erational Mobility Resources                                  forward now that the
in the Pacific Theater (U),                                   necessary guidance has been
11/17/2005                                                    published.
D-2006-028, DoD                Revise DoD guidance to         Normal time to review, revise USD(AT&L)
Reporting System for the       improve accounting of          and implement new guid-
Competitive Sourcing Pro-      transition costs, tracking and ance.
gram, 11/22/2005               reporting competition costs,
                               validating and
                               reviewing records, capturing
                               contractors’ past performance
                               information, and tracking
                               and monitoring the perfor-
                               mance of MEOs.
D-2006-030, Report on          Report is FOUO.                Corrective actions are on    DISA
Diagnostic Testing at the                                     schedule.
Defense Information Systems
Agency, Center for Comput-
ing Services, 11/30/2005
D-2006-031, Report on          Report is FOUO.                Corrective actions are on    DISA
Penetration Testing at the                                    schedule.
Defense Information Systems
Agency, Center for Comput-
ing Services, 11/30/2005
D-2006-039, Internal           The USD(C) will update the Report had been in media-        USD(C), DFAS
Controls Over the Com-         FMR and DFAS will rescind tion and has been recently
pilation of the Air Force,     an old instruction and update resolved.
General Fund, Fund Balance     and formalize other SOPs to
With Treasury for FY 2004,     improve internal controls over
12/22/2005                     the compilation of the Air
                               Force, General Fund, Fund
                               Balance with Treasury.




112
                                                                                          Semiannual Report to the Congress
Appendix F



       Report Number                Description of Action           Reason Action Not        Principle Action Office
         Title/Date                                                    Completed
 D-2006-041, Operational        Report is Classified.         Corrective actions were ini-  Army, USFK, MC
 Mobility: Gap-Crossing                                       tially delayed due to changes
 Resources for the Korean                                     in force structure in Korea
 Theater, 12/26/2005                                          and a new
                                                              commander. Actions are now
                                                              on schedule.
 D-2006-042, Security Status    Ensure information in DoD Examinations of the IT            ASD(NII)
 for Systems Reported in        information technology data- compliancy processes contin-
 DoD Information Technol-       base is accurate and complete ue; to streamline them and
 ogy Databases, 12/30/2005                                    ensure maximum
                                                              accuracy of information.


 D-2006-043, Financial Man-     Establish procedures to en-     Management corrective ac-   Army
 agement:                       sure the appropriate funding    tions on schedule.
 Report on Army Manage-         of the Army Game Project,
 ment of the Army Game          determine if there have been
 Project Funding, 1/6/2006      any Antideficiency Act viola-
                                tions and report any such
                                violations, as required.
 D-2006-046, Technical          Report is FOUO.                 Corrective actions are on   USD(AT&L)
 Report on the Defense Prop-                                    schedule.
 erty Accountability System,
 1/27/2006
 D-2006-050, Report on Ac-    Cross SYSCOM Lean Six             Corrective actions are on   Navy
 curacy of Navy Contract Fi-  Sigma black belt project is       schedule.
 nancing Amounts, 2/7/2006    being completed that will
                              include an end-to-end
                              review of the disbursements
                              process.
 D-2006-053, Select Controls Update the Ground Based            Long-term corrective        MDA
 for the Information Security Midcourse Defense                 actions are on schedule.
 of the Ground-Based Mid-     Communications Network
 course Defense Communica- configuration to include:
 tions Network, 2/24/2006     Automated monitoring of the
                              unencrypted and encrypted
                              communications and moni-
                              toring systems; and Indi-
                              vidual user
                              passwords to access the un-
                              encrypted communications
                              system.




                                                                                                                   113
October 1, 2008 to March 31, 2009
                                                                                                           Appendices



      Report Number                 Description of Action              Reason Action Not           Principle Action Office
        Title/Date                                                        Completed
D-2006-054, DoD Process         The USD(C) is developing           Corrective actions are        USD(C), Army, Navy, AF
for Reporting Contingent        a forum to address develop-        generally on schedule.
Legal Liabilities, 2/24/2006    ment of solutions for provid-
                                ing meaningful assessments
                                of contingent legal liabilities,
                                and develop and implement a
                                uniform methodology for
                                estimating, aggregating, and
                                reporting them. The Ser-
                                vices are working to ensure
                                that “Other Liabilities” and
                                contingent liabilities are fully
                                supported and appropriately
                                disclosed.
D-2006-055, Spare Parts         The DLA will issue guidance        Corrective actions are        DLA
Procurements From Trans-        to strengthen contracting          on-going.
Digm, Inc., 2/23/2006           policies and procedures and
                                training.
D-2006-056, Financial Man- The Air Force will conduct              Normal time to revise and  AF
agement: Report on Vendor       reviews of potential ADA           implement new guidance and
Pay Disbursement Cycle, Air violations, review and revise          training.
Force General Fund: Con-        existing policy guidance and
tract Formation and Fund-       training.
ing, 3/6/2006
D-2006-057, Corrective Ac- Report is classified.                   Corrective actions are on     NGA
tions for Previously Identified                                    schedule.
Deficiencies
Related to the National
Geospatial-Intelligence
Agency Financial Statements
(U), 2/28/2006
D-2006-060, Systems             Report is FOUO.                    Significant organizational    MDA
Engineering Planning for the                                       changes have delayed issu-
Ballistic Missile                                                  ance of policy. Continued
Defense System, 3/2/2006                                           system development on hold
                                                                   pending results of planned
                                                                   test.
D-2006-061, Source Selec-        Report is FOUO.                   Corrective actions are on     USD(AT&L)
tion Procedures for the Navy                                       schedule.
Construction Capabilities,
3/3/2006




114
                                                                                                Semiannual Report to the Congress
Appendix F



       Report Number                Description of Action           Reason Action Not           Principle Action Office
         Title/Date                                                    Completed
 D-2006-062, Internal Con-    Improve internal controls         Corrective actions of this     AF
 trols Over Compiling and     over the compilation and          material weakness involves a
 Reporting Environmental      reporting of cost-to-complete     long-term effort.
 Liabilities Data, 3/15/2006  estimates for environmental
                              liabilities.
 D-2006-063, Financial Man- Perform reviews and                 Required coordination efforts DFAS
 agement: Report on Internal reconciliations of uncleared       for discontinued research are
 Controls Over Department     transactions, ensure              taking longer than expected.
 Expenditure Operations at    appropriate resolution, and
 Defense Finance and Ac-      enforce applicable DoD FMR
 counting Service Indianapo- policy.
 lis, 3/10/2006
 D-2006-071, Acquisition:     Finalize and approve              Extensive time needed to es- STRATCOM, MDA
 Capabilities Definition Pro- mutually supportive directives    tablish policy and implement
 cess at the Missile          outlining each organizations      changes to directives.
 Defense Agency, 4/5/2006     roles and responsibilities with
                              respect to capability-based
                              requirements.
 D-2006-072, Internal Con- The Department is working            Corrective actions and efforts Army, Navy, AF,
 trols Related to             to improve internal controls      to verify corrective actions are USD(AT&L), USD(C)
 Department of Defense Real at the installation level for       on-going.
 Property, 4/6/2006           real property offices. The Air
                              Force is working to: identify
                              which FY they can prove
                              existence, completeness, and
                              valuation and use that FY as
                              their baseline for real prop-
                              erty; and maintain an audit
                              trail that supports the real
                              property values reported on
                              the financial statements.
 D-2006-073, Human Capi- Develop and implement writ-            Completion has been delayed USD(AT&L)
 tal: Report on the DoD Ac-   ten standard operating proce-     due to the extensive nature
 quisition Workforce Count, dures and guidance for count-       of supporting initiatives and
 4/17/2006                    ing the acquisition workforce     changes involved in imple-
                              to include definitions of         menting these recommenda-
                              workforce count and meth-         tions. This is the first major
                              odologies and procedures          data management improve-
                              used to perform periodic          ment effort since the 1991
                              counts, and requirements to       Defense Acquisition Work-
                              maintain and support related      force Improvement Act.
                              documentation. Revise DoD
                              guidance to update informa-
                              tion requirements for auto-
                              mated data files.



                                                                                                                      115
October 1, 2008 to March 31, 2009
                                                                                                           Appendices



      Report Number              Description of Action              Reason Action Not              Principle Action Office
        Title/Date                                                     Completed
D-2006-077, DoD               Updating policies for the         Revisions to DoD policy      USD(I), DISA, AF
Security Clearance Process    DoD Personnel Security            guidance on hold pending
at Requesting Activities,     Clearance Program to              ongoing Reform Initiatives
4/19/2006                     include various informa-          set forth in Executive
                              tion including program            Order 13467. Other service
                              management and investiga-         issuances are dependent upon
                              tive responsibilities, security   that updated version of that
                              clearance systems, submission     Regulation.
                              processes, types and levels of
                              security clearances, and train-
                              ing requirements for security
                              personnel.
D-2006-078, Information       Report is FOUO.                   Recommended language was         ASD(NII)
Systems Security: Defense                                       included in
Information Systems Agency                                      DoDI 5000.02. Awaiting
Encore II Information Tech-                                     subsequent revisions to
nology Solutions Contract,                                      additional guidance. New
4/21/2006                                                       estimated completion date is
                                                                July 2009.
D-2006-079, Review of         Update Business Systems           New deployment schedule          DLA
the Information Security      Modernization Energy (Fuels       developed because of
Operational Controls of the   Automated System) plan of         delays caused by the military
Defense Logistics Agency’s    action and milestones to in-      services’ internal coordina-
Business Systems Moderniza-   clude all security weaknesses     tion processes.
tion-Energy, 4/24/2006        based on the current system
                              configuration.
D-2006-080, Use of            Identify practices, processes, Lack of management atten-           USD(AT&L)
Environmental Insurance by    and strategies for effectively   tion in fully implementing
the Military Departments,     using environmental insur-       corrective actions.
4/27/2006                     ance; establish milestones for
                              issuing overarching guidance
                              on the Department’s position
                              on the use of environmental
                              insurance; establish a process
                              to evaluate whether DoD
                              is achieving the anticipated
                              benefits of risk reduction, cost
                              savings, timely completion of
                              cleanup projects, and in-
                              creased used of performance-
                              based contracting for envi-
                              ronmental cleanup services, as
                              it relates to
                              environmental insurance.




116
                                                                                                Semiannual Report to the Congress
Appendix F



       Report Number                Description of Action           Reason Action Not         Principle Action Office
         Title/Date                                                    Completed
 D-2006-081, Financial         Report is Classified.            Corrective actions are on    NSA
 Management: Recording and                                      schedule.
 Reporting of Transactions by
 Others for the National Secu-
 rity Agency, 4/26/2006
 D-2006-083, Report on In- Report is Classified.                Corrective actions are on    JS, STRATCOM, USD (I)
 formation Operations in U.S.                                   schedule for JS and USD(I).
 European Command (U),                                          STRATCOM actions
 5/12/2006                                                      have been delayed due to a
                                                                changed focus in the perfor-
                                                                mance of advocacy activities
                                                                from Information Operations
                                                                to Cyber.
 D-2006-085, Vendor Pay         The Air Force will              Corrective actions are on    AF
 Disbursement Cycle, Air        strengthen internal controls    schedule
 Force General Fund: Funds      on the coordinated efforts of
 Control, 5/15/2006             receiving officials, resource
                                managers, and funds hold-
                                ers who oversee the status of
                                funds.
 D-2006-086, Information        Report is FOUO.                 Corrective actions are on    DISA
 Technology Management:                                         schedule.
 Report on General and Ap-
 plications Controls at the
 Defense Information Systems
 Agency, Center for Comput-
 ing Services, 5/18/2006
 D-2006-087, Acquisition:     Report is FOUO.                   Change in requirements and   Army
 Acquisition of the Objective                                   competing priorities.
 Individual Combat Weapon
 Increments II and III,
 5/15/2006
 D-2006-096, Information      Report is FOUO.                   Long-term corrective         MDA
 Technology Management:                                         actions are on schedule.
 Select Controls for the
 Information Security of the
 Command and the Control
 Battle Management Commu-
 nications System, 7/14/2006




                                                                                                                     117
October 1, 2008 to March 31, 2009
                                                                                                             Appendices



      Report Number               Description of Action             Reason Action Not                Principle Action Office
        Title/Date                                                     Completed
D-2006-100, Procurement       The Air Force will                Extensive time required to         AF
Procedures Used for Next      develop a plan to improve the     coordinate the transition
Generation Small Loader       collection, analysis, and re-     from ICS to CLS and
Contracts, 8/1/2006           porting of maintenance data       issue the basing plan
                              for the Halvorsen fleet; and      review results for all loaders.
                              transition from a base level
                              funded sustainment construct
                              to ICS, and then to a CLS
                              contract to improve readiness.
                              Also, the Air Force agreed to
                              review the basing plan for all
                              loaders to ensure
                              optimum usage, and ensure
                              that future FAR Part 12 and
                              Part 15 acquisitions adequate-
                              ly meet
                              operational requirements.
D-2006-101, Acquisition:      Complete a thorough BCA           Extensive time required to         AF
Procurement Procedures        that evaluates multiple           complete a Business Case
Used for C-17 Globemaster     sustainment options for the       Analysis and issue revised
III Sustainment Partner-      C-17 Globemaster III              policy guidance.
ship Total System Support,    aircraft. Also, develop
7/21/2006                     policy that will require future
                              Air Force public-
                              private partnership contracts
                              to identify the resources being
                              procured with private invest-
                              ment.
D-2006-106, Allegations       Issue guidance to mitigate        Delays continue due to      AF
Concerning                    frequency interference risks      personnel and procedural
Mismanagement of the Aerial and emphasize Joint Tacti-          changes and re-combinations
Targets Program, 8/4/2006     cal Radio System reporting        of guidance documents.
                              requirements.
D-2006-107, Defense           Report is FOUO.                   Corrective actions are on          USD(AT&L), DTSA
Departmental Reporting                                          schedule.
System and Related
Financial Statement Com-
pilation Process Controls
Placed in Operation and
Tests of Operating Effective-
ness for the Period October
1, 2004, through March 31,
2005, 8/18/2006




118
                                                                                                  Semiannual Report to the Congress
Appendix F



       Report Number                Description of Action           Reason Action Not           Principle Action Office
         Title/Date                                                    Completed
 D-2006-108, Providing         AT&L will establish a            Corrective actions are on   USD(AT&L), USD(C),
 Interim Payments to Con-      Defense Federal Acquisition      schedule. Normal time re-   DFAS
 tractors in Accordance With   Regulation Supplement case       quired to update the DFARS.
 the Prompt Payment Act,       to evaluate the costs and
 9/1/2006                      benefits of revising the DoD
                               policy of paying cost reim-
                               bursable service contracts on
                               an accelerated basis(14 days).
                               Also, the USD (C) will revise
                               the DoD Financial Manage-
                               ment Regulation, Volume 10,
                               Chapter 7, entitled “Prompt
                               Payment Act”, to reflect the
                               list of contract financing
                               payments identified in the
                               Federal Acquisition Regula-
                               tions, Part 32.001.
 D-2006-111, Expanded          Revise contingency-related       Extensive time required to     USD(AT&L), AF, DISA
 Micro-Purchase Authority for purchase card guidance and        coordinate and issue policy.
 Purchase Card Transactions    improve efforts to
 Related to Hurricane Katrina, disseminate and implement
 9/27/2006                     guidance. Also, establish a
                               robust oversight presence
                               and significantly strengthen
                               internal controls to mitigate
                               the risk of fraud, waste, and
                               abuse.




                                                                                                                      119
October 1, 2008 to March 31, 2009
                                                                                                      Appendices



      Report Number             Description of Action            Reason Action Not            Principle Action Office
        Title/Date                                                  Completed
D-2006-114, Budget Execu-  Develop and execute SOPs          Long-term corrective           DFAS
tion Reporting at Defense  to: record and report             action on schedule.
Finance and Accounting Ser-obligations incurred against
vice Indianapolis, 9/25/2006
                           category codes that are con-
                           sistent with the apportion-
                           ment category codes; adjust
                           the amounts submitted to
                           the Treasury and reported on
                           the Army Report on Budget
                           Execution and Budgetary
                           Resources; perform a quar-
                           terly reconciliation on those
                           amounts; notify the Treasury
                           when amounts on the OMB
                           Report on Budget Execution
                           and Budgetary Resources are
                           not accurate; and disclose the
                           existence of material unrec-
                           onciled differences in budget
                           execution data as part of the
                           footnote disclosures to the
                           Army financial statements.
D-2006-115, Acquisition:   DoD is in the process of clari-   Extensive time required for    USD(AT&L)
Commercial Contracting for fying the term “Commercial        approval process to update
the Acquisition of         Item” in appropriate DoD          DoD guidance.
Defense Systems, 9/29/2006 guidance.
D-2006-117, American Forc- Update DoD Regulation             Guidance update delayed      ASD(PA)
es Network Radio Program- 5120.20-R to provide writ-         by BRAC consolidation of
ming Decisions, 9/27/2006  ten policies, controls, and       American Forces Information
                           procedures for the radio pro-     Service and internal com-
                           gramming decision-making          munications functions of the
                           process.                          services.
D-2006-118, Financial      Processing the closeout of        USD (C) actions contingent USD(C), NORTHCOM
Management: Financial      Hurricane Katrina mission         on revision of ASD (HD)
Management of Hurricane    assignments and return of         guidance; corrective actions
Katrina Relief Efforts at  reimbursable funding author-      predicated upon actions by
Selected DoD Components, ity to the Federal Emergency        outside agencies.
9/27/2006                  Management Agency. Revise
                           DoD FMR to reflect changes
                           in financial management
                           responsibilities.
D-2006-123, Program Man- Report is FOUO.                     Change in requirements and     Army
agement of the Objective                                     competing priorities.
Individual Combat Weapon
Increment I, 9/29/2006



120
                                                                                           Semiannual Report to the Congress
Appendix F



       Report Number                Description of Action            Reason Action Not           Principle Action Office
         Title/Date                                                     Completed
 D-2007-002, Logistics: Use     Revise DoDD 3025.1, Mili-        Normal time needed for         ASD(HD)
 of DoD Resources               tary Support to Civil Author-    implementation of recom-
 Supporting Hurricane           ities, to identify ASD (HD)      mendations.
 Katrina Disaster, 10/16/2006   as executive agent for defense
                                support of civil authorities
                                and the USNORTHCOM
                                as the supporting combatant
                                command for defense support
                                of civil authorities.
 D-2007-008, Acceptance and The Air Force and the                Extensive time required to     AF
 Surveillance of F-16 Mission DCMA will develop                  coordinate and issue policy.
 Training Center Simulation     quality assurance surveillance
 Services, 11/1/2006            plans for the follow-on F-16
                                Mission Training Center
                                simulation service contract.
                                The Air Force will revise AFI
                                36-2251 to more clearly
                                define the roles and respon-
                                sibilities of personnel who
                                manage and administer
                                simulation
                                service contracts throughout
                                all major commands.
 D-2007-010, Army Small         Army is following up on the      Additional time needed for     Army
 Arms Program that Relates to findings and recommenda-           implementation of recom-
 Availability, Maintainability, tions of the Soldier Weapons     mendations.
 and Reliability of Small Arms Assessment Team Report
 Support for the Warfighter,    Number 6-03.
 11/2/2006
 D-2007-023, DoD                The USD(AT&L) will de-           Corrective actions are on      USD(AT&L), Navy, DISA
 Purchases Made Through         velop and implement policy       schedule.
 the National Aeronautics       guidance to strengthen DoD
 and Space Administration,      contracting procedures and
 11/13/2006                     training requirements. The
                                Navy will develop training
                                for contracting personnel
                                on proper acquisition plan-
                                ning and administration of
                                interagency acquisitions.
                                The DISA will strengthen
                                contracting procedures in
                                the proper use of non-DoD
                                contracts.




                                                                                                                        121
October 1, 2008 to March 31, 2009
                                                                                                     Appendices



      Report Number               Description of Action           Reason Action Not          Principle Action Office
        Title/Date                                                   Completed
D-2007-024, Management        USD(P&R) will establish a       Long-term corrective         USD(P&R), DFAS
and Use of the Defense Travel process to collect complete,    actions on schedule.
System, 11/13/2006            reliable, and timely DoD
                              travel information and
                              establish necessary improve-
                              ments to maximize benefits of
                              Defense Travel System. DFAS
                              will
                               develop, document, and
                              implement a reconciliatory
                              process from disbursing sys-
                              tems to work counts in e-Biz.
D-2007-025, Acquisition of Report is FOUO.                    Extended time needed to     PACOM
the Pacific Mobile Emergency                                  analyze costs and complete
Radio System, 11/22/2006                                      required program documents.


D-2007-029, Auditability       Report is classified.          Corrective actions are on    DIA
Assessment of the Defense                                     schedule.
Intelligence Agency Busi-
ness Processes for the Iden-
tification, Documentation,
and Reporting of Property,
Plant, and Equipment (U),
11/30/2006
D-2007-039, Information        Report is FOUO.                Corrective actions are on    MDA
Assurance of Missile Defense                                  schedule.
Agency Information Systems
(FOUO), 12/21/2006

D-2007-040, General and        Improve the reliability of      Long-term corrective        Navy
Application Controls Over      financial information by        action on schedule.
the Financial Management       strengthening the general and
System at the Military         application controls over the
Sealift Command, 1/2/2007      Military Sealift Command’s
                               Financial Management Sys-
                               tem. Specifically, improve
                               internal controls over
                               entity-wide security program
                               planning and management,
                               access controls, software
                               development and change
                               controls, system software,
                               segregations of duties, service
                               continuity, authorization, and
                               accuracy.

122
                                                                                          Semiannual Report to the Congress
Appendix F



       Report Number                Description of Action           Reason Action Not          Principle Action Office
         Title/Date                                                    Completed
 D-2007-041, Navy General       Update the DoD FMR to be Corrective actions are on            USD(C), DFAS, Navy
 Fund Vendor Payments Pro-      in full compliance with State- schedule.
 cessed By Defense Finance      ment of Federal Financial Ac-
 and Accounting Service,        counting Standards Number
 1/2/2007                       1; improve the recording of
                                DoN accounts payable (A/P)
                                transactions; identify the ac-
                                counts payable recording as
                                an assessable unit and develop
                                procedures to test compli-
                                ance with Navy General
                                Fund; strengthen procedures
                                to ensure that supporting
                                documentation for all non-
                                Electronic Data Interchange
                                vendor payment transactions
                                is maintained and supports
                                proper disbursements;
                                improve payment and operat-
                                ing procedures used to make
                                vendor payments; require all
                                certifying officials to provide
                                supporting documents.
 D-2007-043, Controls Over      The Army and Air Force will     Extensive time required to    Army, AF
 the Army, Navy, and Air        issue purchase card guid-       coordinate and issue policy
 Force Purchase Card Pro-       ance and improve efforts to     guidance.
 grams, 1/10/2007               disseminate and implement
                                guidance.
 D-2007-044, FY 2005 DoD        The U.S. Army will revise its   Extensive time required to    Army
 Purchases Made Through the     internal policy guidance on     coordinate and issue policy
 Department of the Interior,    the proper use of non-DoD       guidance.
 1/16/2007                      contract instruments.

 D-2007-048, Navy Sponsor       The Navy is working to        Corrective actions are on       Navy
 Owned Material Stored at       improve controls over the fi- schedule.
 the Space and Naval Warfare    nancial reporting of sponsor-
 Systems Centers, 1/26/2007     owned material and inventory
                                controls over sponsor-owned
                                materials.
 D-2007-049, Equipment          Report is Classified.         Awaiting publication of         USD(P&R)
 Status of Deployed Forces                                    pending guidance.
 Within the U.S. Central
 Command, 1/25/2007




                                                                                                                     123
October 1, 2008 to March 31, 2009
                                                                                                          Appendices




      Report Number              Description of Action              Reason Action Not             Principle Action Office
        Title/Date                                                     Completed
D-2007-054, Quality Assur-    ASD (HA) will revise DoD          Normal time required for        ASD(HA), Army, Navy, AF
ance in the DoD Healthcare    6025-13-R, “Military Health       implementation of recom-
System, 2/20/2007             System Clinical Quality As-       mendations.
                              surance Program Regulation,”
                              dated 6/11/04 to help Mili-
                              tary Health System managers
                              monitor and improve the
                              quality of medical care in the
                              MHS and mitigate the risk of
                              financial loss. Upon
                              revision of the DoD regula-
                              tion, the Services will revise
                              Service-level guidance as
                              necessary.
D-2007-055, Contract          The USACE Ordering                USACE review results cur-       Army
Administration of the Water   Districts will monitor timeli-    rently being verified by the
Delivery Contract Between     ness of bottled water deliver-    DoD IG.
the Lipsey Mountain Spring    ies and each contracting office
Water Company and the         and their internal review
United States Army Corps of   offices will review processes
Engineers, 2/5/2007           to ensure enforcement of
                              contract time delivery param-
                              eters. The USACE will issue
                              guidance addressing contract
                              requirements for properly
                              supported
                              invoices and proper
                              recordkeeping and process ac-
                              tions to recoup disbursements
                              associated with government-
                              ordered delay of work and
                              unsupported payments to
                              contractors.
D-2007-057, Use and Con-      Report is FOUO. Modify the        Corrective actions are on       NGA
trols Over Military           Dashboard database to dis-        schedule.
Interdepartmental Purchase    tinguish different increments
Requests at the National      for evolutionary acquisition
Geospatial-Intelligence       programs.
Agency, 2/13/2007             Resolve outstanding suit-
                              ability deficiencies in the AN/
                              SPY-1D(V) Radar Upgrade
                              System.




124
                                                                                               Semiannual Report to the Congress
Appendix F



       Report Number                Description of Action         Reason Action Not           Principle Action Office
         Title/Date                                                  Completed
 D-2007-062, Department of      The DUSD Installations and Extensive time required to        USD(AT&L), Navy
 the Navy Purchases for and     Environment is to update     revise policy guidance and
 From Governmental Sources,     DoDI 4000.19 to include      develop new training course.
 2/28/2007                      the requirements of the DoD
                                Financial Management Regu-
                                lation, Volume 11A, Chapter
                                3. Also, the DoN will update
                                the Funds Usage Documents
                                Course and the Financial
                                Management Policy Manual
                                to include more detailed
                                procedures associated with
                                MIPRs to both DoD and
                                Non-DoD providers.




 D-2007-065, Controls Over   Implement more effective         Management corrective ac-      USD(C), DFAS, BTA, Army
 the Prevalidation of DOD    internal controls to ensure      tions on schedule.
 Commercial Payments,        that DoD matches each com-
 3/2/2007                    mercial payment
                             request to the correspond-
                             ing obligation and that, once
                             prevalidated, the
                             disbursement transaction cor-
                             rectly posts in the
                             official accounting records
                             without manual intervention.
 D-2007-066, Navy Acquisi- Modify the Dashboard data-         Extended time needed to        Navy
 tion Executive’s            base to distinguish different    complete database modifi-
 Management Oversight and increments for evolutionary         cations and to fully resolve
 Procurement Authority for   acquisition programs. Re-        acquisition program
 Acquisition                 solve outstanding suitability    deficiencies.
 Category I and II Programs, deficiencies in the AN/SPY-1-
 3/9/2007                    D(V) Radar Upgrade System.
 D-2007-067, DoD Initiatives Report is FOUO.                  Extensive time needed to       USD(AT&L), JS,
 for Combating                                                conduct DoD-wide assess-       STRATCOM
 Weapons of Mass Destruc-                                     ment and analyze results.
 tion, 3/30/2007




                                                                                                                    125
October 1, 2008 to March 31, 2009
                                                                                                      Appendices



      Report Number             Description of Action            Reason Action Not            Principle Action Office
        Title/Date                                                  Completed
D-2007-073, Financial Data  Develop appropriate              Management corrective ac-      USD(C), ASD(HA), Army,
Processed By the Medi-      accounting, measurement,         tions on schedule.             Navy, AF
cal Expense and Perfor-     and recognition methods for
mance Reporting System,     the data used in the MEPRS
3/21/2007                   allocation process at the
                            military treatment facilities.
D-2007-078, Audit Practices The C-17 program                 Implementation has been        AF
for the C-17 Globemaster    officials will ensure that the   delayed by budget reduc-
III Sustainment Partnership contractor complies with         tions and requirement revi-
Contract, 4/9/2007          the requirements of FAR          sions.
                            15.403-4 and provides Certi-
                            fied Cost or Pricing Data to
                            support the priced proposal
                            for FY 2009-FY 2011. Ad-
                            ditionally, the CCPD will be
                            examined and confirmed
                            to be current, accurate, and
                            complete in accordance with
                            the Truth in Negotiations
                            Act.
D-2007-079, Performance- NAVFAC SW will expand               Long-term corrective           Navy
Based Service Contract for the workload fluctuation          actions on schedule.
Environmental Services      language in future environ-
at the Navy Public Works    mental services contracts
Center, 4/3/2007            to address amount limits
                            exceeded and any changes
                            to pricing, and will gather
                            lessons learned and best
                            practices and
                            incorporate into future con-
                            tracts. Also, the NAVFAC
                            SW will evaluate the techni-
                            cal workload
                            required by the contract and
                            will provide two additional
                            technical personnel to the
                            residual
                            organization.




126
                                                                                           Semiannual Report to the Congress
Appendix F




       Report Number                Description of Action              Reason Action Not         Principle Action Office
         Title/Date                                                       Completed
 D-2007-081, Financial           Revise Engineering            Extensive time needed to         Army
 Management of Hurricane         Pamphlet 37-1-6 to include    update guidance.
 Katrina Relief Efforts at the   the Standard Operating
 U.S. Army Corps of Engi-        Procedure for the new Intra-
 neers, 4/6/2007                 Governmental Payment and
                                 Collection
                                 System procedures for stream-
                                 lining the billing process
                                 between the USACE and
                                 FEMA.
 D-2007-084, Acquisition         Report is FOUO.               Delays caused by identified      Navy, DCMA
 of the Navy Rapid Airborne                                    hardware/software issues and
 Mine Clearance System,                                        required fixes.
 4/11/2007

 D-2007-085, Reporting of        The Navy is working to im-        Corrective actions are on    Navy
 Navy Sponsor Owned              prove financial reporting and     schedule.
 Material Stored at the Naval    controls over sponsor-owned
 Systems Command Activi-         material.
 ties, 4/24/2007
 D-2007-086, Audit of In-        Report is classified.             Corrective actions are on    NSA
 coming Reimbursable Orders                                        schedule.
 for the National Security
 Agency (U), 4/24/2007

 D-2007-087, Internal Con-       DFAS will implement policy        Corrective actions will be   DFAS
 trols Over Army General         to maintain documentation         verified during an
 Fund Transactions Processed     of any off-line filter transac-   up-coming audit.
 by the Business Enter-          tion corrections; reconcile
 prise Information Services,     combinations listed in the
 4/25/2007                       Filter Criteria Table with
                                 applicable guidance and
                                 document the justification for
                                 any differences; and docu-
                                 ment the BEIS transaction
                                 processing to include explana-
                                 tions for exceptions to normal
                                 processing.
 D-2007-094, Consolidation       Report is FOUO.                   Management corrective ac-    DCMA
 of Lockheed Martin Pension                                        tions on schedule.
 Accounting
 Records for Selected Business
 Acquisitions, 5/14/2007




                                                                                                                       127
October 1, 2008 to March 31, 2009
                                                                                                           Appendices



      Report Number                Description of Action               Reason Action Not           Principle Action Office
        Title/Date                                                        Completed
D-2007-095, Consolidation       Report is FOUO.                    Management corrective ac-     DCAA, DCMA
of Raytheon Pension Ac-                                            tions on schedule.
counting Records for Se-
lected Business Acquisitions,
5/14/2007
D-2007-098, The Use and         The DIA will establish             Corrective actions are on     DIA
Control of Intragovernmental    procedures and controls            schedule.
Purchases at the Defense In-    over receiving of incoming
telligence Agency, 5/18/2007    customer orders, payments
                                and deobligations of funds,
                                and reimbursements to the
                                services for details of military
                                personnel outside of DoD.
D-2007-099, DoD                 Modifiy DoD Directive              Corrective actions are on     ASN(NII), DA&M
Privacy Program and             5400.11, “DoD Privacy Pro-         schedule.
Privacy Impact Assessments,     gram,” November 16, 2004;
                                and Assess the DoD Privacy
                                Program.
D-2007-100, Audit of the        Report is FOUO.                    Management corrective ac-     USD(AT&L), USD(C),
Special Operations Forces                                          tions on schedule.            SOCOM
Support Activity Contract,
5/18/2007

D-2007-109, Special Opera- The USSOCOM will revise                 Extensive time required to    SOCOM
tions Command Governmen- Regulation 37-4, Military                 revise policy guidance.
tal Purchases, 7/9/2007    Interdepartmental Purchase
                           Request Process, to place
                           added responsibilities on all
                           players involved in the MIPR
                           process and ensure MIPRs are
                           processed correctly.
D-2007-110, Identification DoD will direct the                     Corrective actions are on     USD(C)
and Reporting of Improper  Components with telecom-                schedule.
Payments Through Recovery munications contracts to
Auditing, 7/9/2007         conduct pilot programs to
                           determine the feasibility of
                           awarding a recovery audit
                           contract similar to the Navy’s
                           contract. The DoD will
                           continue to work with the
                           Navy to identify and dissemi-
                           nate lessons learned from its
                           recovery audit.




128
                                                                                                Semiannual Report to the Congress
Appendix F



       Report Number                Description of Action           Reason Action Not          Principle Action Office
         Title/Date                                                    Completed
 D-2007-114, DoD Garnish-     Take steps to improve the         Management corrective ac-     DFAS
 ment Program, 7/19/2007      accuracy and completeness         tions on schedule.
                              of amount garnished from
                              current and retired DoD
                              employees to pay debt obliga-
                              tions.
 D-2007-115, Audit of the     Improve small business            Coordination issues within    Army
 Army Information Technol- participation in indefinite-         the Army continue to cause
 ogy Enterprise               delivery, indefinite-quantity     delays.
 Solutions-2 Services         contracts for
 Contract, 9/9/2007           information technology
                              services by creating a small
                              business set-aside, c
                              omplying with consolidation
                              and bundling requirements,
                              and improving internal con-
                              trols.
 D-2007-118, Contract         Perform reconciliation of ice/    Extensive time needed to       Army
 Administration of the Ice    water delivery invoices against   perform reconciliation of ice/
 Delivery Contract Between    USACE ticket                      water delivery invoices.
 International American Prod- receipts and contractor GPS
 ucts, Worldwide              data to determine accuracy
 Services and the U.S. Army   of automated tracking system
 Corps of Engineers During    data.
 the Hurricane Katrina Recov-
 ery Effort, 8/24/2007
 D-2007-119, Procurement      The DSCR will address the is-     Corrective actions are on     DLA
 of Propeller Blade Heat-     sue of changing the contracts     schedule.
 ers for the C-130 Aircraft,  deletion of items provision
 8/27/2007                    with Hamilton Sundstrand.

 D-2007-121, Emergency          Update DoD FMR to address       Extensive time required to    USD(C)
 Supplemental Appropria-        issues related to domes-        coordinate and revise guid-
 tions for DoD Needs Arising    tic contingencies and seek      ance and closeout FEMA
 From Hurricane Katrina at      reimbursement from FEMA         mission assignments.
 Selected DoD Components,       for funds expended on the
 9/12/2007                      FEMA mission
                                assignments related to Hur-
                                ricane Katrina.




                                                                                                                     129
October 1, 2008 to March 31, 2009
                                                                                                     Appendices



      Report Number              Description of Action            Reason Action Not          Principle Action Office
        Title/Date                                                   Completed
D-2007-122, Report Of Ma-    Revise the Marine Corps          Management corrective ac-    MC
rine Corps Internal Controls Order P7300.21 to                tions on schedule.
Over                          include the DoD Financial
Military Equipment Funds,    Management Regulation,
9/11/2007                    volume 3, chapter 8 require-
                             ment that funds be obligated
                             and deobligated no more
                             than 10 calendar days after
                             being incurred and within
                             the same month incurred for
                             obligations of $100,000 or
                             more.
D-2007-124, Audit of Pur-    Revisions to USJFCOM             Corrective actions contin-  JFCOM
chases Made                  Instruction 4200.1 and to        gent on reauthorization of
Using USJFCOM Lim-           develop memorandum of            Limited Acquisition Author-
ited Acquisition Authority,  agreements that identify         ity for joint urgent needs.
9/27/2007                    roles and responsibilities for
                             all participants for
                             limited acquisition author-
                             ity purchases. Also to adopt
                             the practice of identify-
                             ing funding documents for
                             limited acquisition authority
                             purchases.
D-2007-128, Hotline          The DTRA will develop            Corrective action is on      DTRA
Allegations Concerning the its acquisition strategy for       schedule
Defense Threat               future A&AS contracts with
Reduction Agency             the goal of maximizing com-
Advisory and Assis-          petition, and will determine
tance Services Contract,     whether a multiple award
9/26/2007                    Indefinite-Delivery, Indefi-
                             nite-Quantity contract is in
                             the best interest of the
                             government.
D-2007-130, Contracting      Revision of Air Force In-        Extensive time needed to     AF
Practices at Air Force Labo- struction 63-101 to include      update guidance.
ratory Facilities, 9/28/2007 guidance that each Air Force
                             Laboratory
                             develop a quality assurance
                             surveillance plan for each
                             contract to reduce the risk
                             of overpayment for services
                             received and ensure surveil-
                             lance responsibilities are
                             carried out.



130
                                                                                          Semiannual Report to the Congress
Appendix F




       Report Number                Description of Action            Reason Action Not         Principle Action Office
         Title/Date                                                     Completed
 D-2007-131, Report on          Establish followup proce-        Management corrective ac-    USD(AT&L)
 Followup Audit on Recom-       dures to ensure that timely      tions on schedule.
 mendations for Controls        and responsive actions are
 Over Exporting Sensitive       taken to implement all audit
 Technologies to Countries      recommendations.
 of Concern, 9/28/2007
 D-2007-132, Army Use of        Revise Army Regulation           Corrective action is         Army
 and Controls Over the DoD      170-2 to update require-         ongoing.
 Aviation Into-Plane Reim-      ments and appropriate use
 bursement Card, 9/28/2007      of the Aviation Into-Plane
                                Reimbursement Card.
 D-2007-6-004, Defense          DCMA is working to               Corrective actions and ef-   DCMA
 Contract Management            assess and collect penalties     forts to verify corrective
 Agency Virginia’s Actions      as appropriate,                  actions are on-going.
 on Incurred Cost Audit Re-     improve internal controls
 ports, 4/20/2007               over unresolved costs, and
                                improve processes for taking
                                timely and proper actions on
                                audit report findings, includ-
                                ing holding contracting of-
                                ficers accountable for their
                                actions.
 D-2008-002, DoD Salary         Develop replacement sys-         Extensive time required to   DFAS
 Offset Program, 10/9/2007      tems or make modifications       develop replacement sys-
                                to existing                      tems or make modifications
                                systems to properly compute      to existing
                                salary offsets for military      systems.
                                members,
                                retirees, and annuitants.




                                                                                                                     131
October 1, 2008 to March 31, 2009
                                                                                                        Appendices




      Report Number              Description of Action             Reason Action Not            Principle Action Office
        Title/Date                                                    Completed
D-2008-003, Auditability      DIA is working to: improve       DIA has not responded to       DIA, DFAS
Assessment of the             its’ ability to identify the     requests for the status of
Defense Intelligence Agency   DIA share of DoD undis-          corrective actions taken in
Fund Balance with Treasury    tributed disbursements and       response to the report.
and                           collections; decrease the ma-
Appropriations Received,      teriality of the undistributed
10/16/2008                    balance for DIA at the
                              suballotment level; and
                              establish processes to ensure
                              all DIA limits are captured
                              in DFAS monthly reports
                              and the Cash Management
                              Report process. In addition,
                              DIA is working to ensure
                              that: it reports funding au-
                              thorization documents in the
                              proper accounting period;
                              the DFAS accounting and
                              reporting system contains
                              complete voucher data for
                              reconciliation purposes; and
                              the DFAS plan of
                              actions and milestones and
                              the service level agree-
                              ment with DIA are specific
                              enough to meet DIA needs.
D-2008-005, National          Report is classified.            Corrective actions are on      NSA
Security Agency                                                schedule.
Accounts Payable (U),
10/23/2007

D-2008-007, Task              The DoD will issue new           Corrective actions are on      USD(AT&L), AF
Orders on the Air Force       policy on the use of assisted    schedule.
Network-Centric Solution      acquisitions when a non-
Contract, 10/25/2007          DoD agency places an order
                              for a DoD customer using
                              a DoD contract. The Air
                              Force will investigate the
                              circumstances behind Air
                              Force generated GSA task
                              orders and corrective
                              actions will be based on the
                              finding.




132
                                                                                             Semiannual Report to the Congress
Appendix F



       Report Number                Description of Action          Reason Action Not          Principle Action Office
         Title/Date                                                   Completed
 D-2008-008, Defense            Transition of Other Defense Extensive time required to       DFAS
 Finance and Accounting         Organizations to an account- complete transition.
 Service Columbus Pro-          ing system that has internal
 cesses for Consolidating and   logic to crosswalk financial
 Compiling Other Defense        data to the United States
 Organizations                  Standard General Ledger.
 Financial Data, 10/30/2007
 D-2008-022, FY 2006 DoD        Issue comprehensive policy     Comprehensive policy ad-     USD(AT&L)
 Purchases Made Through         on Interagency Acquisitions    dresses recommendations in
 the National Institutes of     to strengthen contracting      multiple audits, legislative
 Health, 11/15/2007             procedures.                    requirements, and policy
                                                               changes.
 D-2008-030, Management         Oversee the Defense Secu-      Corrective actions are on    ASD(NII), DOT&E, DSCA
 of the Defense Security        rity Assistance Management     schedule.
 Assistance Management          System cost, schedule, per-
 System Training Module,        formance, and testing until
 12/6/2007                      the system is fully opera-
                                tional and the system’s com-
                                puter language is converted;
                                Require the system to meet
                                initial and operational test
                                and evaluation requirements;
                                Implement a strategic pause
                                until seven specific actions
                                are completed.

 D-2008-032, Acquisition of     Report is FOUO.                Extensive time needed to      Army
 the Surface-Launched Ad-                                      coordinate and approve re-
 vanced Medium Range Air-                                      vised program documents.
 To-Air Missile, 12/6/2007

 D-2008-034, Financial Man-     Complete preliminary           Lack of management atten-     USD(I), DSS
 agement at the                 review of potential Antide-    tion. in fully implementing
 Defense Security Service,      ficiency Act violations for    corrective
 1/3/2008                       FY 2005. Improve financial     actions.
                                management oversight. Up-
                                date policy and procedures
                                for financial management
                                training.




                                                                                                                    133
October 1, 2008 to March 31, 2009
                                                                                                       Appendices



      Report Number             Description of Action             Reason Action Not            Principle Action Office
        Title/Date                                                   Completed
D-2008-036, Follow-Up on     Establish a Memorandum           Additional time needed for     USD(AT&L)
FY 2006 DoD                  of Agreement with the U.S.       coordination of memoran-
Purchases Made Through       Department of Veterans Af-       dum of agreement.
the Depart of Veterans       fairs that addresses the roles
Affairs, 4/15/2008           and responsibilities regard-
                             ing contract administration
                             and
                             surveillance procedures.
D-2008-041, Management       Improve the Army’s               Corrective actions will be     USD(AT&L), USD(C),
of the General Fund En-      justification, planning, and     verified during an             ASD(NII), Army, DFAS
terprise Business System,    acquisition of the General       up-coming audit.
1/14/2008                    Fund Enterprise Business
                             System.
D-2008-042, Reporting        Update DoD Financial             Extensive time required to     USD(C)
of Contract Financing        Management Regulation to         revise and coordinate regu-
Interim Payments on the      include consistent policy for    lation.
DoD Financial Statements,    when to capitalize Research,
1/31/2008                    Development, Test, and
                             Evaluation expenses.
D-2008-043, Identification   Improve process to more ac-      Extensive coordination         USD(C)
and Reporting of Improper    curately identify, report, and   needed between DoD Com-
Payments -                   reduce improper payments.        ponents.
Refunds From DoD
Contractors, 1/31/2008
D-2008-044, Adequacy of      Improve the reconciliation       Long term corrective           DFAS
Procedures for Reconciling   of transactions posted to the    actions are on-going.
Fund Balance with Treasury   Fund Balance with Treasury
at the National Geospa-      general ledger account; de-
tial-Intelligence Agency,    velop effective and efficient
1/31/2008                    processes for identifying
                             disbursement and collec-
                             tion transactions through all
                             phases of processing.
D-2008-045, Controls Over    ASD (HA) will implement          Normal time needed for         ASD (HA)
the TRICARE Overseas         recommendations to further       implementation of recom-
Healthcare Program,          control health care costs        mendations.
                             provided to overseas DoD
                             beneficiaries.




134
                                                                                            Semiannual Report to the Congress
Appendix F




       Report Number                Description of Action         Reason Action Not         Principle Action Office
         Title/Date                                                  Completed
 D-2008-047, Contingency        DoD Component CIOs           Corrective actions are on     13 Component CIOs
 Planning for DoD               implement controls to verify schedule.
 Mission-Critical Informa-      that system owners devel-
 tion Systems, 2/5/2008         oped and tested system con-
                                tingency plans as required
                                or support the assertions
                                in their CIO Certification
                                Memorandums about the
                                completeness and accuracy
                                of their information in the
                                DoD Information Technol-
                                ogy Portfolio Repository.
 D-2008-048, Procuring          The report is FOUO.          Corrective actions are on     DLA
 Noncompetitive Spare Parts                                  schedule.
 Through an Exclusive Dis-
 tributor, 2/6/2008

 D-2008-050, Report on FY    Review and deobligate ex-        Corrective actions are on-   USD(C)
 2006 DoD Purchases Made     pired funds. Identify and fa-    going.
 Through the                 cilitate the return of expired
 Department of the Treasury, or excess funding from the
 2/11/2008                   Department of Treasury.
 D-2008-052, Disbursing      DFAS is working to improve       Corrective actions are on    DFAS
 Operations Directorate at   internal controls over: the      schedule.
 Defense Finance and Ac-     processing of Intra-Govern-
 counting Service Indianapo- mental Payment and Collec-
 lis Operations, 2/19/2008   tion
                             System transactions, adjust-
                             ments to IPAC suspense
                             accounts, and the reconcilia-
                             tion of the “Statement of
                             Differences-Deposits”
                             report.
 D-2008-053, Defense         Review financial manage-         Long term corrective         DFAS
 Finance & Accounting        ment processes and               actions are on schedule.
 Service Kansas City Federal systems to identify
 Managers’ Financial Integ- material weaknesses and
 rity Act, Federal Financial develop necessary remedia-
 Management Improvement tion plans.
 Act, & Federal Informa-     Issue annual guidance on
 tion Security Management    Federal Information Security
 Act Reporting for FY 2005, Management Act and update
 2/19/2008                   procedure on record reten-
                             tion.




                                                                                                                  135
October 1, 2008 to March 31, 2009
                                                                                                   Appendices



      Report Number             Description of Action           Reason Action Not          Principle Action Office
        Title/Date                                                 Completed
D-2008-057, Contractor      Require formal training on      Corrective actions are       USD(AT&L)
Past Performance Informa-   writing past performance        on-going.
tion, 2/29/2008             assessment
                            reports. Reconcile active
                            contracts with contracts
                            registered in the Contractor
                            Performance Assessment
                            Reporting System, then reg-
                            ister and begin reporting on
                            unregistered active contracts
                            and newly awarded con-
                            tracts.
D-2008-059, Supplemental Establish procedures for           Normal time required for     ASD(HA)
Funds Used for Medical      determining and document-       implementation of recom-
Support for the Global War ing incremental costing of       mendations.
on Terrorism, 3/6/2008      Global War on Terrorism
                            transactions.
D-2008-061, Controls Over Include requirements for          Management corrective ac-    DFAS, NGB
Funds Used by the Air Force gathering and including         tions on schedule.
and National Guard Bureau transaction-level data in
for the National Drug Con- guidance, and correct the
trol Program, 3/7/2008      causes for the inaccurate
                            leave balances and ensure
                            that the same deficiencies
                            will not occur in the sched-
                            uled replacement system.
D-2008-063, Vendor Pay      Establish and maintain ad-      Management corrective ac-    AF
Disbursement Cycle,         equate and effective internal   tions on schedule.
Air Force General Fund,     control over the Air Force
3/12/2008                   vendor pay
                            disbursement cycle. Deter-
                            mine whether the Govern-
                            ment should be recording
                            the third-party liability for
                            subcontractors work on cer-
                            tain kinds of contracts.
D-2008-066, FY 2006 and     Improve contracting and         Time needed to update guid- Army, Navy, AF
FY 2007 DoD Purchases       funding for DoD procure-        ance, improve
Made Through the            ments made through an           independent government
Department of the           outside agency.                 cost estimates, and
Interior, 3/19/2008                                         improve pre-award
                                                            procedures.




136
                                                                                        Semiannual Report to the Congress
Appendix F




       Report Number                Description of Action           Reason Action Not          Principle Action Office
         Title/Date                                                    Completed
 D-2008-067, DoD                Revise the Army’s internal      Extensive time required to    Army
 Procurement Policy for         policy on the proper use of     coordinate and issue policy
 Body Armor, 3/31/2008          non-DoD contract instru-        guidance.
                                ments.

 D-2008-069, Controls Over      The Army is working to im-      Corrective actions are on     Army
 Army Working Capital Fund      prove controls in the timeli-   schedule.
 Inventory Stored by Organi-    ness of physical inventories,
 zations Other than Defense     separation of duties, imple-
 Logistics Agency, 3/28/2008    mentation of location audit
                                programs, and inventory
                                adjustment research at the
                                audited storage activities.
 D-2008-070, Management         Report is classified.           Corrective actions are on     PACOM
 of Noncombatant Evacua-                                        schedule.
 tion Operations Within the
 U.S. Pacific Command (U),
 3/25/2008
 D-2008-071, Management         Report is classified.           Corrective actions are on     PACOM
 of Noncombatant Evacu-                                         schedule.
 ation Operations in Japan
 (U), 3/28/2008

 D-2008-072, Controls Over      The Army is working to         Corrective actions are on      USD(C), Army, DFAS
 Army Real Property Finan-      ensure compliance with the schedule.
 cial Reporting, 3/28/2008      new costing methodology
                                for assigning costs to the
                                real property users and to
                                correct misstatements in the
                                Army financial statements.
                                The Army is also working to
                                implement a common
                                business process for
                                creating a subsidiary ledger
                                file to support the property
                                management and financial
                                reporting of AWCF and
                                AGF real property assets.
                                Further, the Army is work-
                                ing to improve the accuracy
                                and efficiency of the transfer
                                of construction-in-progress
                                costs between accounting
                                and property management
                                systems.



                                                                                                                     137
October 1, 2008 to March 31, 2009
                                                                                                                   Appendices

                                                   Appendix G

                                Significant Open Recommendations
Managers accepted or proposed accept-          agreed pending the implementation of           process of updating their corresponding
able alternatives for 98 percent of the 382    the Business Enterprise Information Ser-       guidance.
DoD OIG audit recommendations ren-             vices (BEIS). However, the system is yet
dered in the last 6 months of FY 2008.         to be fully deployed. Based on the most        • Recommendation made in 2005 to
Many recommendations require com-              recent audit of the Army General Fund          develop guidance regarding information
plex and time consuming actions, but           financial statements, the auditors con-        systems security, to include addressing
managers are expected to make reason-          cluded that the issue of abnormal bal-         the requirements of the Federal Informa-
able efforts to comply with agreed upon        ances in accounting records continues to       tion Security Management Act and relat-
implementation schedules. Although             be an issue. In addition to the financial      ed OMB guidance. Although action has
most of the 1087 open actions on DoD           data compilation and abnormal balance          been initiated, the three policies are still
OIG audit reports being monitored in           issues impacting the Department’s finan-       in development to adequately incorpo-
the follow-up system are on track for          cial statements, other on-going issues in-     rate the policy revisions of the informa-
timely implementation, there were 185          clude those relating to budget execution,      tion security certification and accredita-
reports more than 12 months old for            cash management, and financial system          tion process for various DoD systems.
which management has not completed             development and deployment.
actions to implement the recommended                                                          • Recommendations from several reports
improvements.                                  • Recommendations from multiple re-            involve: clarifying and improving DoD
                                               ports in the high-risk area of personnel       policy guidance and procedures cover-
The following significant open recom-          security. Some of the most significant of      ing the roles and responsibilities of con-
mendations have yet to be implement-           these include: development of a priori-        tracting personnel. In addition, recom-
ed:                                            tization process for investigations; estab-    mendations from several other reports
                                               lishment of minimum training and ex-           involve: developing and implementing
• Recommendations from multiple re-            perience requirements and a certification      requirements for obtaining cost or pric-
ports on financial management and ac-          program for personnel granting security        ing data; conducting price analysis; de-
counting issues, which involve making          clearances; issuance of policy on the access   termining price reasonableness; fulfilling
numerous revisions to the DoD Finan-           by all contractors, including foreign na-      competition requirements; and using
cial Management Regulations to clarify         tionals, to unclassified but sensitive DoD     multiple-award contracts. Finally, other
accounting policy and guidance, have re-       IT systems; establishment of policy on         recommendations involve monitoring
sulted in initiatives that are underway to     access reciprocity and a single, integrated    contractor performance and maintain-
publish and implement improved guid-           database for Special Access Programs;          ing past performance data on contrac-
ance. In addition, recommendations to          development of DoD-wide backlog defi-          tors. Corrective actions are underway to
improve accounting processes and inter-        nitions and measures; and improvement          improver DoD contracting procedures
nal controls over financial reporting and      of the projections of clearance require-       related to source selection, interagency
related financial systems have resulted in     ments for industrial personnel. Progress       acquisitions, contract surveillance and
initiatives that are underway to correct fi-   on the unprecedented transformation of         reporting, and sole-source procurements
nancial systems deficiencies. Implemen-        the personnel security program is slow.        of spare parts.
tation of these corrective actions will en-    Implementation of multiple report rec-
able the Department to provide accurate,       ommendations is pending the issuance           • Recommendations from several reports
timely, and reliable financial statements.     of revised DoD Regulation 5200.2-R.            address issues regarding improvement in
In 2004, the OIG DoD reported on sig-          • Recommendations made in 2004 to              oversight responsibilities and manage-
nificant unresolved abnormal balances          clarify guidance on the differences be-        ment controls relating to the purchase
in both the proprietary and budgetary          tween force protection and antiterror-         card program. These recommendations
accounts used in compiling the Army            ism in DoD policies and procedures and         include: ensuring all cardholders and ap-
General Fund financial statements. The         revise existing antiterrorism plans in ac-     proving officials receive the required ini-
auditors recommended that DFAS iden-           cordance with DoD policy. DoD revised          tial and refresher purchase card training;
tify the abnormal balances and research        its applicable guidance in October 2006.       effectively managing the span of control
the causes for the differences. DFAS           The Army and Marine Corps are now in           over purchase card accounts; conducting

138
                                                                                                      Semiannual Report to the Congress
Appendix G/H




oversight reviews of approving official ac-   • Recommendations made in three re-        zens in those countries, and because of
counts to verify compliance with DoD          ports in 2008 to improve management        the magnitude of DoD involvement in a
purchase card guidance; ensuring proper       of Noncombatant Evacuation Opera-          NEO, if ordered. Actions are underway
retention of documents for all accounts;      tions (NEO) within the U.S. Pacific        to improve management and coordina-
and adequately enforcing existing con-        Command to protect U.S. citizens in the    tion of NEO plans.
trols throughout the purchase card pro-       event they must be removed from harm’s
cess. The Services are now in the process     way. The reports focused on NEO oper-
of updating their guidance to conform to      ations in Japan and Korea because of the
corresponding DoD policy.                     presence of U.S. military and U.S. citi-



                                                    Appendix H

                                                        Acronyms

(AA&E) Arms, Ammunition, and Explosives                             (DA) Department of the Army
(ABIS) Automated Biometric Identification System                    (DCIO) Defense Criminal Investigative Organizations
(ACS) Army Community Service                                        (DCIS) Defense Criminal Investigative Service
(AEWRS) Army Energy and Water Reporting System                      (DCMA) Defense Contract Management Agency
(AFAA) Air Force Audit Agency                                       (DFAS) Defense Finance and Accounting Service
(AFB) Air Force Base                                                (DIB) Defense Industrial Base
(AFOSI) Air Force Office of Special Investigations                  (DoD) Department of Defense
(ANSF) Afghan National Security Forces                              (DoN) Department of Navy
(AT) Antiterrorism                                                  (DoS) Department of State
(BAMC) Brooke Army Medical Center                                   (DSCA) Defense Security Cooperation Agency
(BLRA) Bayonne Local Redevelopment Authority                        (EFSS) Expeditionary Fire Support System
(BUMED) Bureau of Medicine and Surgery Management                   (EFV) Expeditionary Fighting Vehicle
(CAC) Common Access Cards                                           (EST) Everbright Science & Technology
(CBRN) Chemical, Biological, Radiological or Nuclear                (FBI) Federal Bureau of Investigation
Attacks                                                             (FMS) Foreign Military Sales
(CCCI) Central Criminal Court Iraq                                  (FOIA) Freedom of Information Act
(CIA) Central Intelligence Agency                                   (FY) Fiscal Year
(CIGIE) Council of Inspectors General on Integrity and              (GAO) Government Accountability Office
Efficiency                                                          (GFE) Government Furnished Equipment
(CITF) Criminal Investigation Task Force                            (GSA) General Services Administration
(CJTF) Combined Joint Task Force                                    (GWOT) Global War on Terror
(COMA) Cash and Other Monetary Assets                               (HMMWV) High Mobility Multipurpose Wheeled Vehicle
(CONUS) Continental United States                                   (HOA) Horn of Africa
(CPA) Coalition Provisional Authority                               (HQMC) Headquarters Marine Corps
(CRI) Civilian Reprisal Investigation                               (IAFIS) Integrated Automated Fingerprint Identification
(CSTC) Combined Security Transition Command                        System
(CVAMP) Core Vulnerability Assessment Management                    (ICE) Immigration and Customs Enforcement
Program                                                             (IED) Improvised Explosive Device



                                                                                                                            139
October 1, 2008 to March 31, 2009
                                                                                                 Appendices


 (IEEPA) International Emergency Economic Powers Act       (OCIE) Organizational Clothing and Individual Equipment
 (IPO) Investigative Policy and Oversight                  (OCONUS) Outside Continental United States
 (IPP) Installation Protection Program                     (OIF) Operation Iraqi Freedom
 (ISF) Iraq Security Forces                                (OEF) Operation Enduring Freedom
 (ITAR) International Traffic in Arms Act                  (OMC) Office of Military Commissions
 (ITV) Internally Transportable Vehicle                    (ORHA) Office of Reconstruction and Humanitarian
 (JBB) Joint Base Balad                                   Assistance
 (JPMG) Joint Project Manager Guardian                     (OSD) Office of Secretary of Defense
 (JSF) Joint Strike Fighter                                (P&O) Policy and Oversight
 (JTTF) Joint Terrorism Task Force                         (PEG) Program Evaluation Group
 (KBR) Kellog, Brown and Root Inc.                         (PMO) Program Management Office
 (KRAB) Kirkuk Regional Air Base                           (QAR) Quality Assurance Representation
 (LEP) Law Enforcement Program                             (RAC) Risk Assessment Code
 (LOGCAP) Logistics Civil Augmentation Program             (RAPIDS) Real-time Automated Personnel Identification
 (LOGSEC) Logistics Security                              System
 (LRA) Local Redevelopment Authorities                     (SDDC) Surface Deployment and Distribution Command
 (MCCDC) Marine Corps Combat Development Command           (SIGIR) Special Inspector General for Iraq Reconstruction
 (MCSC) Marine Corps Systems Command                       (SOF) Special Operations Forces
 (MEDCOM) U.S. Army Medical Command                        (SOFA) Status of Forces Agreement
 (MFLC) Military Family and Life Counseling                (SPAWAR) Space and Naval Warfare
 (MNC-I) Multi-National Corps-Iraq                         (SPO) Office of Special Plans and Operations
 (MNF-I) Multi-National Force-Iraq                         (ST/STE) Special Tools and Special Test Equipment
 (MOD) Ministry of Defense                                 (SWA) Southwest Asia
 (MOI) Ministry of Interior                                (SWA JPG) Southwest Asia Joint Planning Group
 (MPFU) Major Procurement Fraud Unit                       (TNT) Trinitrotoluene
 (MRAP) Mine Resistant Ambush Protected Vehicles           (UAV) Unmanned Aerial Vehicles
 (MRI) Military Reprisal Investigation                     (USAAA) U.S. Army Audit Agency
 (MNSTC-I) Multi-National Security Transition Command-     (USACIDIC) U.S. Army Criminal Investigation Command
Iraq                                                       (USACOE) U.S.Army Corps of Engineers
 (NAR) Notice of Ammunition Reclassification               (USAF) United States Air Force
 (NATO-ISAF) North Atlantic Treaty Organization-           (USAREUR) U.S. Army Europe
International Security Assistance                          (USD(C)/CFO) Under Secretary of Defense (Comptroller/
  Force                                                   DoD Chief Financial Officer)
 (NAVAUDSVC) Naval Audit Service                           (USMC) United States Marine Corps
 (NCIJTF) National Cyber Investigative Joint Task Force    (USML) United States Munitions List
 (NIH) National Institute of Health                        (USN) U.S. Navy
 (NMCI) Navy Marine Corps Intranet                         (USPS) U.S. Postal Service
 (NSA) National Security Agency                            (UUNS) Urgent Universal Needs Statement
 (NVD) Night Vision Device                                 (VA) Veterans Administration
 (OCCL) Office of Communications and Congressional
Liaison




140
                                                                                      Semiannual Report to the Congress
Department of Defense
   Inspector General
  400 Army Navy Drive
Arlington, VA 22202-4704
This report, as well as audit report and testimony text, are available on the Internet at: www.
    Additional information on or copies of this report may be obtained by writing or con

                    Office of the Inspector General of the Department of Defense
                        Office of Communications and Congressional Liaison
                         400 Army Navy Drive, Arlington, VA 22202-4704
